DEPARTMENT OF HOMELAND SECURITY

   Office of Inspector General


   Independent Auditors' Report On
  DHS' FY 2005 Financia %mm"lents




 (Excerpts from the DHS Performance
      and Accountability Report)
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                                INDEPENDENT AUDITORS' REPORT


Secretary and Inspector General
U.S. Department of Homeland Security:

We were engaged to audit the accompanying consolidated balance sheets of the U.S. Department of
Homeland Security (DHS) as of September 30, 2005 and 2004, and the rela-ted consolidated statements of
net cost, changes in net position, and financing, combined statement oE budgetary resources, and statement
of custodial activity for the year ended September 30,2004 (referred to herein as "consolidated financial
statements"). We were also engaged to consider DWS' internal control over financial reporting and to test
DNS' compliance with certain provisions of applicable laws, regulations, contracts, and grant agreements
that could have a direct and material effect on these financial statements. We were not engaged to audit the
accompanying consolidated statements of net cost, changes in net position, and financing, combined
statement of budgetary resources, and statement of custodial activity for the year ended September 30,
2005.

Summary

As discussed in our report on the financial statements, the scope of our work was not suficient to express
an opinion on the DHS consolidated balance shed as of September 30, 2005 and on the consolidated
financial statements as of and for the year encled September 30, 2004.

Our fiscal year 2005 consideration of internal control over financial reporting resulted in the following
conditions being identified as reportable conclitions:

Reportable Conditions That Are Considered To Be Material Weaknesses
         Financial Management Oversight
         Financial Reporting
         Financial Systems Security
         Fund Balance with Treasury
         Property, Plant, and Equipment
         Operating Materials and Supplies
         Undelivered Orders, Accounts and Grants Payable, and Disbursements
         Actuarial Liabilities
         Budgetary Accounting
         Intragovernmental and lntradepartmental Balances

Other Reportable Conditions
    K. Environ~nentalLiabilities
    L. Custodial Revenue and Drawback
The results of our tests of fiscal year 2005 compliance with certain provisions of the following laws,
regulations, contracts, and grant agreements disclosed instances of noncompliance or other matters that are
required to be reported under Government Azlditing Standards, issued by the Comptroller General of the
United States, and Office of Management and Budget (OMB) Bulletin No. 01 -02, Az~ditReqzlirentents.for
Fedeml Finunciad Statements:

    M.   Federal Mcinagers ' Financial Integrity Act of 1982 (FMFIA)
    N.   Fedem2 Financial Mcinagement Improvement Act of 1996 (FFMIA)
    0.   Fedeml I?formation Security Management Act (Electronic Governmenl Act of2002)
    P.   Single Atrdit Act Amendments of 1996, and Laws and Regulations Supporting OMB Circular No.
         A-50, Aaidiil Follow-zip, as revised
    Q. Improper Pqments Infornzatioiz Act of 2002
    R. DI-IS Financicil Accozintclbility Act of2004
    S. Government Pe~formanceund Reszilts Act of 1993

DHS financial management systems did not substantially comply with the FFMIA Section 803(a)
requirements related lo compliance with Federal financial management system requirements, applicable
Federal accounting standards, and the United States Government Standard General Ledger at the
transaction level.

As discussed in our report on the financial statements, the scope of our work was not sufficient to express
an opinion on the consolidated balance sheet as of September 30, 2005, and we were not engaged to audit
the accompanying consolidated statements of net cost, changes in net position, and financing, combined
statement of budgetary resources, and statement of custodial activity for the yeas ended September 30,
2005. Accordingly, other internal control matters and other instances of non-compliance may have been
identified and reported had we been able to perform all procedures necessary to express an opinion on the
September 30,2005 consolidated balance sheet, and had we been engaged to audit the other fiscal year
2005 consolida.ted financial statements.

The following sections discuss the reasons why we are unable to express an opinion on the accompanying
DHS consolidated balance sheet as of September 30, 2005 and on the consolidated financial statements as
of and for the year encled September 30, 2004; our consideration of DIC-IS' internal control over financial
reporting; our tests of DHS' compliance with certain provisions of applicable laws, regulations, contracts,
and grant agreements; and management's and our responsibilities.

Report on the Financial Statements

We were engaged to audit the accompanying consolidated balance sheets of the U.S. Department of
Homeland Security (DWS) as of September 30, 2005 and 2004, and the related consolidated statements of net
cost, changes in net position, and financing, combined statement of budgetary resources, and statement of
custodial activity for the year ended September 30, 2004. We were not engaged to audit the accompanying
consolidated statements of net cost, changes in net position, and financing, combined statement of budgetary
resources, and statement of custodial activity for the year ended September 30, 2005.

Immigration and Customs Enforcement (ICE), did not adequately maintain its accounting records during
fiscal year 2005, or the accounting records of other DHS components - United States Citizenship and
Immigration Service (USCIS), Science and Technology (S&T), Information Analysis and Infrast~ucture
Protection (IAIP), DNS Management, and Border and Transportation Security (BTS) Headquarters
(referred to herein as "DHS-ICE components"), for which ICE is the acco~intingservice provider. ICE
management was unable to provide sufficient evidential matter that supported the balance sheet accounts of
ICE and DHS-ICE components as presented in the DHS consolidated balance sheet at September 30,2005;
or make knowledgeable representation of facts and circumstances regarding accounting and budgetary
transactions that occurred in fiscal year 2005. Throughout the year, and at September 30,2005, ICE did not
perform timely reconciliations of balance sheet accounts or complete its investigation of potential errors in
the financial statements that may materially affect the fair presentation of the DHS consolidated financial
statements, at September 30, 2005; and therefore, DI-IS management was unable to represent that the ICE
and DHS-ICE component balance sheets are fairly stated as of September 30, 2005. The total assets of ICE
and DHS-ICE components, as reported in the accompanying DI-IS consolidated balance sheet at September
30,2005, are $5.8 billion or 5.1 percent of consolidated total assets.

The United States Coast Guard (Coast Guard), was unable to provide adequate supporting documentation
during fiscal year 2005, particularly with respect to actuarially-derived liabilities, operating materials and
supplies, undelivered orders, certain categories of property, plant and equipment, transactions related to the
Coast Guard's fund balance with Treasury, and changes in net position and adjustments made as part of
Coast Guard's financial reporting process, as presented in the accompanying DHS consolidated balance
sheet at September 30, 2005. Adequate evidential matter in support of recorded transactions was not
available in all cases and corrective action was not taken prior to the completion of DHS' Fiscal Year 2005
Performance al7d Accozintcrbility Report. Beca~tseofthe significance of these balances, DHS management
was unable to represent that the Coast Guarcl's balance sheet as of September 30, 2005, is fairly stated.
The total assets of Coast Guard, as reported in the accompanying DHS consolidated balance sheet at
September 30, 2005, are $1 1.4 billion or 9.9 percent of consolidated total assets.

State and Local Government Coordination and Preparedness (SLGCP) was unable to resolve discrepancies
identified in the data underlying the calculation of its grants payable liability, and the related effect on net
position, if any, at September 30, 2005, prior to the completion of DHS' Fiscul Year 200.5 Peifori?7unce
unll Acco~mtul~ili[y  Report. SLGCP grants payable, as reported in the accompanying DHS consolidated
balance sheet at September 30, 2005, is $1 71 million or 0.2 percent of consolidated total liabilities.

The Transportation Security Administration (TSA) was unable to fully reconcile and support the accuracy
and con~pletenessof its accounts payable with the public and net position prior to the con~pletionof DHS'
Fiscal Yecw 2005 Pei:fbrrncrnceat7d Accozr?ztability Report. TSA accounts payable with the public and net
position, as reported in the accompanying DHS consolidated balance sheet at September 30, 2005, are
$85 1 nlillion or 1.2 percent of consolidated total liabilities, and $2.4 billion or 5.4 percent of consolidated
total net position, respectively.

Emergency Preparedness and Response (EPR) was unable to fully support the accuracy and completeness
of certain components of its deferrecl revenue and accounts payable, and the related effect on net position,
if any, prior to the completion of DHS' Fisc~ilYear 2005 Pel:formar~ceand Accozirztability Report. These
liabilities, as reported in the accompanying DHS consolidated balance sheet at September 30, 2005, are
$1.7 billion or 2.4 percent of consolidated total liabilities.

DHS was unable to reconcile intragovernmental transactions and balances, prior to the completion of DHS'
Fiscal Year 2005 Performance and Accoztntability Report, totaling $1.6 billion, with other Federal trading
partners, as of September 30,2005. In addition, DHS omitted several financial statement note disclosures
required by OMB Circular No. A-136, Financial Reporting Requirements, Part A, Form and Col1tei?tof'tlw
Pel:formarzce and Accotintability Report.

As discussed above, we were unable to obtain appropriate representations from DHS management with
respect to the accompanying DHS consolidated balance sheet as of September 30,2005, and were unable
to determine the effect of the lack of such representations on DHS' financial position as of September 30,
2005. Because of the matters discussed in the six preceding paragraphs, the scope of our work was not
sufficient to enable us to express, and we do not express, an opinion on the accompanying DHS
consolidated balance sheet as of September 30,2005.
We were not engaged to audit the accompanying consolidated statements of net cost, changes in net
position, and financing, combined statement of budgetary resources, and statement of custodial activity for
the year ended September 30, 2005, and accordingly, we do not express an opinion on those financial
statements.

Regarding the fiscal year 2004 consolidated financial statements, ICE clid not adequately maintain its
accounting records during fiscal year 2004, particularly with respect to balances transferred in from legacy
agencies, intradepartmental and intragovernmental agreements and transactions, suspense accounts, costs
and budgetary transactions, thus requiring extensive reconciliation and adjustment of these and other
accounts at year end, which ICE was unable to complete. Also, ICE management was unable to provide
evidential matter or was not able to make knowledgeable representation of facts and circumstances,
regarding certain transactions occurring in fiscal year 2004. DNS was unable lo complete and review the
accompanying fiscal year 2004 consolidated financial statements, or reconcile its intragovernmental
balances, prior to the completion of our procedures. In addition, we were unable to complete audit
procedures over certain costs and budgetary transactions of the Coast Guard for the year ended September
30, 2004. For fiscal year 2004, OMB required that federal agencies submit audited financial statements by
November 15,2004. It was impracticable to extend our audit procedures sufficiently to determine the
extent to which the consolidated financial statements as of and for the year ended September 30, 2004, may
have been affected by these conditions.
Because of the matters discussed in the previous paragraph, the scope of our work was not sufficient to
enable us to express, and we do not express, an opinion on the accompanying consolidated financial
statements of DHS as of and for the year ended September 30, 2004.

As discussed in Note 30, DHS restated its fiscal year 2004 consolidated financial statements to correct an
error in accounting for budgetary obligations related to the EPR National Flood Insurance Program as
previously reported in DHS' fiscal year 2004 consolidated financial statements. We were not engaged to
audit the restatement discussed in Note 30, and accordingly, we have not concluded on the appropriateness
of this accounting treatment or the restatement of the fiscal year 2004 financial statements.

The information in the Management's Discussion and Analysis (MD&A), Required Supplementary
Stewarclship Information (RSSI), and Required Supplementary Information (RS7) sections is not a required
part of the financial statements, but is supplementary information required by accounting principles
generally accepted in the United States of America or OMB Circular No. A-1 36, We were unable to
complete limited procedures over MD&A, RSSI, and RSI as prescribed by professional standards, because
of the limitations on the scope of our audit described in the previous paragraphs of this section of our report.
Certain information presented in the MD&A, RSSI, and RSI is based on fiscal years 2005 and 2004
consolidated financial statements on which we have not expressed an opinion. We did not audit the MD&A,
RSSI, and RSI and, accordingly, we express no opinion on it. However, in fiscal years 2005 and 2004, we
noted that DHS did not reconcile nonfiduciary accounts with its trading partners, as specified by OMB
requirements, which could affect the intragovernmental information presented in RSI. In fiscal year 2004,
we also noted that DEIS did not present as RSI a schedule of budgetary resources by major budgetary
account, as required.

The information in the Executive Summary, Performance Information, Other Accompanying Information,
and Appendices sections of DHS' Fiscal Year 2005 Per:for.mance urzd Accozii~tabilityReport are presented
for purposes of additional analysis, and is not a required part of the consolidated financial statements. This
information has not been subjected to auditing procedures, and accordingly, we express no opinion on it.

Internal Control over Financial Reporting

Our consideration of internal control over financial reporting would not necessarily disclose all matters in
the internal control over financial reporting that might be reportable conditions. Under standards issued by
the American Institute of Certified Public Accountants, reportable conditions are matters coming to our
attention relating to significant deficiencies in the design or operation of the internal control over financial
reporting that, in our judgment, could adversely affect DHS' ability to record, process, summarize, and
report financial data consistent with the assertions by management in the consolidated financial statements.

Material weaknesses are reportable conditions in which the design or operation of one or more of the
internal control components does not r e d ~ ~ to
                                               c ea relatively low level the risk that misstatements, in
amounts that would be material in relation to the financial statements being audited, may occur and not be
detected within a timely period by employees in the normal course of performing their assigned functions.
We noted certain matters, described in Appendices I and II involving internal control over financial
reporting and its operation that we consider to be reportable conditions. We believe that reportable
conditions A through J presented in Appendix B are material weaknesses. Appendix I1 represents other
reportable conditions K and L. As disc~lssedin our report on the financial statements, the scope of our
work was not sufficient to express an opinion on &heconsolidated balance sheet as of September 30, 2005,
and accordingly, other internal control matters may have been identified and reported had we been able to
perform all procedures necessary to express an opinion on the September 30,2005 consolidated balance
sheet, and had we been engaged to audit the other fiscal year 2005 consolidated financial statements.


A summary of the status of fiscal year 2004 reportable conditions is included as Appendix IV

We also noted other matters involving internal control over financial reporting and its operation that we
will report to the management of DIIS in a separate letter dated November 15, 2005.

Internal Controls over Required Supplementary Stewardship Information and Performance
Measures

We noted certain significant deficiencies in internal control over RSSI, discussed in Appendix 1 that, in our
judgment, could adversely affect DWS' ability to collect, process, record, and summarize RSSI. With
respect to the design of internal controls relating to existence and completeness assertions over
performance measures determined by management to be key and reported in the MD&A section of DHS'
Fiscal Yea],2005 Pe~jbrmnnceand Accolrl~tirbili<y     Report, we noted certain deficiencies in internal control
over reported performance measures, discussed in Appendix 1 that, in our judgment, could adversely affect
DHS' ability to collect, process, record, summarize and report performance measures in accordance with
management's criteria.

As discussed in our report on the financial statements, the scope of our work was not sufficient to express
an opinion on the consolidated balance sheet as of September 30,2005, and accordingly, other internal
control matters affecting RSSI and performance measures may have been identified and reported had we
been able to perform all procedures necessary 20 express an opinion on the September 30,2005
consolidated balance sheet, and had we been engaged to audit the other fiscal year 2005 consolidated
financial statements.

Compliance and Other Matters

Our tests of compliance with certain provisions of laws, regulations, contracts, and grant agreements, as
described in the Responsibilities section of this report, exclusive of those referred to in the FFMIA,
disclosed six instances of noncompliance or other matters that are required to be reported under
Governl~zentAziditing Stundurds and OMB Bulletin No. 01 -02, and are described in Appendix III.

The results of our tests of compliance with certain provisions of other laws and regulations, exclusive of
those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are required to
be reported under Government Azrditing Stunclurds or OMB Bulletin No. 01-02.
The results of our tests of FFMIA, disclosed instances where DHS' financial management systems did not
substantially comply with Federal financial management systems requirements, applicable Federal
accounting standards, and recording of financial transactions in accorclance with the United States
Government Standard General Ledger, that are presented in Appendices I and II.

As discussed in our report on the financial statements, the scope of our work was not sufficient to express
an opinion on the consolidated balance sheet as of September 30,2005, and accordingly, other instances of
non-compliance with laws, regulations, contracts, and grant agreements may have been identified and
reported, had we been able to perform all procedures necessary to express an opinion on the September 30,
2005 consolidated balance sheet, and had we been engaged to audit the other fiscal year 2005 consolidated
financial statements.

AclditionalfWlftler. ICE management represents that they intend to initiate a review over the completeness
of obligations recorded in its accounting records that may identify instances of violations of the
Antideficiency Act, or other violations of appropriation law that may have occurred during fiscal year 2005,
and have no&been reported as required by Federal government regulations.

Management's Response to Internal Control and Compliance Findings

DHS management has indicated, in a separate letter immediately following this report that it concurs with
the findings presented in Appendices I, I1 and I11 of our report. Further, they have responded that they will
take corrective action, as necessary, to ensure that the Chief Financial Officer, and the respective bureau
management, within DHS address the matters presented herein.

Responsibilities

IMaazrtgeme8a19sResponsibilities. The Goveri~l~~ent    Mc~?zugernentReform Acl o/ I994 (GMRA),
Accozln/ability of Tcrx Do1lc~li.sAct o f 2002, and Gove~.i~metzf
                                                               Corpomfion &i)ntro/ Act require agencies to
report annually to Congress on their financial status and any other infomation needed to fairly present
their financial position and results of operations. To meet these requirements, DEIS prepares and submits
financial statements in accordance with Part A of OMB Circular No. A- 136.

DHS management is responsible for the financial statements, including:

    *   Preparing the financial statements in conformity with accounting principles generally accepted in
        the United States of America;
        Preparing the MD&A (including the performance measures), RSI, and RSSI;
        Establishing and maintaining internal controls over financial reporting; and
        Complying with laws, regulations, contracts, and grant agreements, including FFMIA.

In fulfilling this responsibility, management is required to make estimates and judgments to assess the
expected benefits and related costs of internal control policies. Because of inherent limitations in internal
control, misstatements, due to error or fraud, may nevertheless occur and not be detected.

Aurlitors'Ilesponsibilities. As discussed in our report on the financial statements, the scope of our work
was not sufficient to enable us to express, and we do not express, an opinion on the DHS consolidated
balance sheet as of September 30,2005, or the consolidated financial statements as of and for the year
ended September 30,2004.
In connection with our fiscal year 2005 engagement, we considered DHS' internal control over financial
reporting by obtaining an understanding of DHS' internal control, determining whether internal controls
had been placed in operation, assessing control risk, and performing tests of controls in order to determine
our procedures. We limited our internal control testing to those controls necessary to achieve the objectives
described in OMB Bulletin No. 01 -02 and Government Auditing Standards. We did not test all internal
controls relevant to operating objectives as broadly defined by the Federal Managers 'Financial Integrity
Act of 1982. The objective of our engagement was not to provide assurance on internal control over
financial reporting. Consequently, we do not provide an opinion thereon. Further, other matters involving
internal control over financial reporting may have been identified and reported had we been able to
perform all procedures necessary to express an opinion on the DHS consolidated balance sheet as of
September 30,2005, and had we been engaged to audit the other fiscal year 2005 consolidated financial
statements.
                                                                                  9
As required by OMB Bulletin No. 01-02, in fiscal year 2005, we considered DHS internal control over
RSSI by obtaining an understanding of DWS9 internal control, determining whether these internal controls
had been placed in operation, assessing control risk, and performing tests of controls. Our procedures were
not designed to provide assurance on internal control over RSSI and, accordingly, we do not provide an
opinion thereon. Further, other matters involving internal control over RSSI may have been identified and
reported had we been able to perform all procedures necessary to express an opinion on the DHS
consolidated balance sheet as of September 30,2005, and had we been engaged to audit the other fiscal
year 2005 consolidated financial statements.

OMB Bulletin No. 01-02 requires auditors, with respect to internal control related to performance measures
determined by management to be key and reported in the MD&A and Performance sections, to obtain an
understanding of the design of significant internal controls relating to the existence and completeness
assertions. Our procedures were not designed to provide assurance on internal controls over performance
~neasuresand, accordingly, we do not provide an opinion thereon. As discussed in our report on the
financial statements, we were ina able to complete procedures over tlle MD&A and performance measures
                  9
presented in DI-IS Fiscal Ye'ear 2005 Pe~folwzanceand Accoi~izfubilityReport.

In connection with our fiscal year 2005 engagement, we performed tests of DHS' compliance with certain
provisions of laws, regulations, contracts, and grant agreements, noncompliance with which could have a
direct and material effect on the determination of the consolidated balance sheet amounts as of September
30, 2005, and certain provisions of other laws and regulations specified in OMB Bulletin No. 01 -02,
including certain provisions referred to in FFMIA. We limited our tests of compliance to the provisions
described in the preceding sentence, and we did not test compliance with all laws, regulations, contracts,
and grant agreements applicable to the DHS. Other matters involving compliance with laws, regulations,
contracts, and grant agreements may have been identified and reported had we been able to perform all
procedures necessary to express an opinion on the DHS consolidated balance sheet as of September 30,
2005, and had we been engaged to audit the other fiscal year 2005 consolidated financial statements.
Providing an opinion on compliance with laws, regulations, contracts, and grant agreements was not an
objective of our engagement and, accordingly, we do not express such an opinion.
                                                                                      9
Under OMB Bulletin No. 01 -02 and FFMIA, we are required to report whether DHS financial management
systems substantially comply with ( I ) Federal financial management systems requirements, (2) applicable
Federal accounting standards, and (3) the United States Government Standard General Ledger at the
transaction level. Other instances of non-compliance may have been identified and reported had we been
able to perform all procedures necessary to express an opinion on the DHS consolidated balance sheet as of
September 30,2005, and had we been engaged to audit the other fiscal year 2005 consolidated financial
statements.
Distribution

This report is intended for the information and use of DHS management, DHS Office of Inspector General,
OMB, Government Accountability Office, and the U.S. Congress, and is not intended to be and should not
be used by anyone other than these specified parties.




November 14,2005
Independent Auditors' Report
Appendix I - Material Weaknesses in Internal Control


A. Financial Management and Oversight

Background: In fiscal year 2004, we reported that financial management and oversight at
Immigration and Customs Enforcement (ICE) was a material weakness, principally because its
financial systems, processes, and control activities were inadequate to provide accounting services to
itself and five other substantial Department of Homeland Security (DHS or the Department)
components - U.S. Citizenship and Immigration Services (CIS), Science and Technology (S&T),
Information Analysis and Infrastructure Protection (IAIP), Management, and Border and
Transportation Security (BTS) Headquarters (referred to herein as "DHS-ICE components"). We also
reported that weaknesses in financial management oversight hinder the United States Coast Guard's
(Coast Guard) ability to prepare accurate, complete, and timely financial information.

In fiscal year 2004, we also reported that the DHS Chief Financial Officer (CFO) and his staff were
challenged by a myriad of issues related to the inception of the Department, many of which were
unique matters related to the set-up of the consolidated financial processes of DHS as a single
operating entity. The DHS Office of the CFO (OCFO) has taken several positive steps in fiscal year
2005 toward correcting conditions we reported last year, e.g., hired a deputy CFO and additional
personnel, prepared guidance and policies, implemented automated monitoring controls, and
undertook a self review to improve its controls and processes. In addition, the OCFO implemented
new policies and procedures to comply with the DHS Financial Accoz~lztabilityAct of 2004, which
requires DHS management to provide an assertion on the effectiveness of internal control over
financial reporting in fiscal year 2005.

However, the combination of conditions that exist in ICE and DHS-ICE components, the Coast Guard
and the OCFO cause an organizational material weakness in financial management and oversight.
The operations of ICE and DHS-ICE components for which ICE performs accounting services,
combined with the Coast Guard, represent approximately 15.1 percent of total assets, and $15.4
billion or 14.4 percent of the total DHS fiscal year 2005 budget authority.
Conditions: The conditions described below are structural in nature, and rise to the level of a material
weakness because they affect the overall integrity of DHS' consolidated financial statement reporting
process and its ability to comply with laws and regulations.
1. ICE has not made sufficient, measurable progress in correcting its financial management
   oversight and weaknesses. All of the conditions we reported last year are repeated together with
   new findings. Financial management at ICE has been ineffective. We noted that ICE:
        Did not have sufficient numbers of qualified financial managers and staff to perform its
        accounting responsibilities. Despite the hiring of a new acting CFO and a new financial
        director, ICE relied on OCFO assistance and outside contractors to diagnose problems,
        make management decisions, and provide routine accounting staff supervision. 1CE
        continued to fall seriously behind in performing accounting functions, such as account
        reconciliations, analysis of material abnormal balances, and proper budgetary accounting,
        which prevented it from submitting timely and accurate periodic financial reports to the
        OCFO during fiscal year 2005. Specifically, during fiscal year 2005, ICE financial
        managers and staff were unable to:
        - Perform analysis of and record basic and routine accounting entries;
        - Correctly apply Federal accounting standards, in many instances, to ensure accurate
            and reliable financial reporting;


                                                I.1                                     (continued)
Independent Auditors' Report
Appendix I -Material Weaknesses in Internal Control


        - Develop and communicate accounting policies and procedures throughout ICE and
          the DHS-ICE components it serviced to ensure accuracy and consistency in financial
          reporting;
        - Timely and accurately respond to data requests from the OCFO during the year; and
        - Establish adequate internal controls that reasonably ensured the integrity of financial
          data, and that adhered to Government Accountability Office (GAO) Standardsfor
          Internal Control in the Federal Government (Standurds).
        Lacked a comprehensive strategy to identify the root causes of its financial statement
        errors and to correct deficiencies in its accounting and financial reporting processes. As a
        result, pervasive, and potentially systemic, financial statement errors and abnormal
        balances existed, in both proprietary and budgetary accounts, throughout fiscal year 2005.
        In conjunction with the DHS-ICE components, ICE continued to operate unreliable
        processes and procedures that support accounting and financial reporting; resulting in
        material errors, irregularities, and abnormal balances in the DHS consolidated financial
        statements that existed for most of fiscal year 2004 and continued unresolved in fiscal
        year 2005.
        Continued to execute responsibilities for certain administrative / accounting functions for
        other DHS components without proper reimbursable agreements to cover these costs,
        well into the fiscal year.
        Was unable to quantify and record correcting adjustments to restate the fiscal year 2004
        financial statements for known errors.
2. The Coast Guard:
        Has not fully implemented a financial management organizational structure that supports the
        development and implementation of effective policies, procedures, and internal controls to
        ensure data supporting financial statement assertions are complete and accurate.
        Has not established clear management oversight responsibilities and processes to review
        adjustments to account balances, identify the cause of abnormal balances, and account
        relationship discrepancies, e.g., budgetary to proprietary reconciliations, and investigate
        potential financial system concerns such as potential posting logic errors.
        Has not fully established management oversight functions to ensure that accounting
        principles are correctly applied, and to provide accounting operational guidance to other
        offices and facilities within the Coast Guard.
3. The OCFO has not:
        Completed its plan to expand the OCFO with sufficient resources, including personnel
        with the requisite experience and skills to effectively manage the financial reporting and
        internal control infrastructure of a large Executive Branch agency.
    e   Provided effective management and oversight to ensure that:
        - DHS component corrective action plans were developed, implemented, with progress
            tracked, and successfully completed, particularly at ICE and the Coast Guard, to support
            the elimination of material weaknesses and achieve consistent, timely, and reliable



                                                1.2                                      (continued)
Independent Auditors' Report
Appendix I - Material Weaknesses in Internal Control


            financial reporting from all DHS components, within the time-period requested by the
            Secretary;
            Financial management, and reporting problems in DHS components were promptly and
            effectively addressed;
            Workload among OCFO staff was separated to allow for proper supervisory reviews, and
            to provide appropriate back-up for key staff; and
            Processes were implemented to draft an accurate and complete DHS Performance and
            Accountability Report (PAR),within a reasonable time-frame after year-end, and to
            prepare accurate monthly financial statements throughout the year, that did not require
            restatements to previously published financial statements, as discussed hrther in
            Comment B - Financial Reporting.
The organizational weaknesses detailed above have led to specific conditions that affect the quality of
financial reporting at DHS, and are hrther described in Comment B - Financial Reporting.
Cause/Efft: DHS has attempted the stand-up of a large, new, and complex Executive Branch
agency, without the assistance of sufficient organizational and accounting expertise. Since its
inception in 2003, the Department has not made sufficient investments in human capital and other
critical infrastructure necessary for reliable financial processes. The Department CFO's ability to
fully address these weaknesses has been significantly impaired by the financial management structure
and the need to provide significant oversight at ICE and the Coast Guard. The severity of the
conditions at ICE and the Coast Guard caused the CFO of both components to issue statements of "no
assurance" on internal control over financial reporting. Due to the significance of the balance sheet
accounts at ICE and the Coast Guard to DHS' consolidated balance sheet, the DHS Secretary and
CFO were also unable to render assurances on the effectiveness of internal controls over financial
reporting in fiscal year 2005.
The human resources, financial systems, processes, and control activities at ICE which also supported
the DHS-ICE components were inadequate to process financial transactions for components of their
size.
The Coast Guard has made progress in hiring qualified personnel and has developed a corrective
action plan; however, management has acknowledged that longstanding procedural, control,
personnel, and cultural issues have impeded progress toward installing an effective financial
management structure. In addition, the Coast Guard's CFO must coordinate with heads of various
divisions who have a role in the accounting and financial reporting processes, but who otherwise have
limited exposure to financial statement audits. Further, these division heads change regularly as part
of the Coast Guard military assignment and rotation polices, making it difficult for the CFO to
institutionalize internal controls related to financial management and reporting that are outside the
CFO's direct organization.
As a result, the conditions described above continue to prevent DHS from timely preparation of
accurate financial information and reports, and have contributed to the conditions reported in
Comment B - Fi~zancialReporting of this Appendix. Lack of adequate processes, and sufficient
experienced staff or contractors, has led management to place excessive reliance on the financial
statement audit to identify errors in accounts and deficiencies in processes and controls. DHS will
continue to have difficulty complying with Federal accounting standards and requirements, and
implementing appropriate internal control as defined by the Comptroller General, until adequate
processes and skilled management and staff resources are engaged at ICE, the Coast Guard and
within the OCFO.


                                                1.3                                     (continued)
Independent Auditors' Report
Appendix I - Material Weaknesses in Internal Control


Criteria: The Federal ManagerslFinancial Integrity Act of I982 (FMFIA) requires that agencies
establish internal controls according to standards prescribed by the Comptroller General and
specified in the GAO Standards. The GAO defines internal control as an integral component of
an organization's management that provides reasonable assurance that the following objectives
are achieved: effectiveness and efficiency of operations, reliability of financial reporting, and
compliance with applicable laws and regulations. Further, the GAO Standards identify five
standards to be implemented: control environment, risk assessment, control activities, information
and communication, and monitoring. These standards cover controls such as human capital
practices, supervisory reviews, and segregation of duties, policies, procedures, and monitoring.
Recommendations: We recommend that
1. ICE:
    a) Perform a detailed capabilities assessment of financial personnel at ICE headquarters, the
       Dallas Finance Center, and the Debt Management Center, to identify critical skill-level gaps
       and develop and execute a hiring strategy to fill the gaps. In the short-run, solicit assistance
       from the Office of Management and Budget (OMB) or other Federal agencies by requesting
       temporary transfers of experienced management and accounting personnel. To be successhl
       with this initiative, an experienced project manager must be identified, and the full support of
       the DHS Secretary, OCFO and ICE Assistant Secretary will be needed - including, if
       necessary, an emphasis in the ICE mission statement on reliable financial management and
       reporting objectives; and
    b) Critically assess the current accounting systems and processes, especially those with serious
       material weaknesses. Develop a fillancia1 reporting risk profile to assist management with
       ranking and prioritization of financial accounting, and reporting structural deficiencies.
       Develop a detailed financial accounting and reporting architecture of necessary systems,
       policies, processes, procedures, and internal controls; and finally implement corrective action
       plans to achieve the desired end-state of reliable and timely financial reporting.
2. Coast Guard:
    a) Evaluate the existing financial management organizational and internal control structure
       and conduct an assessment to determine the number of personnel and resources needed,
       along with the requisite skills and abilities necessary to provide effective guidance, and
       oversight to program offices that are significant to financial management and reporting,
       and make recommendations to senior management for appropriate changes. Consider the
       establishment of an Office of Financial Management that would have the authority,
       ability and appropriate resources to oversee all Coast Guard financial management
       policy, systems and reporting;
    b) Establish internal controls and related procedures for performing periodic reviews and
       oversight to assess the appropriateness, to include compliance with generally accepted
       accounting principles, of financial policies and procedures, and the design and operating
       effectiveness of internal controls. Consider prioritizing remediation of material
       weaknesses given the available resources;
    c) Establish clear management oversight responsibilities and processes to effectively review
       adjustments to account balances, identify the cause of abnormal balances and account for
       relationship discrepancies, e.g., budgetary to proprietary reconciliations, and investigate
       potential financial system concerns such as potential posting logic errors; and


                                                1.4                                     (continued)
Independent Auditors' Report
Appendix I - Material Weaknesses in Internal Control


    d) Consider establishing a process to benchmark Coast Guard financial management and
       oversight to other agencies that have been recognized for excellence in financial
       management, and have an established track record of unqualified opinions on their
       audited financial statements.
3. The OCFO:
    a) In coordination with its independent auditor, consultants, and the Office of Inspector General,
       perform a gap analysis of the resource weaknesses, including personnel skill sets, and
       develop and implement a strategic plan to address those gaps and fmancial reporting and
       internal control weaknesses in the OCFO and throughout the Department;
    b) Continue to supplement its accounting staff with personnel with skill-sets that compliment
       the current staff and result in a stronger Department-wide control environment;
    c) Obtain and use authority from the Secretary's office to require DHS components to develop
       and implement sound, reasonable, appropriately funded, corrective action plans that will
       eliminate material weaknesses and result in timely, accurate financial reporting. This
       initiative will likely require assistance from the Secretary's office to emphasize the necessity
       of good financial management, hold components and departmental management accountable
       for progress, and in some cases will require substantial cultural shifts and a commitment of                  ,

       resources; and
    d) Continue to implement processes and controls within the OCFO that will support the timely
       and accurate completion of the Department's interim financial reports and year-end PAR.

B. Financial Reporting

Background: Financial reporting at DHS is dependent upon the quality of financial reporting at its
individual components, and the ability of the OCFO to consolidate information timely and
consistently. Under the current financial reporting structure, the OCFO prepares consolidated
financial statements, including footnote and supplementary data, from trial balances and other
financial data submitted by the components to the OCFO, and submits data to the Treasury
Information Executive Repository (TIER) system. The OCFO is also responsible for development
and communication of appropriate accounting policies, ensuring that financial reporting controls
exist, and performing certain quality control procedures to monitor financial information. The
components are not required to prepare complete financial statements with footnotes and
supplementary data that comply with generally accepted accounting principles. The vast majority of
DHS' financial reporting resources have remained decentralized at the component level.
Conditions: We noted the following internal control weaknesses related to financial reporting in the
OCFO and DHS components:
1. The OCFO:
    9    Was unable to prepare a balanced' consolidated financial statement during fiscal year 2005
         until November 2005. In addition, the consolidated financial statement disclosures and notes


1
 Balanced in this context means: assets equal liabilities plus net position, on a consolidated basis, as presented
on the balance sheet.


                                                     1.5                                         (continued)
Independent Auditors' Report
Appendix I - Material Weaknesses in Internal Control


        contained critical errors and inconsistencies, when provided to us less than two weeks before
        the filing deadline of November 15, and required material adjustments to correct.
        Has not fully documented policies and procedures for many critical activities necessary to
        adequately manage financial reporting processes, such as policies and procedures related to a
        year-end or interim close schedule to prepare reliable consolidated financial statements,
        comprehensive requirements for resolving intradepartmental and intragovernrnental
        elimination discrepancies, and making changes to the PAR guidance disseminated to the DHS
        components.
        Has not implemented sufficient procedures and monitoring controls to ensure monthly TIER
        submissions received from the components were prepared timely and accurately, including
        adequate supporting documentation for elimination entries and adjustments at the
        consolidated financial statement level necessary to prepare consolidated financial statements.
    o   Has implemented policies and procedures, but has not required the components to follow the
        policies and procedures and effectively use recently installed TIER analytical tools to
        improve the integrity and reliability of financial data at the components, and as a result, the
        component TIER submissions contained numerous abnormal balances and potential errors
        that were not explained in a timely manner. In addition, some OCFO personnel accepted
        explanations from components for financial statement abnormalities that were incomplete and
        inaccurate, and did not include sufficient detail to inform the reviewer of the nature of the
        error and when the condition would be corrected.
        Omitted two financial statement note disclosures required by OMB Circular No. A-136,
        Financial Reporting Requirements, Part A, Form and Content of the Performance and
        Accozintability Report, which were:
        - A reconciliation of the Department's fiscal year 2004 budget amounts, as presented
            in the statement of budgetary resources to the President's budget; and
        - Intra-agency eliminations necessary to prepare the statement of net cost by sub-
            organization major programs.
2. At Coast Guard:
        The fmancial reporting process was complex and labor-intensive, and required a significant
        number of "on-top" adjustments (adjustments made outside the core accounting system for
        presentation of financial information given to DHS for consolidation). A significant amount
        of manual review was required to integrate data from three separate general ledger systems
        and overcome system and process deficiencies. One of the most significant deficiencies was
        that the Coast Guard produced its TIER submission from a database that did not have detail at
        the transactional level, and that did not agree to the transactional balances in the Coast
        Guard's general ledgers.
        Significant abnormal balances existed in its TIER submissions, but the Coast Guard only had
        limited procedures for identifying and resolving those abnormal balances, and potential errors
        at a transaction level. As a result, the Coast Guard made routine "top-side" adjustments to
        prepare its monthly TIER submission to the OCFO that, in some cases, might have masked
        potential errors that instead should have been researched.




                                                                                       (continued)
Independent Auditors' Report
Appendix I - Material Weaknesses in Internal Control


       The Coast Guard routinely used analytical comparisons to identi& adjusting entries to the
       financial statements, without verifying that the ending balances were properly supported at
       the transaction level, e.g., budgetary accounts were adjusted to equal proprietary accounts,
       without verifying that the underlying transactional detail supported the ending balances.
       The processes that Finance Center personnel used for making year-end closing entries did not
       consistently include sufficient supporting documentation or internal controls at an appropriate
       level, such as effective management review, approval of individual adjusting entries, or
       procedures to determine that all necessary adjustments were identified.
       The processes used for some account reconciliations were not well designed. For example,
       procedures for reconciling cumulative results of operations, and resolving inconsistencies in
       the accounting treatment for inter-entity balances were weak and in many cases lacked
       documentation.
       Personnel did not effectively complete the GAO Disclosure Checklist for the September 30,
       2005 DHS financial statements.
3. ICE has not:
       Established effective internal controls over the daily accounting and recording of
       transactions, supervisory review, reconciliation of accounts, and documentation of supporting
       information for auditor review. ICE routinely made "top-side" adjustments to financial
       information that was not adequately reviewed, supported by transactional data, or
       documented. For example, we noted that personnel often approved adjusting general ledger
       entries for which they did not have a thorough knowledge or understanding, and adequate
       supporting documentation for the adjusting journal entries was not maintained.
       Reconciled quarterly Report on Bztdget Execution (SF-133)s to approved Apportionment and
       Reapportionment Schedule (SF-132)s for all Treasury Appropriation Fund Symbol (TAFS)
       accounts. At September 30, 2005, we noted differences in the amounts reported in FFMS
       (the core accounting system) and some SF-133s and SF-132s, totaling more that $550 million
       across ICE and DHS-ICE components that could indicate a potential violation of the
       Antideficiency Act.
       Adequately designed the processes to be used for some account reconciliations. For example,
       procedures for reconciling cumulative results of operations, and resolving inconsistencies in
       the accounting treatment for inter-entity balances were weak and in many cases lacked
       documentation.
       Provided guidance to DHS-ICE components regarding how to process financial transactions
       timely and accurately, and did not have documented policies and procedures that will ensure
       that financial information submitted monthly to the OCFO is in compliance with generally
       accepted accounting principles.
       Adhered to the schedule set by the OCFO, to submit accurate monthly TIER reports and other
       accompanying information, complete the GAO checklist, and provide other information
       needed by the OCFO to prepare the fiscal year 2005 PAR. For example, we noted that ICE
       was unable to file an accurate TIER submission without DHS CFO waivers of significant
       error conditions for every month we reviewed (seven in total), and was unable to perform an
       effective hard-close at June 30,2005, as requested by the DHS CFO.



                                                                                      (continued)
Independent Auditors' Report
Appendix I -Material Weaknesses in Internal Control


        Successfully integrated the Federal Protective Service (FPS) accounting processes fi-om the
        General Service Administration (GSA) to ICE, creating numerous issues with the integrity of
        FPS transaction data.
4. The Transportation Security Administration (TSA) experienced difficulties in the monthly closing
   of its general ledger due, in part, to its change in accounting services providers. Specifically, we
   noted accrual amounts were not included in the initial financial data submission for year-end,
   numerous other on-top adjustments were made thereafter, account reconciliations were not
   performed timely throughout the year, material abnormal balances and analytical account
   variances were not resolved timely throughout the year, and detailed schedules to support
   financial statement amounts were not always provided timely.
5. The Coast Guard and ICE did not have effective financial information systems, or sufficiently
   documented processes, to accumulate cost data by DHS strategic goal, as required by Statement
   of Financial Accounting Standard (SFFAS) No. 4, Managerial Cost Accounting Concepts and
   Standards. In addition, TSA and Emergency Preparedness and Response (EPR) did not have
   documentation to support their presentation of the full cost for each strategic goal, as included in
   the notes to the consolidated financial statements.
6. Office of State and Local Government Coordination and Preparedness (SLGCP) has not obtained
   a thorough understanding of control activities over the financial reporting processes performed by
   its accounting service provider on its behalf, to ensure services received are consistent with the
   intent of the parties. The financial statement impact of this condition is further explained in
   Comment G - Undelivered Orders, Accozrnts and Grants Payable, and Disburseme7zts, in this
   appendix.
7. EPR's contractor for the National Flood Insurance Program (NFIP) did not provide final NFIP
   financial statements until November 8, 2005, after the time that final EPR fiscal year 2005
   financial statement balances had been submitted to the OCFO. The NFIP financial statements
   reported an accounts payable balance that was approximately $3 billion lower than the estimate
   provided to the OCFO, and consequently DHS was required to record a late adjustment in the
   consolidated financial statements to true-up the final balances. Without timely receipt of the
   NFIP financial statements, EPR is unable to make an accurate estimate of accounts payable
   related to the NFIP. In addition, the required timing of the contractor's Statement of Auditing
   Standards No. (SAS 70) Sewice Organizations, review report has not been modified based on
   accelerated financial statement reporting deadlines for the Federal government
Cause/Effect: Many of the issues mentioned above stem from the conditions described in Comment
A - Financial Management and Oversight. The OCFO is still working to develop effective and
consistent financial policies and procedures that will ensure a smooth and reliable month-end close
for all components. Financial data received from the components during fiscal year 2005 often
contained large abnormal or unusual balances that were not timely reviewed and cleared. The lack of
quality financial data received from the components placed a heavy burden on the OCFO to identify
the issues, reconcile accounts, engage the components in researching the issues, and eventually work
with the components to record correcting entries - before accurate consolidated financial statements
could be prepared. The OCFO is not staffed to perform these functions on a regular basis. As
described above, some components have not developed adequate policies and procedures to perform a
reliable monthly close, and accurately export data from their general ledgers for periodic TIER
submissions.



                                                                                        (continued)
Independent Auditors' Report
Appendix I - Material Weaknesses in Internal Control


At the Coast Guard, the accuracy of financial information is highly dependent on the knowledge and
experience of a limited number of key financial personnel rather than on clearly documented
procedures manuals, and process flow documentation. In addition, the Coast Guard suffers from
system deficiencies that make the financial reporting process more complex and difficult. ICE has
been unable to successfully complete of the integration of the accounting processes of the five DHS
components for which it became responsible in fiscal year 2004. A financial accounting system
conversion at TSA, during fiscal year 2005, contributed to its reporting problems, and caused errors
and delays in DHS financial reporting.
SLGCP places a significant amount of reliance on its accounting services provider, an entity outside
DHS, to process and report its transactions because it lacks resources to perform effective oversight
of the financial reporting process, and related control activities performed on its behalf. As a result,
SLGCP lacks assurance that the processing of its financial activities coincides with its business
operations, and are accurately reported and properly controlled.
Companies participating in the NFIP are required to submit their WIP-related financial statements to
EPR's contractor each month within 21 days of the month end. The contractor combines these
financial statements with the financial information for the NFIP's administrative activities, and then
submits final NFIP financial statements to EPR for recording in EPR's general ledger. However, the
process of compiling the information into the final NFIP financial statements can be an extended
process, because it takes time for the information to be received from the NFIP participants and then
for that information to be properly processed and reported.
Criteria: FMFIA requires that agencies establish internal controls according to standards prescribed
by the Comptroller General and specified in the GAO Standards. These standards define internal
control as an integral component of an organization's management that provides reasonable assurance
that the following objectives are being achieved: effectiveness and efficiency of operations, reliability
of financial reporting, and compliance with applicable laws and regulations. The GAO Standards
require that internal controls be documented in management directives, administrative policies, or
operating manuals; transactions and other significant events be clearly documented; and information
be recorded and communicated timely with those who need it within a timeframe that enables them to
carry out their internal control procedures and other responsibilities. According to these standards, the
five essential control elements are: control environment, risk assessment, control activities,
information and communication, and monitoring.
Recommendations: We recommend that:
1. The OCFO:
    a) Implement a standardized financial reporting process, including formal policies and
       procedures that require components to prepare financial reporting closing packages with
       footnotes and supplementary data that comply with generally accepted accounting principles
       to assist the components and the OCFO to execute a monthly close that results in complete
       and reliable financial reporting on an interim basis, and at year end. The interim hard close
       and year-end process should include procedures to prepare financial statement notes,
       Management's Discussion and Analysis (MD&A), Required Supplementary Stewardship
       Information (RSSI), Required Supplementary Information (RSI), and performance data that
       are in full compliance with generally accepted accounting principles, and OMB Circular No.
       A-136. The OCFO should perform several "test runs" during fiscal year 2006, e.g., each
       quarter, to critically evaluate and improve the process as necessary;



                                                                                          (continued)
Independent Auditors' Report
Appendix I - Material Weaknesses in Internal Control


   b) Assist the components with an assessment to determine the reasons for TIER reporting delays
      and provide management oversight to correct weaknesses;
   c) Maintain supporting documentation for all elimination and other adjusting entries made at the
      consolidated financial statement level; and
   d) Establish procedures that will improve the effectiveness of monitoring controls over financial
      data to ensure that abnormal balances and potential errors submitted by the components are
      resolved monthly.
2. Coast Guard:
   a) Conduct an assessment of its current financial reporting process, including a review of its
      three general ledger systems, with the goal of reducing complexity, implementing appropriate
      internal controls, improving financial systems integration and automating manual processes.
      Processes should be designed to ensure that all financial statement line items are fully
      supported by transactional detail contained in the general and subsidiary ledgers, and
      causative research performed for imbalances and abnormalities. The timely reconciliation of
      all account balances to transactional detail should be documented and retained for auditor
      review throughout the year;
    b) Improve documentation for year-end closing entries, including effective management review
       and approval, and clear identification of all on-top adjustments with all associated general
       ledger account entries;
   c) Analyze and, as appropriate, redesign its processes for account reconciliations; and
    d) Implement policies and procedures to fully identify and resolve significant abnormal balances
       at a transaction level before the monthly TIER is submitted to the OCFO.
3. ICE:
    a) Establish effective internal controls over the daily accounting, recording, reconciliation and
       documentation of transactions. Supervisory reviews should be performed by persons with
       sufficient knowledge to be an effective control, i.e., to discover an error through review.
       Specific procedures and controls should be implemented over "top-side" adjustments made to
       financial information because these transactions are more prone to error;
    b) Reconcile its SF-133s to approved SF-132s on a quarterly basis, and research and resolve the
       discrepancies that existed at September 30, 2005, and report any violations of the
       Antideficiency Act;
    c) Analyze and, as appropriate, redesign its processes for account reconciliation;
    d) In conjunction with the DHS CFO, implement policies, procedures, and guidance that fully
       describe how operating offices and DHS-ICE component entities are required to process
       accounting transactions. When complete, the redesigned processes should result in timely
       and accurate financial information submitted monthly to the OCFO that is in compliance with
       generally accepted accounting principles;
    e) Establish and maintain routine communication channels with the DHS OCFO to assist in
       meeting deliverable deadlines; and
    f) Continue efforts to resolve all issues arising from the integration of FPS accounting processes
       from GSA to ICE.


                                                                                         (continued)
Independent Auditors' Report
Appendix I -Material Weaknesses in Internal Control


4. TSA:
   a) Conduct an assessment of the monthly closing process to identify and correct weaknesses that
      impede timely and efficient reporting processes; reduce the number of on-top adjustments;
      and perform regular quality control reviews of financial reports; and
    b) Document key standard operating procedures (SOPS)for significant financial reporting
       processes, including the TIER submissions.
5. The Coast Guard and ICE should develop financial information systems and document processes
   to accumulate and present cost data by DHS strategic goal, as required by SFFAS No. 4.
   Additionally, TSA and EPR should develop a process to validate, document and report the full
   cost of each strategic goal, as presented in the notes to the DHS consolidated financial statements,
   so that the computations and presentation in the financial statements are consistent with generally
   accepted accounting principles.
6. SLGCP:
    a) Designate an official to perform a financial oversight role, and take responsibility for
       monitoring the financial processing and reporting activities performed by its accounting
       services provider. This official should obtain appropriate assurances from the accounting
       services provider (e.g., through a SAS 70 review report) to be able to assess that controls
       relevant to SLGCP's financial activities are properly designed and operating effectively; and
    b) Work with DHS management to migrate SLGCP's general ledger and grants management
       system to a system maintained by a component within DHS.
7. EPR should coordinate with its NFIP contractor, and modify its existing contract with the
   company, if necessary, to ensure that (a) the contractor can provide final year-end NFIP financial
   statements to EPR for inclusion in EPR's final TIER submission, and (b) the contractor's annual
   SAS 70 report covers at least nine months of DHS' fiscal year and is available in final form no
   later than September 1, each year.

C. Financial Systems Security
Background: Controls over information technology (IT) and related financial systems are essential
elements of financial reporting integrity. Effective general controls in an IT and financial systems
environment are typically defined in six key control areas: entity-wide security program planning and
management, access control, application software development and change control, system software,
segregation of duties, and service continuity. In addition to general controls, financial systems contain
application controls which are the structure, policies, and procedures that apply to separate, individual
application systems, such as accounts payable, inventory, payroll, grants, or loans.
During fiscal year 2005, DHS took several actions to improve its IT general control environment, and
to address many prior year general IT control issues. For example, DHS issued an update to DHS
Policy 4300A, Sensitive System Handbook. The purpose of this Handbook update was to provide
specific techniques and procedures for implementing the requirements of DHS' IT Seczirity Progr.am
for Se~zsitiveSystems. These actions resulted in the correction of some conditions we reported in
2004. Despite these improvements, several significant general IT and application control weaknesses
remain that collectively limit DHS' ability to ensure that critical financial and operational data is
maintained in a manner to ensure confidentiality, integrity, and availability.



                                                                                         (continued)
Independent Auditors' Report
Appendix I - Material Weaknesses in Internal Control


Conditions: In fiscal year 2005, the following IT and financial system control weaknesses were
identified at DHS and its components. Most of the technical issues identified during our fiscal year
2005 audit were also identified during fiscal year 2004:
1. Entity-wide security program planning and management - we noted:
        Despite improvements in the process of performing Certification and Accreditation (C&A) of
        IT systems, five DHS component financial and associated feeder systems were not properly
        certified and accredited.
        Instances of fragmented, incomplete, or missing security policies and procedures relating to
        the hiring and termination of employees, reviewing of access to key financial systems,
        computer incident response capabilities, and interconnectivity agreements exist.
2. Access controls - we noted:
    e   Instances of missing and weak user passwords on key servers and databases.
        User account lists were not periodically reviewed for appropriateness, and inappropriate
        authorizations and excessive access privileges for group user accounts were allowed.
        Instances where workstations, servers, or network devices were configured without necessary
        security patches, or were not configured in the most secure manner.
    0   Application and operating system settings were not configured for automatic log-off or
        account lockout.
3. Application software development and change control - we noted:
        Instances where policies and procedures regarding configuration management controls were
        not in place to prevent users from having concurrent access to the development, test, and
        production environments of the system.
        Changes made to the configuration of the system were not always documented through
        System Change Requests (SCRs), test plans, test results, or software modifications.
        Additionally, documented approval did not exist, or was not always retained, for emergency
        enhancements, "bug" fixes, and data fixes, and in some cases, audit logs for tracking changes
        to the data or systems were not activated.
4. System software - we noted:
        Instances where policies and procedures for restricting and monitoring access to operating
        system software were not implemented or were inadequate. In some cases, the ability to
        monitor security logs did not exist.
        Changes to sensitive operating system settings and other sensitive utility software and
        hardware were not always documented.
5. Segregation of duties - we noted:
    0   Instances where individuals were able to perform incompatible fbnctions, such as the
        changing, testing, and implementing of software, without sufficient compensating controls in
        place.
        Instances where key security positions were not defined or assigned, and descriptions of
        positions were not documented or updated.


                                               1.12                                     (continued)
Independent Auditors' Report
Appendix I -Material Weaknesses in Internal Control


6. Service continuity - we noted:
       Five DHS components had incomplete or outdated business continuity plans and systems
       with incomplete or outdated disaster recovery plans. Some plans did not contain current
       system information, emergency processing priorities, procedures for backup and storage, or
       other critical information.
   a   Five DHS component's service continuity plans were not consistently andlor adequately
       tested, and individuals did not receive training on how to respond to emergency situations.
7. Application controls - we noted:
       Several instances of weak access and segregation of duty controls associated with key DHS
       financial applications, such as a DHS component's core financial application, as well as
       procurement and payable applications. These weaknesses include weak or expired user
       passwords, user accounts that were not kept current, and certain users with access privileges
       to certain key processes of an application. Many of these weaknesses were identified during
       our general control testing of access controls and segregation of duties; however, since these
       same issues also impact controls over specific key financial applications, they are reported
       here as well.
Cazwe/Eflect: Many of these weaknesses were inherited from the legacy agencies that came into
DHS, and will take several years to fully address. Management has undertaken a complicated task of
merging numerous and varying financial management systems and control environments into a DHS
environment. At many of the larger components, IT and financial system support operations are
decentralized, contributing to challenges in integrating DHS IT and financial operations. In addition,
financial system hnctionality weaknesses, as discussed throughout our report on internal controls, in
various processes, can be attributed to non-integrated legacy financial systems that do not have the
embedded functionality called for by OMB Circular No. A-127, Financial Management Systems.
Further, there is no consistent testing and monitoring of IT controls by individual DHS components
and by the DHS-CIO to identify and mitigate weaknesses.
Criteria: The Federal Information Security Management Act (FISMA), passed as part of the
Electronic Government Act of2002, mandates that Federal entities maintain IT security programs in
accordance with OMB and National Institute of Standards and Technology (NIST) guidance. OMB
Circular No. A-130, Management of Federal Information Resources, and various NIST guidelines
describe specific essential criteria for maintaining effective general IT controls. In addition, OMB
Circular No. A-127 prescribes policies and standards for executive departments and agencies to
follow in developing, operating, evaluating, and reporting on financial management systems.
Reconznzeizdations: We recommend that the DHS Office of Chief Information Officer in coordination
with the OCFO:
1. For entity-wide security program planning and management:
    a) Enforce a DHS C&A program across all DHS components, which should include an
       emphasis on a consistent and thorough approach to the testing of key technical controls
       during the certification process; and
    b) Enforce the consistent implementation of security programs, policies, and procedures.




                                                                                       (continued)
Independent Auditors' Report
Appendix I -Material Weaknesses in Internal Control


2. For access control:
   a) Enforce password controls that meet DHS password requirements on all key financial
      systems;
   b) Implement an account management certification process within all the components, to ensure
      the periodic review of user accounts for appropriate access;
   c) Implement a DHS-wide patch and security configuration process, and enforce the
      requirement that systems are periodically tested by individual DHS components and the
      DHS-CIO; and
   d) Conduct periodic vulnerability assessments, whereby systems are periodically reviewed for
      access controls not in compliance with DHS and Federal guidance.
3. For application software development and change control:
   a) Develop policies and procedures regarding configuration management controls, and
      implement to ensure segregation of change control duties; and
   b) Enforce policies that require changes to the configuration of the system are approved and
      documented, and audit logs are activated and reviewed on a periodic basis.
4. For system software, actively monitor the use, and changes related to operating systems, and
   other sensitive utility software and hardware.
5. For segregation of duties:
    a) Document the user responsibilities so that incompatible duties are consistently separated. If
       this is not feasible given the smaller size of certain functions, then sufficient compensating
       controls, such as periodic peer reviews, should be implemented; and
    b) Assign key security positions, and ensure that position descriptions are kept current.
6. For service continuity:
    a) Develop and implement complete current business continuity plans, and system disaster
       recovery plans; and
    b) Perform component-specific and DHS-wide testing of key service continuity capabilities, and
       assess the need to provide appropriate and timely emergency training.
7. For application controls:
    a) Implement policies to ensure that password controls meet DHS password requirements on all
       key financial applications and feeder systems;
    b) Implement an account management certification process within all the components, to ensure
       the periodic review of user accounts for appropriate access; and
    c) Document the user responsibilities so that incompatible duties are consistently separated. If
       this is not feasible given the smaller size of certain functions, then sufficient compensating
       controls, such as periodic peer reviews, should be implemented.




                                                                                        (continued)
Independent Auditors' Report
Appendix I - Material Weaknesses in Internal Control


D. Fund Balance with Treasury

Background: Fund Balance with Treasury (FBWT) represents accounts held at Treasury from which
an agency can make disbursements to pay for its operations. Regular reconciliation of an agency's
FBWT records with Treasury is essential to monitoring and safeguarding these funds, improving the
integrity of various U.S. Government financial reports, and providing a more accurate measurement
of budget resources and status. FBWT at ICE, and the other DHS-ICE components it services, and at
the Coast Guard totaled approximately $9.2 billion or 9.5 percent of total DHS assets at September
30,2005. The majority of these funds represented appropriated amounts that were obligated but not
yet disbursed at September 30,2005.
Conditions: We noted the following internal control weaknesses related to FBWT, many of which are
repeated from fiscal 2004:
I . ICE:
           Did not complete accurate and timely reconciliations of all of its FBWT accounts during the
           year, as required by the Treasury Financial Manual (TFM). ICE assumes Treasury balances
           are correct and often makes adjustments to force its balances to equal Treasury. Specifically,
           ICE did not perform procedures to reconcile FBWT to Treasury forms FMS 6652, Statenzent
           of Dijferences; FMS 6653154 Undisbursed Appropriation Account Ledgei*/T~-ial     Balance; S F
           224 Statement of Transactions; and/or FMS 6655 Receipt Account Ledger/Triul Balance in
           accordance with TFM 5145. In addition, ICE did not maintain documentation supporting the
           reconciliation processes as required by TFM 2-5100.
           Did not timely clear items carried in suspense clearing accounts during the year. A
           significant number of transactions were carried in susgense, some of which were more than
           six months old and related to fiscal year 2004 transactions, totaling over $100 million dollars
           in unreconciled balances. In addition, the subsidiary ledger that contained detail listings of
           suspense transactions was not reconciled to the general ledger.
           Did not accurately clear suspense transactions to the proper obligation or other Standard
           General Ledger (SGL) account, particularly for Intra-Governmental Payment and Collection
           (IPAC) transactions from other Federal agencies, and for disbursements made by legacy
           agencies on behalf of itself and DHS-ICE components.
    0      Lacked written policies that clearly explain the correct reconciliation processes and internal
           controls that must be performed to ensure that monthly collection and disbursement activity is
           reported accurately and timely to the Treasury, and reflected in ICE and DHS-ICE
           components' general ledgers.
           Was unable to obtain document level information for financial transactions (both
           procurement and disbursement) of the DHS-ICE components that were processed by legacy
           agencies, which resulted in large, unreconciled FBWT items.
2. Coast Guard:
           Did not effectively manage its suspense accounts to include accurately aging and clearing
           items carried in suspense clearing accounts in a timely manner during the year. From a
           sample of 45 suspense transactions, we identified 5 transactions that were posted to an
           inappropriate obligating document, and 3 sample items that had activity dates in fiscal years
           2001 and 2002.


                                                                                           (continued)
Independent Auditors' Report
Appendix I - Material Weaknesses in Internal Control


        Did not maintain adequate supporting documentation that validated the accuracy of the
        FBWT reconciliations and the clearing of suspense items.
Cause/Effect: The procedures followed by ICE placed inappropriate reliance on the Treasury's
records for the status of funds, resulting in incomplete monthly reconciliations. These conditions have
existed at ICE for several years, in part because of inadequate management oversight and direction, as
discussed in Comment A, above. ICE and Coast Guard did not maintain sufficiently detailed records
to clear suspense accounts in a timely manner, and did not use tools available to them to improve the
process, such as the Government-wide Accounting System (GWA). Failure to implement timely and
effective reconciliation processes could increase the risks of fraud, abuse, undetected violations of
appropriation laws, including instances of undiscovered Antidejkiency Act violations, and
mismanagement of funds, which leads to inaccurate financial reporting, and affects DHS' ability to
effectively monitor its budget status.
Criteria: The TFM~states, "Federal agencies must reconcile their SGL account No.1010, and any
related sub-accounts, with the FMS 6652, 6653, 6654 and 6655 on a monthly basis (at minimum).
They must review those accounts each month to maintain the accuracy and reliability of their fund
balance records for both prior year and current year appropriations. Agencies must reconcile no-year,
revolving, deposit, and trust fund accounts. They also must reconcile clearing and receipt accounts.
This detailed reconciliation assures that agency data accumulated in the fund balance account is
accurate. It also allows the agency to resolve differences in a timely manner. Federal agencies must
research and resolve differences reported on the monthly FMS 6652. They also must resolve all
differences between the balances reported on their general ledger FBWT accounts, and balances
reported on the FMS 6653, 6654 and 6655. When resolving differences, agencies should maintain
detailed reconciliation worltsheets that, if needed, can be reviewed by the Agency's auditors or
Treasury." TFM Section 5145, Reconciling Budget Clearing Account Differences, states, "Agencies
must reconcile all Budget Clearing Account Balances, including F3875 accounts. They must
reclassify these balances to appropriate Treasury account symbols." TFM Section 5125 -
Bacltground, specifies the procedures to be performed when reconciling FBWT.
OMB Circular No. A-123, Management Accountability and Control, states that transactions
should be promptly recorded, and properly classified and accounted for in order to prepare timely,
and reliable financial and other reports. Documentation for transactions, management controls,
and other significant events must be clear and readily available for examination.
Recommendations: We recommend that:
1. ICE:
    a) Perform all procedures required by the TFM, including sections 5125, 5145 and Supplement I
       of TFM 2-5100 and maintain supporting documentation;
    b) Develop accurate and complete procedures to reconcile and clear FMS 6652 items for its
       Agency Location Codes (ALCs) on a monthly basis, and provide proper training to
       employees;
    c) Develop and implement written policies that require timely and accurate reconciliation, and
       clearing of suspense balances to the proper SGL account, and retention of adequate
       supporting documentation that facilitate supervisory review, and other monitoring controls.
       Typically, significant balances should not be held in suspense more than 30 days; and

 TFM, Supplement I TFM 2-5100 (November 1999)

                                               I.16                                    (continued)
Independent Auditors' Report
Appendix I - Material Weaknesses in Internal Control


   d) In conjunction with the DHS OCFO, develop policies and procedures for obtaining relevant
      legacy agency processed transactions in order to timely record all transactions affecting
      FBWT.
2. Coast Guard implement written policies, including detailed procedures that result in timely
   reconciliation of FBWT in accordance with the TFM, timely and accurate clearing of suspense
   balances, and the retention of adequate supporting documentation that will facilitate supervisory
   review and other monitoring controls. The policies should be based on Treasury guidance and
   tailored to the Coast Guard's operations and financial accounting system(s).

E. Property, Plant, and Equipment

Bac1cg1-ound: Property, plant, and equipment (PP&E) represents approximately 9.1 percent of total
DHS assets and more than 62.6 percent of non-monetary assets. DHS uses a wide variety of capital
assets to accomplish its mission, some of which are not typically maintained by non-defense agencies,
such as aircraft, boats, and vessels. These assets often have long useful lives and undergo extensive
routine servicing that may increase their value or extend their usefbl lives and require comprehensive
policies and procedures to ensure accurate and timely accounting. While the Coast Guard has made
progress in providing auditable documentation for certain categories of PP&E, most of the conditions
cited below for the Coast Guard are repeated from our fiscal year 2004 report, because the Coast
Guard has not fully completed its corrective action plans. In addition, as noted in our 2004 report,
DHS has several internal use software development projects underway that will result in capitalized
software balances in future years. Consequently, application of proper accounting standards to
account for PP&E is important to the accuracy of DHS' consolidated financial statements.
Coizditions: We noted the following internal control weaknesses related to PP&E at DHS
components, which are mostly repeated from fiscal year 2004:
1. Coast Guard has not:
        Implemented appropriate controls and related processes to accurately, consistently, and
        timely record PP&E, to include additions, transfers from other agencies, and disposals in its
        fixed asset system.
        Consistently applied policies and procedures to ensure appropriate documentation supporting
        PP&E acquisitions is maintained, and readily available for audit. Tlze acquisition values of
        approximately twenty five percent of items selected for testwork did not have proper
        supporting documentation.
        Developed and documented methodologies and assumptions to support the value of PP&E
        that is not supported by original acquisition or other documentation.
        Implemented asset identification, system mapping, and tagging processes that include
        sufficient detail, e.g., serial number, to clearly differentiate and accurately track assets in the
        fixed asset system.
        Developed an effective physical inventory process and appropriate support for the valuation
        method and classification of repairable PP&E.
        Properly accounted for some improvements and impairments to buildings and structures, and
        selected useful lives for depreciation purposes, consistent with generally accepted accounting
        principles.


                                                 I.17                                       (continued)
Independent Auditors' Report
Appendix I - Material Weaknesses in Internal Control


2. ICE (who provides accounting services for RTS), specifically the US-VISIT program, did not
   consistently apply procedures to identify and capitalize software development costs or to
   reclassify software placed into production from software in development. At September 30,2005,
   software costs were not considered material to the consolidated fmancial statements; however,
   software development costs are expected to increase in future years.
Cause/Eflect: Coast Guard has implemented policies and procedures affecting PP&E; however, they
are not comprehensive and; therefore, do not provide reasonable assurance that all transactions
affecting PP&E will be accounted for consistent with generally accepted accounting principles. In
addition, the fixed asset module of the Coast Guard's core accounting system is not updated for
effective tracking of all PP&E, and its capabilities are not fully utilized to clearly differentiate and
accurately track assets. The Coast Guard also lacks sufficient policies and procedures for PP&E that
ensure complete supporting documentation is maintained and available for audit. As such, we were
unable to complete audit procedures over approximately $1.7 billion of net PP&E as of September 30,
2005.
BTS lacks sufficient accounting policies for software development costs. Over the next few years,
significant resources for the development of new software, such as the US-VISIT system, will likely
be spent. Therefore, the lack of sufficient policies at BTS increases the risk of financial statement
errors due to misapplication of accounting standards for software.
Criteria: SFFAS No. 6, Accou~zting  for Property, Plant, and Equipment, requires that:
    - PP&E be recorded at historical cost with an adjustment recorded for depreciation. In the
         absence of such information, estimates may be used based on a comparison of similar assets
         with lmown values or inflation-adjusted current costs; and
    - PP&E accounts be adjusted for disposals, retirements and removal of PP&E, including
         associated depreciation.
OMB Circular No. A-123, states that transactions should be promptly recorded, properly
classified and accounted for in order to prepare timely and reliable financial and other reports.
Documentation for transactions, management controls, and other significant events must be clear
and readily available for examination.
SFFAS No. 10, Accounting,for Internal Use Software, provides requirements for the capitalization
and reporting of software development costs. GAO's Standards require that internal control and all
transactions and other significant events are clearly documented and readily available for
examination. The Joint Financial Management Improvement Program (JFMIP) Property
Management Systems Requirements, state that the agency's property management system must create
a skeletal property record or have another mechanism for capturing information on property in-transit
from the providing entity (e.g., vendor, donator, lender, grantor, etc.).
Recommendations: We recommend that:
1. Coast Guard:
    a) Improve controls and related processes and procedures to ensure that PP&E, to include
       additions, transfers, and disposals are recorded accurately, consistently, and timely in the
       fixed asset system; that an identifying number is entered in the fixed asset system at the time
       of asset purchase to facilitate identification and tracking; and that the status of assets is
       accurately maintained in the system;



                                                                                        (continued)
Independent Auditors' Report
Appendix I - Material Weaknesses in Internal Control


   b) Develop and implement internal controls to ensure the quality, sufficiency, and retention of
      documentation for future PP&E acquisitions and disposals;
   c) Develop and document methodologies and assumptions to support the value of PP&E that is
      not evidenced by original acquisition or other sufficient documentation;
   d) Revise procedures for performing physical inventories of repairable items, to include
      procedures for resolving differences, and reporting results, to ensure that repairable PP&E is
      accurately and completely classified and recorded. Support the pricing methodology used to
      value repairable PP&E to ensure that balances, as presented in the financial statements,
      approximate amortized historical cost; and
   e) Review policies and procedures to account for improvements and impairments to buildings
      and structures, and identify proper useful lives for depreciation purposes.
2. ICE:
    a) Perform a review of its existing software capitalization policy to determine adequacy for
       fmancial reporting purposes. The policy should be sufficiently detailed to allow developers
       and accounting personnel to identify the various phases of the software development life
       cycle, and the associated accounting treatment, as described in SFFAS No. 10; and
    b) Develop and implement procedures for developers to track and notify accounting personnel
       when software has been placed into production so that accounting personnel can properly
       classify and amortize the software costs.

F. Operating Materials and Supplies

Background: Operating Materials and Supplies (OM&S) are maintained by the Coast Guard in
significant quantities, and consist of tangible personal property to be consumed in normal operations
to service marine equipment, aircraft, and other operating equipment. The majority of the Coast
Guard's OM&S is physically located at either two Inventory Control Points (ICPs) or in the field.
The ICPs use the Naval Electronics Supply Support System (NESSS) and the Aircraft Logistics
Management Information System (ALMIS) to track inventory, and field held OM&S is recorded in
the Configuration Management Plus system. These three systems provide the subsidiary records that
support the general ledger's OM&S balance. The Coast Guard's policy requires regularly scheduled
physical counts of OM&S, which are important to the proper valuation of OM&S and its safekeeping.
The conditions cited below for Coast Guard are based on findings reported in fiscal 2004, updated as
necessary to reflect the conditions noted in fiscal year 2005.
Conditions: We noted the following internal control weaknesses related to OM&S at the Coast
Guard:
        Internal controls over physical counts at field locations were not designed and implemented
        to remediate conditions identified during fiscal year 2003 and 2004. In fiscal year 2004, we
        reported that items were not always properly bar-coded or tagged, on-hand quantities
        frequently did not agree to the perpetual inventory records, and procedures did not
        sufficiently address whether all inventory on hand was properly recorded in the perpetual
        records or require discrepancies to be resolved timely. Coast Guard has acknowledged that
        the weaknesses continued to exist in fiscal year 2005, and represented their intent to
        implement corrective action over field held OM&S, to include implementation of internal
        controls, in fiscal year 2006.

                                               I.19                                   (continued)
Independent Auditors' Report
Appendix I -Material Weaknesses in Internal Control


        Policies, procedures and controls designed to remediate conditions related to conducting
        physical inventories of OM&S at the ICPs were not completely implemented in fiscal year
        2005. ICP physical inventory procedures lacked key elements of an effective physical
        inventory, e.g., reconciliation of sample population to perpetual records, statistically valid
        methods of sampling, and proper evaluation and reporting of results. Comprehensive step-
        by-step physical inventory instructions that clearly addressed each objective of a physical
        inventory were not communicated in a timely manner in fiscal year 2004, and the Coast
        Guard has acknowledged that the weaknesses continued to exist in fiscal year 2005. Coast
        Guard management has represented their intent to implement corrective action over ICP
        physical inventory procedures, to include implementation of internal controls, in fiscal year
        2006.
        Processes and controls were not in place to fully support the calculated value of field-held
        and ICP OM&S to approximate historical cost. Coast Guard management has represented
        their intent to implement corrective actions over valuation of OM&S in fiscal year 2006.
Cause/Effect: Coast Guard management deferred correction of most OM&S weaknesses reported in
fiscal year 2004 until fiscal year 2006, and acknowledged that the conditions we reported in prior
years remained throughout fiscal year 2005. Lack of comprehensive and effective policies and
controls over the performance of physical counts, and appropriate support for valuation may result in
errors in the physical inventory process, or inventory discrepancies that could result in financial
statement misstatements.
Criteria: According to GAO's Standards, assets at risk of loss or unauthorized use should be
periodically counted and compared to control records. Policies and procedures should be in place for
this process. The JFMIP pubIication Inventoly, Supplies, and Material System Requirements, states
that "the general requirements for control of inventory, supplies and materials consist of the processes
of receipt and inspection. An agency's inventory, supplies and materials system must identify the
intended location of the item and track its movement from the point of' initial receipt to its final
destination." SFFAS No. 3, Accountingfor Inventory and Related Property, states OM&S shall be
valued on the basis of historical cost.
Recommerzdations: We recommend that the Coast Guard:
    a) Update OM&S physical count policies, procedures, and controls, and provide training to
       personnel responsible for conducting physical inventories;
    b) Implement effective oversight and monitoring procedures to ensure that physical inventory
       counts are performed, and evaluated in accordance with policies and procedures;
    c) Perform a review of the inventory information contained in NESSS to identify and correct
       discrepancies between the perpetual records, and actual physical item counts and warehouse
       locations;
    d) Consider developing risk-based cycle counting procedures for OM&S; and
    e) Provide adequate support for the value of OM&S to approximate historical cost.




                                                                                         (continued)
Independent Auditors' Report
Appendix I - Material Weaknesses in Internal Control


G. Undelivered Orders, Accounts and Grants Payable, and Disbursements

Background: Most of the DHS components estimate accounts payable at year end, for accelerated
financial reporting purposes, as a percentage of undelivered orders (UDOs) based on historical trends.
UDOs are obligations, or budgetary funds reserved, for good and services ordered but not yet
delivered to DHS. Historically, at year-end, DHS has reported approximately $20 billion in UDOs.
Reliable accounting processes surrounding obligations, UDOs, and disbursements are key to the
accurate reporting of accounts payable in DHS' financial statements.
ICE had serious difficulties with maintaining accurate financial records related to obligations, UDOs,
and disbursements during fiscal year 2005, including the records of DHS-ICE components.
The majority of conditions cited below for Coast Guard are repeated from our fiscal year 2004 report.
The Coast Guard has initiated a review of its obligation and procurement processes, including those
related to the Integrated Deepwater System, which is targeted for completion in fiscal year 2006.
SL,GCP uses its accounting services provider's grants management system to support SLGCP's grant
making activities. The grants management system allows grantees to submit their financial status
reports electronically via web-based connections.
In late 2004, responsibility for the issuance and related accounting for numerous TSA grant programs
was transferred to SLGCP, while TSA retained responsibility for previously issued grants until
closeout and certain other grant programs.
Conditions: We noted the following internal control weaknesses related to UDOs, accounts and
grants payable, and disbursements, many of which are repeated from fiscal year 2004:
1. ICE has not:
        Established reliable internal controls to ensure that all invoices are paid timely, that all IPACs
        are cleared from suspense timely, that invoice payments and supporting documentation are
        matched with an originating obligation prior to disbursement, and that documentation
        supporting receipt of goods and services required from other Federal agencies for IPAC
        transactions are verified timely.
        Recorded disbursements made by legacy agencies for prior year obligations of S&T and IMP
        at the transaction level timely, because such information was not provided by the legacy
        agencies timely. Often, disbursements made by legacy agencies were not identified until ICE
        prepared its FBWT reconciliations and noticed unrecorded disbursements made against S&T
        and IAIP funds. Unrecorded legacy agency disbursements ranged from a high of almost
        $200 million during the second quarter of fiscal year 2005, to approximately $10 million at
        September 30,2005.
        Established sufficient controls to prevent duplicate payments to vendors related to prior year
        obligations or to prevent negative balances in certain Treasury accounts used by both ICE and
        the legacy agencies to make disbursements.
        Implemented sufficient controls to ensure that open obligations were properly liquidated
        when corresponding accounts payable were recorded, and that liquidation was occurring at
        the proper detailed fund code level.
        Adopted policies related to verification and validation of obligations performed by field
        personnel that clearly define their responsibilities, including the proper classification of
        requisitions that require the completion of receiving tickets upon orders being delivered,

                                                1.21                                      (continued)
Independent Auditors' Report
Appendix I - Material Weaknesses in Internal Control


        ensuring receipt of services and goods, prior to payment of invoices and communicate the
        consequences for not adhering to policy.
        Verified the completeness, existence, and accuracy of its recorded obligations created in
        PRISM, and other ICE systems. ICE did not have effective controls to monitor the
        completeness of all procurement, and other obligations, created in the field and program
        offices. For example, UDO subsidiary ledgers are not routinely reconciled to the general
        ledger.
2. At the Coast Guard:
        The periodic review and validation of UDOs was not properly designed, and was not
        effective to ensure that recorded obligations were valid, obligations incurred were recorded
        timely, and that proper approvals and supporting documentation existed. In addition,
        programming logic and transaction codes used to record advances for which an obligation
        was not previously recorded are not operating effectively to ensure the obligation and UDO
        are properly recorded.
        A reconciliation of paid delivered orders to FBWT disbursement activity was not performed.
        Delivered orders - unpaid were not properly and timely reclassified to delivered orders-paid
        status when disbursements were made. Instead, Coast Guard made on-top adjustments to
        delivered orders accounts without supporting detail for financial reporting purposes.
        Policies were not fully implemented to ensure that contract awards were recorded in the
        general ledger in a timely manner, and as a result, obligations might have been temporarily
        understated. In addition we noted a lack of segregation of duties associated with the creation
        and approval of purchase requisitions, certification of funds availability, and the recording of
        the obligation.
    0   Policies and procedures related to Coast Guard's automated requisition and procurement
        process have not been consistently followed in all regions. Specifically, the Financial and
        Procurement Desktop (FPD) system can be overridden to allow non-conforming numbering
        for purchase requisitions. This created a risk that commitments were not properly tracked or
        matched with obligations in the accounting records. FPD were also not properly reconciled to
        the Core Accounting System (CAS), affecting the completeness, existence and accuracy of
        the year-end "pipeline" adjustment that was made to record obligations executed before year-
        end, but which were not made into the system prior to year-end close.
        The procurement Management Effectiveness Assessment (MEA), which is an on-site
        assessment of procurement activity for compliance with Federal statutes and regulations, was
        not fully performed as planned in fiscal year 2005. The MEA is an important risk assessment,
        and monitoring control function that, when properly performed, assists in assessing
        compliance with applicable laws and regulations.
        The process used to estimate accounts payable was not fully documented as to the criteria
        used to develop the estimate for financial reporting.
3. SLGCP's accounting services provider was unable to resolve discrepancies identified in the data
   underlying the calculation of SLGCP's grants payable liability at September 30, 2005, prior to the
   completion of the DHS Fiscal Year 2005 Performance and Accountability Report.




                                                                                         (continued)
Independent Auditors' Report
Appendix I - Material Weaknesses in Internal Control


4. TSA:
        Was unable to fully reconcile and support the accuracy and completeness of its accounts
        payable and UDOs prior to the completion of the DHS Fiscal Year 2005 Performance and
        Accountability Report.
    e   Did not have policies and procedures in place to validate TSA's fiscal year 2004 grant accrual
        to ensure the methodology used provided a reasonable estimate of the actual amount owed
        September 30,2004. TSA used the same methodology to estimate the grant accrual at
        September 30, 2005.
5. EPR, SLGCP, and TSA did not have sufficient policies and procedures in place to fully comply
   with the OMB Circular No. A-133, Audits of States, Local Governments, and Non-profit
   Organizations, and laws and regulations supporting OMB Circular No. A-50, Audit Follow-up, as
   revised.
Cause/EfSeect: Some of the conditions at ICE resulted from unique circumstances and difficulties with
the transfer of S&T, IAIP, and DHS management accounting operations from legacy agencies to ICE
in fiscal year 2004. ICE and the DHS OCFO did not establish clear operating procedures or
coordinate the sharing of information with legacy agencies. These issues continued in fiscal year
2005, partly because ICE and DHS OCFO management were unable to develop policies and
procedures with the legacy agencies requiring the timely transfer of such information. This condition
has existed since the inception of the Department in 2003. Further, ICE'S system of internal control is
weak, allowing financial errors to occur, and be undetected for long time periods. These conditions
can also be attributed directly to weaknesses described in Comment A - Financial Management and
Oversight. In addition procedures for verification and validation of obligations were not clearly
written and understood by field personnel. These procedural weaknesses resulted in the
misclassification of open obligations and misstatements of undelivered and delivered orders.
The Coast Guard elected to defer correction of most fiscal year 2004 findings we reported in this area
until late in fiscal year 2005 and 2006.
Because SLGCP management did not perform sufficient monitoring of its financial reporting
processes, SLGCP could not take timely action to ensure that discrepancies noted in the data
underlying the grant accrual calculation would not materially impact its financial statement balances.
These weaknesses could result in a misstatement of grant payables, expenses, and UDOs.
At EPR, SLGCP, and TSA, if grants are not appropriately monitored, it is possible that funding will
not be used for its intended purpose.
Criteria: GAO's Standards hold that transactions should be properly authorized, documented, and
recorded accurately and timely. OMB Circular No. A-123 states that "transactions should be
promptly recorded, properly classified and accounted for in order to prepare timely accounts and
reliable financial and other reports." SFFAS No. 1, Accountingfor Selected Assets and Liabilities,
states, "When an entity accepts title to goods, whether the goods are delivered or in transit, the entity
should recognize a liability for the unpaid amount of the goods. If invoices for those goods are not
available when financial statements are prepared, the amounts owed should be estimated."
Recommendations: We recommend that:
1. ICE:
    a) Establish reliable internal controls to ensure that all invoices are paid timely, all IPACs are
       cleared from suspense timely, invoice payments are matched with an originating obligation

                                                1.23                                      (continued)
Independent Auditors' Report
Appendix I - Material Weaknesses in Internal Control


        prior to disbursement, open obligations are properly liquidated when corresponding accounts
        payable are recorded, and IPACs are matched with an originating obligation as soon as
        practicable after the transaction is recorded. Incorporate unique IPAC processing
        considerations in subsequent disbursement testing procedures;
   b) Establish policies and procedures over disbursements made by ICE operating offices to
      ensure that disbursements are made only after proper approval of the invoice, and evidence of
      the receipt of goods and services has been received. The policies should be updated to
      require the completion of a receiving report for all goods and services before invoices are
      approved for payment. If necessary, additional training should occur to enhance
      understanding of the procedures;
   c) Establish written procedures that require legacy agencies to timely submit all information
      affecting ICE'S accounting for component disbursements, and work with legacy agencies to
      implement them. If possible, consider transferring all accounting services for prior year
      obligations from legacy agencies into ICE, and improve procedures to prevent duplicate
      payments from accounts used by both ICE and its service provider;
   d) Expand the policies and procedures documentation related to obligation verification and
      validation to more clearly communicate the process to field personnel, and to ensure that
      supporting documentation exists to substantiate accounts payable balances;
   e) Issue polices and procedures that require monthly reconciliations of all obligations created in
      PRISM, and other manual or automated procurement tracking systems to the general ledger;
      and
   f)   Adhere to existing policies and procedures requiring UDO subsidiary records be routinely
        reconciled to the general ledger.
2. Coast Guard:
   a) Improve controls related to processing obligation transactions, to include periodic review and
      validation of UDOs. Emphasize to all fund managers the need to perform effective reviews
      of open obligations, obtain proper approvals, and retain supporting documentation. Develop
      effective monitoring controls for reviewing and approving obligation transactions prior to
      processing;
   b) Reconcile paid delivered orders activity to FBWT disbursement activity, to ensure that
      delivered orders are moved from unpaid status properly and timely, and to eliminate the
      current practice of making unsupported on-top adjustments to delivered orders for financial
      reporting purposes;
   c) Improve segregation of duties for transactions related to the creation and approval of
      purchase requisitions, certification of funds availability, and the recording of the obligations,
      and record contracts timely;
    d) Evaluate programming logic and transactions codes used to record advances for which an
       obligation was not previously recorded to ensure the obligation and UDO is properly
       recorded;
    e) Update the program logic of FPD to improve controls over document numbering for purchase
       requisitions. The system design of FPD and the core accounting system should be evaluated
       to ensure that obligation transactions are correctly processed;


                                                                                        (continued)
Independent Auditors' Report
Appendix I - Material Weaknesses in Internal Control


   f ) Reconcile FPD to CAS to ensure the completeness, existence, and accuracy of the year-end
       bbpipeline"adjustment that is made to record obligations executed before year-end but not
       recorded in the system prior to year-end close;
   g) Revise Commandant Instruction 4200.30E3, Program Ma~zagementReview Program, in order
      to implement effective oversight and monitoring procedures of the contract acquisition
      process, including the frequency of MEAs at major procurement regions; and
   h) Improve documentation of policies, procedures, and controls over the accounts payable
      estimation process.
3. SLGCP should require its accounting services provider to (a) perform a review to
   correct discrepancies in the underlying grant data, (b) complete a full validation of the
   SLGCP grants payable, as presented in the DHS consolidated balance sheet at
   September 30,2005, to determine if it is materially misstated, and (c) record a
   correcting adjustment if necessary to completely and accurately state the balance.
4. TSA:
    a) Perform a review to assess whether TSA accounts payable and UDOs, as
       presented in the DHS consolidated balance sheet at September 30,2005, are
       materially misstated and record a correcting adjustment, if necessary, to
       completely and accurately state the balances; and
    b) Implement policies and procedures to annually validate that the methodology used
       to estimate its grant accrual provides a reasonable estimate of the actual amount
       owed.
5. EPR, SLGCP, and TSA implement policies and procedures to ensure full compliance with OMB
   Circular Nos. A-133 and A-50.

H. Actuarial Liabilities

Background: The Coast Guard maintains pension, medical, and post-employment travel benefit
programs that require actuarial computations to determine the proper liability for financial reporting
purposes. The Military Retirement System (MRS) is a defined benefit plan that covers both
retirement pay and health care benefits for all active duty and reserve military members of the Coast
Guard. The post-employment travel benefit program is a benefit program that pays the cost of
transportation for uniformed service members upon separation from the Coast Guard. The unfunded
accrued liability for both plans is reported in the DHS consolidated balance sheet at September 30,
2005 and 2004. Annually, participant data is extracted by Coast Guard from its records, and provided
to an actuarial firm as input for the liability calculations. The accuracy of the actuarial liability as
reported in the consolidated financial statements is dependent on the accuracy and completeness of
the underlying participant data provided to the actuary.
Conditions: The Coast Guard:
        Was unable to fully support its assertions relating to accuracy and completeness of the
        underlying participant data, medical cost data, and trend and experience data provided to, and
        used by, the actuary for the calculation of the MRS, and post employment travel benefits
        liabilities. In addition, the salary increase assumptions used by the actuary in the MRS
        liability were outdated, and the Coast Guard did not have an established process to inform the

                                                1.25                                    (continued)
Independent Auditors' Report
Appendix I - Material Weaknesses in Internal Control


        actuary of Congressional legislation that changed allotments, entitlements, calculation
        methods, and amounts of military pay, which could materially affect the calculation of
        actuarial liabilities.
        Did not follow established policies and procedures to accumulate data for the actuary to
        compute post-employment travel benefits. The actuary determined that the data was
        unreliable and; therefore, could not complete their work. In addition, the Coast Guard's post-
        employment travel liability at September 30,2005, did not reflect the most current participant
        data.
        Did not perform periodic reconciliations between the medical expenditures subsidiary ledger
        and the general ledger, which would have identified errors in underlying data. In addition,
        the Coast Guard did not perform a reconciliation of the payroll system data to military
        personnel records to ensure the accuracy of headcount information prior to the submission of
        data to the actuary.
        Did not have effective policies, procedures, and controls to monitor the expenditures for
        medical services to ensure they were billed at proper rates, and for valid participants only,
        e.g., service members and their families, and retiree/survivors.
Cause/Effect: The Coast Guard does not have well-established procedures in place, including
adequate internal controls, such as supervisory reviews, to ensure that data and other information
provided to the actuary is complete and accurate. Much of the data required by the actuary comes
from personnel and payroll systems that are outside of Coast Guard's accounting organization, and
are instead managed by Coast Guard's Personnel Service Center (PSC). Strong lines of
communication are needed between PSC and accounting personnel. In addition, it appears that the
definition of data requirements provided to the PSC is not always clear, resulting in incomplete or
inaccurate data being submitted to the actuary, that was not discovered until after the actuary
identifies data anomalies, or the underlying participant data is subjected to our audit procedures. As a
result of weak controls, errors were discovered too late in the year for corrective action to occur, and
the Coast Guard's actuary to recompute the pension and other post-retirement liabilities to accurately
state those balances in the DHS consolidated balance sheet as of September 30, 2005.
The Coast Guard could be billed for services provided to non-Coast Guard participants/sponsors.
Inaccurate medical costs submitted to the Coast Guard actuary could result in a misstatement of the
actuarial medical liability and related expenses.
Criteria: GAO Standards state that management is responsible for developing policies, procedures,
techniques, and mechanisms that enforce management's directives. Control activities include
approvals, authorizations, verifications, reconciliations, performance review, and the creation and
maintenance of related records that provide evidence of execution of these activities, as well as
appropriate documentation.
SFFAS No. 5, Accountingfor Liabilities of he Federal Government, paragraph 95 states; the
employer should recognize an expense and a liability for other post-employment benefits (OPEB)
when a future outflow or other sacrifice of resources is probable and measurable on the basis of
events occurring on or before the reporting date. Further, the long-term OPEB liability should be
measured at the present value of future payments, which requires the employer to estimate the amount
and timing of future payments, and to discount the fbture outflow over the period for which the
payments are to be made.



                                                                                         (continued)
Independent Auditors' Report
Appendix I - Material Weaknesses in Internal Control


Recommendations:We recommend that the Coast Guard:
   a) Establish and document specific procedures and internal controls to provide review and
      oversight of its actuarial firm, to ensure that appropriate assumptions and accurate data,
      e.g., participant, medical cost, trend and experience, are used by the actuary to develop
      the estimate for post-employment actuarial liabilities, to include MRS and post
      employment travel benefits;
   b) Perform a periodic reconciliation between the medical expenditures recorded in the
      subsidiary ledger and those recorded in the CAS, and clearly identify reasons for
      variances in expenditures and UDOs. This reconciliation should be performed for all
      significant sources of medical actuarial data, including TriCare, and DoD Military
      Treatment Facilities (MTFs). In addition, this reconciliation should be reviewed by
      someone other than the preparer to ensure accuracy. The reviews / reconciliations
      should:
      - Detennine whether personnel data and retroactive payroll transactions are negatively
          impacting other business processes such as payroll and/or budgeting, and take
          corrective action as appropriate; Institute an annual review of data from the
          activelreserve population submitted to the actuary to determine if member attributes
          are complete and accurate, and follow up on any errors in order to correct them;
      - Assess the impact of year-end retroactive payroll transactions on data populations
          provided to Coast Guard actuary;
      - Review of the spreadsheet used to record and monitor medical expenses, to identify
          and correct any technical errors;
        -   Include an update to the current experience studies to provide more accurate trend
            information for Coast Guard, as recommended by Coast Guard's actuary;
        -   Review the annual headcounts provided by the PSC to the actuary, specifically by
            reconciling and resolving any discrepancies between payroll data to personnel data to
            ensure completeness and accuracy
    c) Perform an analysis of its policies, procedures, and systems to determine why certain IT
       system interfaces or query programs did not reliably process attribute data provided to the
       actuary and to identify key controls that were absent or ineffective; and
    d) Monitor medical care costs, including incurred but not reported costs. These procedures
       could include analysis of monthly medical cost payment trends, and related evaluations
       of trends to assess the accuracy and consistency of billings (between the military
       services), and for various treatment types (e.g., in-patient, out-patient). Such a trend
       analysis could assist the Coast Guard in budgeting medical payment costs for future
       periods. Verify that MTFs only bill for services provided to eligible Coast Guard
       participants and sponsors.

I. Budgetary Accounting

Baclcground: Budgetary accounts are a category of general ledger accounts where transactions
related to the receipt, obligation, and disbursement of appropriations and other authorities to obligate
and spend agency resources are recorded. Combined ICE and DHS-ICE components have over 90
separate TAFS, each with separate budgetary accounts that must be maintained in accordance with


                                                1.27                                     (continued)
Independent Auditors' Report
Appendix I - Material Weaknesses in Internal Control


OMB and Treasury guidance. The Coast Guard also has a complex budget that includes budget
authority from a variety of sources: annual, multi-year, and no-year appropriations; and several
revolving, special, and trust finds. In total, the Coast Guard has over 80 separate Treasury fund
symbols where budgetary authority is accounted for separately.

In fiscal year 2005, TSA migrated to the Coast Guard's financial systems, and Coast Guard became
TSA's accounting services provider.
Conditions: We noted the following internal control weaknesses related to budgetary accounting,
many of which were repeated from fiscal year 2004:
1. At ICE and DHS-ICE components:
        Weaknesses existed in controls that might have allowed ICE and DHS-ICE components to
        violate the Alztidejciency Act, or prevented management from knowing if they were in
        violation. Circumstances existed during the year that indicated a strong possibility that ICE
        funds were insufficient to cover obligations. ICE management and the DHS OCFO
        commenced an internal review to determine the extent of unrecorded obligations at ICE
        because of ICE'S ongoitlg budgetary accounting difficulties; however, the internal review was
        suspended prior to its completion. Identification of potential unrecorded obligations is
        contemplated as part of ICE'S Financial Action Plan to be executed in fiscal year 2006. As
        stated in our Independent Auditors' Report, we were unable to complete our audit of the
        financial statements as of, and for the year ended September 30, 2005, and accordingly, we
        were unable to complete our procedures related to testing for ICE'S compliance with the
        Antideficiency Act.
        Obligations for ICE and the DHS-ICE components were not always recorded in a timely
        manner. We noted many instances during the year when goods and services were procured
        before available funding was confirmed, and without an obligating document recorded in the
        system. We noted instances where invoices were held for payment due to for lack of funds.
        Because of the deterioration of the timeliness of recording obligations at ICE that were
        identified during the first half of fiscal year 2005, the Assistant Secretary for ICE intervened
        by issuing an instruction to all ICE program offices in April 2005 to record all known
        obligations. This was reiterated by an instruction in June 2005 from the Acting CFO, in
        preparation for the June 30, 2005, hard close.
        The listing of open obligations in ICE'S core accounting system (FFMS) was not complete
        and accurate for ICE and all DHS-ICE components. Obligations were recorded or modified
        in FFMS without verifying that the obligation data keyed into FFMS agreed with supporting
        documentation. We noted instances where obligations were partially recorded and instances
        where the obligation was not recorded related to services that were provided over a period
        that crossed fiscal years. We also noted an instance where an obligation was not properly
        authorized before it was entered into FFMS.
        The transfer of accounting records and responsibilities from legacy agencies was not
        coordinated properly. Ending balances for budgetary accounts maintained by legacy agencies
        often did not equal the beginning balances shown in the DHS-ICE component's financial
        records, dating back to the inception of the Department in 2003. During fiscal year 2005,
        legacy agencies continued to approve and pay for prior year obligations, without providing
        timely information that ICE needed to update the relevant accounting records.



                                                1.28                                     (continued)
Independent Auditors' Report
Appendix I -Material Weaknesses in Internal Control


       Certain Customs and Border Patrol (CBP) obligations, and the related disbursements, were
       retained in the accounting records of ICE upon the transfer of certain operations from ICE to
       CBP. However, the fiscal year 2005 transactions and remaining obligations were not
       reported to CBP timely, causing misstatements in the financial statements of both
       components.
       Contracting officer approvals were not clearly documented on obligating documents, and in
       one instance a contracting officer approved a purchase for an amount in excess of the
       officer's warrant authority. Further, ICE and the DHS-ICE components were unable to
       provide a complete and accurate listing of contracting officers with their approval thresholds.
       Weaknesses existed in controls over the preparation, submission and reconciliation to the
       general ledger of the SF-132, and the SF-133. Information reported on the SF-133 did not
       agree with the accounting records and was not reconciled timely resulting in inaccuracies in
       the June 2005 financial statements for ICE and the DHS-ICE components.
2. At Coast Guard:
       Obligations related to post-employment permanent changes of station (PCS) were not
       recorded at the time orders were approved and issued.
       The electronic validation and edit checks within the FPD, a feeder system to the CAS, were
       not fully utilized. Use of such a control is one method that would allow the Coast Guard to
       automatically flag and prevent the recording of commitments (a reservation of funds for
       hture obligation) and obligations in excess of appropriations, apportionments, or allotments.
       Obligations were recorded in FPD, but were not properly interfaced with the CAS, and were
       not supported by adequate documentation.
       Weaknesses existed in system capabilities and controls over the recording of budgetary
       authority. The Coast Guard's financial systems were unable to record budget authority until
       it had been apportioned, which resulted in temporary understatements of budget authority for
       certain types of funding sources, e.g., transferred authority, that is not typically apportioned
       before receipt of the funds.
        No automated system controls existed to preclude the processing of procurement transactions
        if the contracting officer's warrant authority had expired, and a manual check compensating
        control was not effective since listings of warranted contracting officers were outdated.
        Commitments were not routinely monitored for aging, or released timely, so that funds could
        be committed and obligated elsewhere. As of September 30,2005, Coast Guard had recorded
        unobligated commitments prior to fiscal year 2005 totaling $57 million.
3. The CAS used by TSA's accounting service provider, did not have the functionality to record
   amounts deobligated fiom prior year obligations at the transaction level, in accordance with the
   SGL requirements.
Cause/Effect: Many of the budgetary accounting issues at ICE appeared to be systemic in nature,
rooted in inadequate financial management processes, together with a lack of discipline in the
operating offices to follow prescribed policies. In addition, the internal control system is weak,
allowing financial errors to occur, such as unrecorded obligations, and go undetected by employees in
the normal course of business. These conditions can also be attributed directly to weaknesses
described in Comment A - Financial Management and Oversight. Several of the conditions at ICE


                                               1.29                                     (continued)
Independent Auditors' Report
Appendix I -Material Weaknesses in Internal Control


remain from difficulties with the transfer of the accounting operations of DHS-ICE components from
legacy agencies to ICE in fiscal year 2004. ICE and legacy agency management did not coordinate
the transition process to ensure that all transactions were properly recorded in the general ledgers of
DHS-ICE components during the transfer of accounts to ICE.
Several of the Coast Guard's budgetary control weaknesses can be corrected by modifications or
improvements to the financial accounting system, process improvements, and strengthened policies.
The Coast Guard has deferred correction of these conditions until fiscal year 2006.
Weak controls in budgetary accounting, and associated contracting practices increase the risk that
DHS and its components could violate the Antideficiency Act, and overspend their budget authority.
The financial statements are also at greater risk of misstatement. The untimely release of
commitments may prevent hnds from being used timely for other purposes.
Criteria: The Antidejciency Act prohibits agencies from obligating or disbursing more than their
appropriations and apportionments, has strict requirements for reporting violations, and includes
penalties for violations. GAO Standards hold that transactions should be properly authorized,
documented, and recorded accurately and timely. OMB Circular No. A-1 1, Preparation, Submission,
and Execution of the Budget, requires Federal agencies to submit their apportionment requests on an
SF-132 for each appropriation, unless permission is granted otherwise, and provides guidance on
when it is proper to record obligations for financial reporting purposes. According to JFMIP's Co1.e
Financial System Reqtlirenzents publication, an agency's core financial management system must
ensure that an agency does not obligate or disburse hnds in excess of those appropriated andlor
authorized, and specific system edits and user notifications related to funds control must be in place.
The Federal Acquisition Regulatiorz (FAR) Section 1.16 addresses the authorities and responsibilities
granted contracting officers. Treasury's SGL guidance specifies the accounting entries related to
budgetary transactions.
Recommendations: W e recommend that:
1. ICE and DHS-ICE components:
    a) Perform a root cause analysis of the financial management process, including relevant IT
       systems, to identify the reasons why obligations were not recorded accurately and timely
       during fiscal year 2005. If the review identifies violations of the Antidejciency Act that
       occurred during fiscal year 2005 or 2004, each instance of non-compliance should be
       reported in accordance with U.S.C. Title 31 ;
    b) Redesign the procurement process, as necessary, and establish appropriate internal controls to
       ensure that all obligations are accurately entered into FFMS in a timely manner, in
       accordance with applicable accounting standards, e.g., OMB Circular No. A-1 1, including
       transactions conducted by legacy agencies for DHS-ICE component entities, and transactions
       made on behalf of other DHS components, e.g., CBP for transferred operations;
    c) Verify and validate the completeness and accuracy of obligations currently recorded in
       FFMS, and that all obligations have been properly approved by a contracting officer with the
       appropriate authority to approve the transaction;
    d) Improve polices and procedures to ensure that adequate documentation, including contracting
       officer approvals, is maintained to support all obligations; and
    e) Improve policies and procedures related to preparation and reconciliationof the SF-132 and
       SF-133 with differences investigated and properly corrected.


                                                                                        (continued)
Independent Auditors' Report
Appendix I - Material Weaknesses in Internal Control


2. Coast Guard:
   a) Implement procedures to ensure that obligations related to PCS are recorded at the time
      orders are approved and issued, and supporting documentation is maintained;
   b) While no violations were noted, consider activating the electronic edit checks in FPD to the
      general ledger system to prevent incurring commitments and obligations in excess of
      appropriations and apportionments, and establish automated controls to prevent the
      processing of procurement transactions by contracting officers who do not have active
      warrant authority;
   c) Revise controls and related policies and procedures to periodically review commitments, e.g.,
      monitor aging, and determine the feasibility of modifying FPD to transmit all commitments,
      regardless of dollar amount, to the general ledger system, and to properly interface FPD with
      CAS;
   d) Implement a system change to the general ledger accounting system posting logic, to properly
      record budget authority;
   e) Develop and implement policies and procedures to ensure that the certification process is
      effective, and year-end obligations not recorded in CAS are validated, accurate, and
      supported by proper documentation; and
   f) Develop and provide specific training related to any internal controls and related policy and
       procedure changes.
3. TSA, in coordination with its accounting services provider, should establish the necessary
   program logic in CAS to capture and report amounts deobligated from prior year obligations at
   the transaction level, in accordance with the SGL requirements.

J. Intragovernmental and Intradepartmental Balances

Backgroulzd: DHS conducts business with other Federal agencies resulting in intragovernmental
receivables, payables, and the reporting of revenues and expenses from intragovernmental
transactions. Federal accounting and reporting regulations require Federal agencies to routinely
identify and reconcile intragovernmental balances and transactions with trading partners. These
procedures help ensure that intragovernmental balances properly eliminate in the government-wide
consolidated financial statements. DHS components also conduct business with each other, resulting
in the same type of transactions and balances that must be eliminated against each other to produce
accurate consolidated financial statements for DHS.
Conditions: During fiscal year 2005, including the fourth quarter, DHS did not timely or completely
reconcile intragovernmental balances with other Federal entities, particularly the Department of
Defense. Consequently, the DHS' Material Difference/Statzls of Disposition Certzjkation Report,
submitted to Treasury for September 30, 2005, showed material differences attributable to
accounting/reportingerrors in excess of $1.6 billion. These conditions also impacted DHS' ability to
accurately report transactions with Federal government trading partners in the consolidated financial
statements, and in the RSI section of the financial statements, as required. The DHS OCFO did not
perform reconciliations throughout the year of all intragovernmental balances. We noted that ICE,
DHS-ICE components, and Coast Guard have not developed and adopted effective SOPS,or
established systems to completely track, confirm, and reconcile intra-governmental balances andlor
transactions with trading partners, in a timely manner, which contributed to the material differences.

                                               1.31                                    (continued)
Independent Auditors' Report
Appendix I - Material Weaknesses in Internal Control


We did note a decrease in out-of-balance conditions from the prior year and during fiscal year 2005.
However, DHS was still unable to produce accurate consolidated financial statements due, in part, to
unreconciled eliminations between DHS components in a timely manner. Intra-DHS transactions
between ICE, CBP, CIS and other DHS components did not eliminate correctly at the consolidated
level during the year. Further, DHS was unable to completely reconcile out-of-balance
intradepartmental transactions at year-end, resulting in the need for "on-top" adjustments, based
primarily on estimates and analytical comparisons, to close the general ledger and prepare balanced
consolidated financial statements.
Cause/Effecect: Business process limitations at ICE, DHS-ICE components, and the Coast Guard
prevented these components from tracking activity with government trading partners and thus,
manual processes were established. Accounting data for DHS-ICE components did not include
detailed supporting schedules of trading partner activity that would have facilitated the reconciliation
process. The Coast Guard has not fully utilized its accounting system functionality to identify and
track intragovernmental balances. A lack of resources in the OCFO prevented the accountant
responsible for intragovermental reconciliations from researching and reconciling intragovernmental
differences in a timely manner during the year and at year-end. Reconciling trading partner activity
and balances at least quarterly is necessary to identify material out-of-balance conditions between
Federal entities and to support an accurate consolidation of DHS and the Governrnent-widefinancial
statements.
Criteria: The Ti-easuy Financial Management Sewice Memomndunz M-03-01, dated October 4,
2002, provides guidance to Federal agencies for standardizing the processing and recording of
intragovernmental activities. The Treasuvy Fedei-ul Intragovernmental Transactions Accountiizg
Policies Guide, dated October 23, 2002, requires quarterly reconciliation of intragovemental asset,
liability, and revenue amounts with trading partners. Further, the TFM, Section 4060,
IntragovernnzentalActivity/Balaizces, requires reporting agencies to reconcile and confirm
intragovemental activity and balances quarterly for specific reciprocal groupings. OMB Circular
No. A-136 requires the presentation of transactions with trading partners to be presented in RSI. It
also requires agency financial statements to be presented on a consolidated basis, including the
elimination of significant intradepartmental transactions and balances for reporting purposes.
Recommendation: We recommend that all DHS components and programs, in conjunction with the
DHS OCFO, develop and implement procedures to positively confirm and reconcile, at least on a
quarterly basis, all intragovernmental activity and balances with their intragovernmental trading
partners, including other DHS component entities, as prescribed by Treasury guidance. In addition,
transactions with trading partners should be completely and accurately presented in the RSI section of
the Department's PAR. These procedures also should ensure that all intradepartmental activity and
balances are identified and properly eliminated for DHS' consolidated financial statements.




                                                                                         (continued)
Independent Auditors' Report
Appendix I1- Other Reportable Conditions


K. Environmental Liabilities
Background: The Coast Guard's environmental liabilities consist of two main types: shore facilities
and vessels. Shore facilities include any facilities or property other than ships and aircraft (e.g.,
buildings, fuel tanks, lighthouses, small arms firing ranges, batteries from aids to navigation, etc.).
The Plum Island Animal Disease Center (PIADC) was transferred to DHS from the Department of
Agriculture and is dedicated to the study of animal diseases to better protect the food supply.
Previously the PIADC was a U.S. Army installation. The type of research conducted at PIADC and
its past use as a military facility are indicators that the land and buildings may require substantial
environmental clean-up to eliminate environmental contaminants. PIADC is now part of DHS' S&T
Directorate.
CBP's environmental liabilities are created primarily from underground fuel storage tanks and firing
ranges.
Conditions: We noted the following internal control weaknesses related to DHS' environmental
liabilities:
1. At Coast Guard:
        Consistent policies or procedures have not been developed for the identification, evaluation,
        and estimation of potential environmental remediation of Coast Guard sites, thereby resulting
        in different approaches by shore facility commands and ultimately varying liability estimates.
        Environmental liability estimates associated with lighthouses and light stations did not
        include fbture Phase I1 (soil testing) assessment or remediation costs and will not be
        completed until fiscal year 2006.
        The total estimate for shore facilities was misstated due to ineffective procedures. We noted
        that the Coast Guard did not properly index the liability costs to current year dollars, nor did
        it properly include contingency factors for unknown conditions, resulting in a potential
        understatement of the shore facility liability in the financial statements.
        Consistent policies and procedures have not been developed to estimate the cost of
        remediation of specific projects, such as lighthouses and small arms firing ranges and will not
        be completed until fiscal year 2006.
        Segregation of duties in calculating and reviewing the vessels liability estimates did not exist.
        Policies and procedures had not been developed to review shore facility project estimates that
        would provide reasonable coverage of the entire shore facility population.
2. At S&T, policies and procedures have not been developed to determine if an environmental
   liability exists at the PIADC, and if so, to accurately estimate and record an environmental
   liability for the cost of cleanup.
3. CBP had not determined the environmental liabilities to be recorded in the September 30, 2005,
   financial statements, until a review was performed in response to our audit inquiry. CBP's
   analysis resulted in an environmental liability of approximately $43 million. We further noted
   that no single program existed to manage CBP's environmental liabilities, resulting in the
   necessity for an ad hoc process to be implemented at year-end. In addition, we noted a lack of
   communication throughout the organization, related to the requirements associated with



                                                 11.1                                     (continued)
Independent Auditors' Report
Appendix II- Other Reportable Conditions


    environmental liabilities and weaknesses in documentation of data supporting the computation of
    liability for financial statement purposes.
Cause/Effect: Coast Guard has not developed consistent written agency-wide policies, to define the
technical approach, cost estimation methodology, and overall management of its environmental
remediation projects, resulting in inconsistency in its estimates and possible misstatement of the
liability in its financial statements. S&T and CBP did not have policies and procedures in place that
required an annual review to identify a comprehensive list of sites that required environmental
remediation and clean-up.
Criteria: SFFAS No. 6 , paragraph 85, defines environmental cleanup costs as those costs for
removing, containing, and/or disposing of (1) hazardous waste from property, or (2) material andlor
property that consists of hazardous waste at permanent or temporary closure or shutdown of
associated PP&E. Paragraph 88 states that these cleanup costs meet the definition of liability
provided in SFFAS No. 5. In addition, SFFAS No. 6, paragraph 96, states that remediation estimates
shall be revised periodically to account for material changes due to inflation or deflation and changes
in regulations, plans andlor technology. New remediation cost estimates should be provided if there
is evidence that material changes have occurred; otherwise estimates may be revised through
indexing.
FASAB Technical Release No. 2, Determining Probable and Reasonably Estimable for
E~zvironmentalLiabilities in the Federal Government, states that an agency is required to recognize a
liability for environmental cleanup costs as a result of past transactions or events when a future
outflow or other sacrifice of resources is probable and reasonably estimable. Probable is related to
whether a future outflow will be required. Reasonably estimable relates to the ability to reliably
quantify in monetary terms the outflow of resources that will be required.
The GAO Standards state that management is responsible for developing and documenting detailed
policies, procedures, and practices that fit their agency's operations. As part of their monitoring of
internal control, management must continue to maintain these policies and procedures and assess the
quality of performance over time.
Recommendations: We recommend that:
1. Coast Guard:
    a) Implement policies and procedures to ensure the proper calculation and review of cost
       estimates for consistency and accuracy in financial reporting including determining proper
       segregation of duties;
    b) Develop controls to ensure identification of and recording of all environmental liabilities,
       such as, soil testing and remediation, lighthouses, small arms ranges, and vessels; and
       continue efforts to implement corrective action plans regarding small arms firing ranges
       (SAFR) and lighthouse/light station remediation projects; and
    c) Develop and implement policies and procedures to apply indexing and contingencies to
       environmental estimates on a consistent basis, and to require the retention of supporting
       documentation for environmental estimates.
2. S&T evaluate the PIADC facility, using a qualified environmental specialist, to determine if an
   environmental liability exists, and if so to accurately estimate and record an environmental




                                                                                        (continued)
Independent Auditors' Report
Appendix II - Other Reportable Conditions


   liability for the cost of cleanup. S&T should also develop policies and procedures to routinely
   assess environmental liabilities.
3. CBP:
   a) Designate one central person or department to be responsible for management and reporting
      of environmental liabilities, e.g., identification, valuation, tracking, and financial statement
      reporting;
   b) Improve the communication throughout CBP to ensure that a clear understanding of the
      financial reporting requirements for environmental liabilities exists;
    c) Implement a process to ensure that all sites with potential environmental liabilities are
       identified and liabilities are properly estimated and recorded in the financial statements, in
       accordance with generally accepted accounting principles;
    d) Ensure that the liability is updated on a quarterly basis; and
    e) Improve the traceability of its Environmental Liabilities Summary Sheet estimate to its
       supporting documentation.

L. Custodial Revenue and Drawback

Backgvou~zd:CBP, as a component of DHS, has continued to perform an important revenue
collection function for the U.S. Treasury. CBP collects approximately $24 billion in annual import
duties, taxes, and fees on merchandise arriving in the United States from foreign countries. Receipts
of import duties and related refunds are presented in the statement of custodial activity in the DHS
consolidated financial statements. CBP is the only DHS component with significant custodial
responsibilities.
Drawback is a remittance, in whole or in part, of duties, taxes, or fees previously paid by an importer.
Drawback typically occurs when the imported goods on which duties, taxes, or fees have been
previously paid, are subsequently exported from the United States or destroyed prior to entering the
commerce of the United States. Depending on the type of claim, the claimant may have up to eight
years from the date of importation to file for drawback.
CBP employs a risk-based system of internal control over the collection of taxes, duties, and fees.
By design, imports are subjected to various controls depending on a risk assessment associated with
the importer, country of origin, merchandise being imported to the United States, and other factors.
Low risk imports are subjected to fewer trade compliance controls, while high risk imports are
subjected to increased control, e.g, inspection, review of import documentation, etc. To measure
the effectiveness of this risk-based control approach, CBP uses a technique known as Compliance
Measurement Program (CMP), which is essentially a control self-assessment. The CMP is also
used to compute the "revenue gap", as described by SFFAS No. 7, Accountingfov Revenue and
Other Financing Sources, and disclosed in the CBPysPAR in compliance with OMB Circular No.
A-136.
Bonded Warehouses (BW) are facilities under the joint supervision of CBP and the Bonded
Warehouse Proprietor used to store merchandise that has not made entry into the United States
commerce. Foreign Trade Zones (FTZ) are secured areas under CBP supervision that are
considered outside of the CBP territory, upon activation. Authority for establishing FTZs is granted
by the U.S. Department of Commerce's Foreign Trade Zones Board, under the Foreign Trade


                                                11.3                                     (continued)
Independent Auditors' Report
Appendix II - Other Reportable Conditions


Zones Act of 1934, as amended (1 9 U.S.C. 81a-8111). Foreign and domestic merchandise may be
admitted into zones for operations not otherwise prohibited by law, including storage, exhibition,
assembly, manufacturing, and processing.
Conditions: We noted the following internal control weaknesses at CBP:
Related to drawback:
    a   The revenue accounting system, Automated Commercial System (ACS), lacked controls to
        detect and prevent excessive drawback claims and payments, necessitating inefficient manual
        processes to compensate. ACS did not have the capability to compare, verify, and track
        essential information on drawback claims to the related underlying consumption entries or
        export documentation upon which the drawback claim was based. For example, ACS did not
        contain electronic edit checks that would flag duplicate claims for export of the same
        merchandise.
    m   Drawback review policies did not require drawback specialists to review all related drawback
        claims against the underlying consumption entries to determine whether, in the aggregate, an
        excessive amount was claimed.
Related to the entry process - collection of taxes, duties and fees, and CMP:
    a   Policies and procedures that describe how to perform a CMP exam, the role of the CM
        coordinator, and documentation of findings, etc. were outdated and not well documented or
        communicated. We noted that performance of the CMP has been inconsistent in various
        ports throughout the United States. For example we noted that the extent of physical
        inspection of merchandise varied depending upon the port and inspector performing the
        inspection.
        CBP management identified other weaknesses in the documentation and accumulation of
        CMP sample data that could mitigate the effectiveness of the program as a quality control
        measurement tool, and the accuracy of the revenue gap disclosed in the CBP PAR. For
        example, we noted that CMP sample data was not reviewed for errors before it was used by a
        statistician to compute the revenue gap, and CBP identified a high error rate in the quality of
        other, non-financial CMP generated data.
        The CMP sample size used during fiscal year 2005 was lower than in previous years, and
        consequently caused a high standard deviation of potential error in the statistical computation
        of the revenue gap.
Related to BW and FTZ:
        CBP lacked official guidance and proper training to address the monitoring of BWs and
        FTZs. For example, we identified incomplete risk assessments and spot checks of BWs
        and FTZs.
        CBP has not implemented a CMP to measure the revenue gap and effectiveness of
        controls over trade compliance at FTZs and BWs, similar to the entry process described
        above.




                                                                                        (continued)
Independent Auditors' Report
Appendix I1 - Other Reportable Conditions


Cause/Effect: CBP has been challenged to balance its commitment of limited resources to two
important mission objectives - trade compliance, including the collection of taxes, duties and fees
owed to the Federal government, and securing the U.S. borders from potential terrorist entry.
While these mission objectives do overlap somewhat, there are differences in how resources are
deployed. During fiscal year 2005, CBP reduced its sample size for its CMP by a factor of 50
percent, to devote more resources to border security. Further, CMP policies and procedures have
not gone through a significant review and update in several years. Turnover and reassignment of
personnel have caused the CMP knowledge base to go stale in some ports. For drawback, much
of the process is manual until planned IT system functionality improvements are made, placing an
added burden on limited resources. Policies and procedures have not been developed or
implemented to reliably and accurately review and track the BWs and FTZs. Without an
effective process to review the compliance of CBW and FTZ, CBP cannot determine the loss of
revenue associated with these facilities, and it is possible that some of the facilities were not
accounted for and that others were counted twice.
Criteria: Under FMFIA, management must implement cost-effective controls to safeguard assets and
ensure reliable financial reporting. OMB's Revised Implementation Gtlidance for FFMIA, states that
financial systems should "routinely provide reliable financial information consistently, accurately,
and reported uniformly" to support management of current operations. JFMIP publications and OMB
Circular No. A-127 outlines the requirements for Federal systems. JFMIP7s Core Financial System
Requirements states that the core financial system must maintain detailed information by account
sufficient to provide audit trails and to support billing and research activities. Circular No. A-127
requires that the design of financial systems should eliminate unnecessary duplication of a transaction
entry. Wherever appropriate, data needed by the systems to support financial functions should be
entered only once and other parts of the system should be updated through electronic means
consistent with the timing requirements of normal business/transaction cycles.
The Imprfloper Payments Information Act of 2002, effective in fiscal year 2004, requires agencies to
assess the risk of erroneous payments and develop a plan to correct control weaknesses. In addition
to the regulatory requirements stated above, CBP's Drawbaclc Handbook, dated July 2004, states that
management reviews are necessary to maintain a uniform national policy of supervisory review.
Recommendations: We recommend that CBP:
Related to drawback:
    a) Implement effective internal controls over drawback claims as part of any new systems
       initiatives, including the ability to compare, verify, and track essential information on
       drawback claims to the related underlying consumption entries and export documentation for
       which the drawback claim is based, and identify duplicate or excessive drawback claims; and
    b) Revise current policies and procedures to require drawback specialists to review all prior
       related drawback claims against a designated consumption entry to determine whether, in
       the aggregate, an excessive amount was claimed against the consumption entries.
Related to entry and CMP:
    c) Update policies and procedures to fully describe how to perform a CMP exam, define the
       roles and responsibilities of the CM coordinator, and to describe how to document test
       results to improve the quality of CMP data;



                                                                                       (continued)
Independent Auditors' Report
Appendix 11 - Other Reportable Conditions


   d) Provide training to CM coordinators, CBP officers and import specialists on how to fully
      achieve the objective of the CMP; and
   e) Develop and implement additional procedures that will improve the precision of the
      revenue gap calculation, including the statistical results.
Related to FTZ and BW:
   f) Finalize and issue CBP policies and provide appropriate training regarding compliance
      reviews of FTZs and BWs. This policy should include a standard national checklist to
      help CBP officers perform thorough reviews and measure compliance rates and to
      document the reviews consistently. In addition, this policy should include specific
      corrective action plans, based on the inspection results; and

   g) Consider the cost/effectiveness of implementing a CMP over FTZs and BWs to assess the
      risk of revenue loss and violations of trade regulations by importers.




                                                                                    (continued)
Independent Auditors' Report
Appendix III - Compliance and Other Matters


(Findings A - J and K - L are presented in Appendices I and 11, respectively)
M . Federal Managers' Financial Integrity Act of 1982
OMB Circular No. A-123 requires agencies and Federal managers to (1) develop and implement
management controls; (2) assess the adequacy of management controls; (3) identify needed
improvements; (4) take corresponding corrective action; and (5) report annually on management
controls (commonly known as management's FMFIA report). During fiscal year 2005, DHS OCFO
significantly enhanced its FMFIA assessment policies and procedures to be conducted by the
components, in part to prepare for an audit of internal control over financial reporting in fiscal year
2006, pursuant to the DHS Financial Accountability Act of 2004. The OCFO required the
components to implement certain processes and undergo a self evaluation of some entity level
controls.
While also we noted a considerable improvement in DHS' FMFIA processes, some components still
have not established effective systems, processes, policies and procedures to evaluate and report on
internal accounting and administrative controls, and conformance of accounting systems to properly
and accurately report on compliance with Sections FMFIA Sections 2 and 4.
Recommendations: We recommend that DHS components fully implement the FMFIA process, as
prescribed by the OCFO, to ensure compliance with the FMFIA in fiscal year 2006. We also
recommend that the OCFO consider additional training for the components, to ensure a thorough
understanding of requirements.

N . Federal Financial Management Improvement Act of 1996

Passage of the DHS Financial Accountability Act of 2004 made DHS subject to the FFMIA, in fiscal
year 2005. In previous fiscal years - 2003 and 2004 - DHS was not subject to FFMIA. Section
803(a) of FFMIA, requires that agency Federal financial management systems comply with (1)
Federal accounting standards, (2) Federal system requirements, and (3) the United States Standard
General Ledger at the transaction level. FFMIA emphasizes the need for agencies to have systems
that can generate timely, reliable, and useful information with which to make informed decisions to
ensure ongoing accountability. We noted that DHS and each significant component - CBP, ICE and
DHS-ICE components, EPR, SLGCP, TSA and Coast Guard did not fully comply with at least one of
the requirements of FFMIA. The reasons for non-compliance are reported in Appendices I and 11.
Recommendations: We recommend that DHS improve its processes to ensure compliance with the
FFMIA in fiscal year 2006.

0.Federal Information Security Management Act (Electrorzic Government Act of 2002)

DHS is required to comply with the FISMA, which was enacted as part of the Electronic Government
Act of 2002. FISMA requires agencies and departments to: (1) provide information security for the
systems that support the operations under their control; (2) develop, document and implement an
organization-wide information security program; (3) develop and maintain information security
policies, procedures and control techniques; (4) provide security training and oversee personnel with
significant responsibilities for information security; (5) assist senior officials concerning their security
responsibilities; and (6) ensure the organization has sufficient trained personnel to comply with
FISMA requirements. We noted instances of non-compliance with FISMA that have been reported
by us in Appendix I within Comment C- Financial Systems Security.


                                                                                           (continued)
Independent Auditors' Report
Appendix 111- Compliance and Other Matters


Recommendations: We recommend that DHS follow the recommendations provided in Appendix I,
Comment C and fully implement the requirements of FISMA in fiscal year 2006.

P. Single Audit Act Amendments of 1996, and Laws and Regulations Supporting OMB Circular
   No. A-50, Audit Follow-up, as revised,

As grant-making agencies, EPR, SLGCP, and TSA are required to comply with certain provisions of
OMB Circular No. A-133 and OMB Circular No. A-50, as revised. These circulars require agencies
awarding grants to ensure they receive grantee reports timely and to follow-up on grantee single audit
findings.
Additional, OMB Circular No. A-50, as revised, provides policies and procedures for use by
executive agencies when considering reports issued by Inspectors General, and other executive
branch audit organizations, the GAO, and non-Federal auditors, where follow up is necessary.
Corrective action taken by management on findings and recommendations is essential to improve the
effectiveness and efficiency of government operations.
Although certain procedures have been implemented to monitor grantees and their audit findings, we
noted that EPR, SLGCP, and TSA did not have procedures in place to fully comply with provisions in
OMB Circular Nos. A-133 and A-50, that require them to timely obtain and review grantee single
audit reports and follow up on questioned costs and other matters identified in these reports. Since
single audits typically are performed by other entities outside of DHS, procedures related to these
reports are not always entirely within the control of EPR, SLGCP, and TSA.
DHS and its components did not fully develop corrective action plans to address all material
weaknesses and reportable conditions identified by previous financial statement audits, and in two
cases, management did not provide a response to fiscal year 2004 audit findings, as required by OMB
Circular No. A-50, as revised. We also noted that some corrective action plans lack sufficient detail,
such as clearly defined roles and responsibilities, actions to be taken, time-table for completion of
actions, and documented supervisory review and approval of completed actions.
Recommerzdations: We recommend that:
I . DHS management develop and implement department-wide polices and procedures to ensure
    compliance with OMB Circular Nos. A-133 and A-50, including the identification of which
    components must comply. Until policy guidance is received from DHS management, EPR,
    SLGCP, and TSA should perform the following in fiscal year 2006:
    a) Develop and implement a tracking system to identify each grantee for which an OMB
       Circular No. A-133 single audit is required, and the date the audit report is due;
    b) Use the tracking system to ensure audit and perfonnance reports are received timely, or to
       follow-up when reports are overdue; and
    c) Perform reviews of grantee audit reports, issue related management decisions, and ensure that
       the grantees take appropriate corrective action, on a timely basis.
2. DHS develop policies and procedures, including the development of a process to
   ensure that corrective action plans addressing all DHS audit findings are developed
    and implemented, together with appropriate supervisory review.




                                                                                       (continued)
Independent Auditors' Report
Appendix 111- Compliance and Other Matters


Q. Improper Payments Information Act of 2002
DHS is required to comply with the Improper Payments Information Act of 2002 (the Act). The Act
requires agencies to review all programs and activities they administer annually and identify those
that may be susceptible to significant erroneous payments. For all programs and activities where the
risk of erroneous payments is significant, agencies must estimate the annual amounts of erroneous
payments, and report the estimates to the President and Congress with a progress report on actions to
reduce them. The agency must report a statistically valid error projection for susceptible programs in
its annual PAR. To facilitate the implementation of the Act, OMB issued guidance in Memorandum
M-03-13, Implementation Guide for the Improper Payments Information Act of 2002, which among
other matters provided a recommended process to meet the disclosure requirements. We noted that
DHS did not comply with the Act, as follows:
DHS did not:
        Institute a systematic method of reviewing all programs and identifying those it believed were
        susceptible to significant erroneous payments; and
        Perform testwork to evaluate improper payments for all material programs. Testing was only
        performed over the TAFS with the largest disbursements for each component or the largest
        TAFS maintained by an internal DHS accounting service provider.
Recommendation: We recommend that DHS follow the guidance provided in OMB M-03-13 in
fiscal year 2006, including completing the necessary susceptibility assessments, performing testwork
over all material programs, and instituting sampling techniques to allow for statistical projection of
the results.

R. DHS Financial Accountability Act of 2004

Section 3 of Public Law 108-330, DHS Financial Accountability Act of 2004, states that the President
of the United States shall appoint a Chief Financial Officer of DHS not later than 180 days after the
date of the enactment of this Act signed in October 2004, to be confirmed by the U.S. Senate. To
date, a CFO for DHS has not been nominated or Senate confirmed. Currently DHS is operating with
an Acting CFO, while no waiver or amendment to this law has been obtained by DHS management.
The DHS Financial Accountability Act of 2004 also made DHS subject to the Chief Financial
Oficers Act of 1990, as amended, which requires DHS to submit to the Congress and OMB audited
financial statements annually. DHS engaged an independent auditor to audit the September 30, 2005,
consolidated balance sheet only.
Recommendation: We recommend that DHS complete the interviewing process and formally
nominate an applicant to fill the CFO position in a timely manner. We also recommend that DHS and
its components continue to implement corrective action plans in order to remediate the fiscal year
2005 material weaknesses and reportable conditions in order to obtain an opinion covering all of its
consolidated financial statements in the future.

S. Government Performance and Results A'ct of 1993

The Government Performance and Results Act requires each agency to prepare performance plans
that include a description of the operational processes, skills and technology, and the resources
required to meet the goals, and a description of the means used to verify and validate the measured
results. In addition, the PAR should include performance indicators established in the annual


                                                111.3                                   (continued)
Independent Auditors' Report
Appendix 111 - Compliance and Other Matters


performance plan, the actual performance achieved compared with the prior year goals, and an
evaluation of the current year performance plan with respect to success in achieving the performance
goals. The fiscal year 2006 DHS Annual Performance Plan did not include details related to requisite
resources to meet DHS goals or a description of the means used to verify and validate performance
results. Also, DHS did not consistently present performance measures in the PAR as written in the
annual performance plans, did not provide explanations of performance results, and did not have
supporting documentation substantiating the changes in performance measure goals between the
annual performance plan and the PAR.
Recommendation: We recommend that DHS develop policies and procedures to ensure full
compliance with the Government Performance Results Act.




                                                                                     (continued)
   Independent Auditors' Report
   Appendii IV - Status of Prior Year Findings

 -.---.-- ...      ,..   ,   .            ,                                                                      "   .   -   r   -   7    ,          <   -    pis-ca=k;e *i7"myd-.
                                                Summary of Conditions
                         As ~ e ~ o r t i
                                        end2004 DHS Performance and Accountability Report                                                        .           st&&/&S&itr:d                                '

"..,<
    .   - .,....-*- - --
    ,----                        -   "-       . --"    -   "                                                         -           .   -7   -7"s           .,   2   -   - . , v - c * 7 T - . y > m
                                                                                                                                                                                                    ,I   ?-
   Mntevial Weaknesses:

    A.   Financial Management Structure
         Office of the Chief Financial Officer (OCFO) has not fblly established processes that bridge the gap between     Partially Repeated as
         where DHS' consolidated reporting responsibilities lie (at the OCFO) and where most accounting resources and      Material Weakness
         detailed knowledge resides; hired or contracted sufficient qualified personnel to properly perform the financial     (Comment A)
         reporting function; provided the DHS bureaus sufficient management oversight and timely policy guidance;
         and established sufficient internal controls over financial reporting.

   B. Financial Management and Oversight at Immigration and Customs Enforcement
         ICE did not have a well-designed plan for the transition of accounting operations of major DHS directorates                                        Repeated as
         and components to its accounting systems, resulting in material errors, irregularities, and abnormal balances in                                Material Weakness
         the DHS consolidated financial statements; a process to establish and maintain more than 30 important shared                                      (Comment A)
         services agreements with trading partners; a process for identifjring and fixing deficiencies in its accounting
         and financial reporting process, including internal control weaknesses, human capital needs, and information
         technology needs. Its financial systems, processes, and control activities were inadequate for providing
         accounting services for itself and five other major DHS operating units; sufficient leadership and guidance,
         from both the OCFO and within its own management ranks. ICE fell seriously behind in performance of basic
         accounting functions, such as account reconciliations, analysis of material abnormal balances, and proper
         budgetary accounting, which prevented it from submitting timely and accurate periodic fmancial reports to
         DHS during fiscal year2004, correctly applying Federal accounting standards, and implementing internal
         controls that comply with GAO Standards.

  C. Financial Reporting in the Office of the Chief Financial Officer and DHS Components
         1. The OCFO did not adhere to the schedule to meet the accelerating reporting deadlines; prepare a balanced                                 Partially Repeated as
            consolidated financial statement until November 2004; prepare accurate periodic consolidated financial                                    Material Weakness
            statements; implement sufficient processes and monitoring controls to ensure consolidated financial                                       (Comments A & B)
            information was received timely and was accurate from DHS components; provide adequate guidance to
            DHS components; and implement procedures and controls over the FMFIA reporting process.



                                                                             IV.1
Independent Auditors' Report
Appendix IV - Status of Prior Year Findings
p
p
l
ll
 l     -,---. . - - .- ." -.-
         p-yr                 , -   . . -- .             .                                                              - -- -- - --   -v,-. rl*cIr*...",--   .,r.--.-
     ,          .                          Summary of conditions                                                                  Fiscal .Yew 2Q@2+:.
                        As Reported in2004 DHS Performance and Accountability Report
          2. Coast Guard has a reporting process that is complex and requires a significant number of on-top entries,
             and lacks documentation of internal controls; year-end closing entries did not consistently include
             sufficient supporting documentation or internal controls, such as management review; the accuracy of
             financial information was dependent on a few knowledgble personnel instead of well documented policies
             and procedures; and had weaknesses in financial management oversight.
          3. ICE, EPR, and SLGCP do not have documented policies and procedures for exporting data from the
             general ledger for the T E R submission routinely; quality control procedures over financial reports are not
             regularly performed; TIER input is not reconciled to outputs provided by the OCFO; and the accuracy of
             fmancial information is highly dependent on the knowledge of a few individuals.
          4. Coast Guard, SLGCP, and ICE did not have effective frnancial information systems or sufficiently
             documented processes to accumulate and present cost data by strategic goal as required by SFFAS No. 4.
          5. EPR monthly TIER transmissions did not accurately and completely reflect the fmancial transactions of the
             Strategic National Stockpile.
          6. SLGCP was not actively involved in the financial reporting process of its accounting services provider, and
             did not provide adequate oversight.

D.        Financial Systems Functionality and Technology
          OCFO and DHS bureaus have IT and fmancial system control and fbnctionality weaknesses in entity-wide                    Repeated as
          security program planning and management, access controls, application s o h a r e development and change            Material Weakness
          controls, system software, segregation of duties, and service continuity.                                              (Comment C)

E.        Fund Balance with Treasury
          1. ICE did not perform timely reconciliation procedures for FBWT, and lack SOPSon FBWT reconciliation                   Repeated as
             procedures.                                                                                                       Material Weakness
          2. Guard did not perform timely reconciliation procedures for FBWT, and lack SOPSon FBWT reconciliation                (Comment D)
             procedures.
 Independent Auditors' Report
 Appendix IV - Status of Prior Year Findings
-.
 -....-LTr--   ."-<   -.' .-,- , - - - - , . .-
                -.%,.-***   <
                            .-?'                                                                         -   "    -   - "-,   %.   - ,.-   .
                                                                                                                                           a              .,.----*-
                                                                                                                                               --*%-v~~-...-                  --
             .                                                                                                                                  . Fiscal Year
        .c *
                 "   <
                                             summary of Conditions                                                                   '
                                                                                                                                                          . .‘
                                                                                                                                         . s&t;i'$:~~061t&g~~~        p:r-w
                                   As Reported in 2004 DHS Performance and ~ccountabhtyReport
 F.            Property, Plant, and Equipment
               1. Coast Guard has not implemented appropriate controls and related processes to properly, accurately and                           Repeated as
                  timely record PP&E additions, transfers from other agencies, and disposals in its fixed assets system;                        Material Weakness
                  maintained cost documentation for some PP&E; implemented an adequate asset identification and tagging                           (Comment E)
                  system; developed a physical inventory processes; accounted properly for depreciation of improvements
                  made for some PP&E; established policies related to the useful lives of certain vessels; properly classified
                  repairable items as PP&E and established procedures to identify and evaluate lease agreements.

               2. ICE has not consistently applied procedures to identify and capitalize software development costs or to
                  reclassify software placed into production from software in development.

 G.            Operating Materials and Supplies, and Seized Property
               1. Coast Guard procedures and internal controls over physical counts were not operating effectively; OM&S                       Partially Repeated as
                  was not always properly tagged; on-hand quantities frequently did not agree to the perpetual inventory                        Material Weakness
                  records; he policies were not updated to ensure correct financial reporting; and the weighted average                            (Comment F)
                  pricing methodology used to value OM&S was not appropriately supported.

               2. Secret Service counterfeit currency records did not accurately reflect the activity for the year.

H.             Undelivered Orders, Accounts and Grants Payable, and Disbursements
               1. ICE did not establish sufficient controls to properly account for disbursements made by legacy agencies for                     Repeated as
                  DHS-ICE components; prevent duplicate payments for vendors related to prior year obligations or to                           Material Weakness
                  prevent anti-deficient situations in certain Treasury accounts; did not have sufficient controls to ensure that                (Comment G)
                  open obligations were properly liquidated when corresponding accounts payable were recorded; and did
                  not have policies related to verification and validation of obligations. The methods used by ICE to estimate
                  accounts payable itself and other DHS-ICE components was not based on historical disbursements or other
                  information unique to those programs.
  Independent Auditors' Report
            d -i Status
  ~ ~ ~ e nIV     x     of Prior Year Findings
.- -"'.-
-->-   ,     -- --- - --. - . - - - . -
   -   1
           -a
                                   r

                                            su&ry of Conditions
                    As ~ e ~ o r t in
                                    e d2004 DHS Performance and ~ c c o u n t a b i lReport
                                                                                     i~

       2. Coast Guard did not have adequate controls and systems to periodically review and validate UDOs, and
          record obligations and advances timely and accurately; did not record contract awards timely; did not
          consistently follow policies and procedures related to procurement and requisitions; did not address
          possible programming logic in IT systems timely; and the verification process of accounts payable included
          erroneous data.
       3. SLGCP did not perform sufficient monitoring over the legacy agency's activities performed on its behalf
          related to grant accruals.
       4. TSA lacked policies and procedures to monitor compliance with OMB Circular A-133 and did not maintain
          adequate supporting documentation for disbursed grants.

       Budgetary Accounting
       1. ICE has weakness in internal controls that may have allowed it to violate the Antideficiency Act; the        Partially Repeated as
          transfer of accounting records and responsibilities from prior accounting services providers was not          Material Weakness
          coordinated properly; obligations were not recorded properly; disbursements and resulting adjustments to         (Comment I)
          obligation balances related to CBP were not recorded timely; contracting officer approvals were clearly
          documented on obligating documents; controls were weak over the preparation and submission of the SF-
          132 and SF-133 process.
       2. Coast Guard, electronic edit checks over budget authority and commitments were not fully employed;
          weaknesses existed in controls over recording of budgetary authority, commitments, obligations, and
          related disbursements and recissions; weakness existed in controls over the preparation, submission and
          document retention of the SF-132 and SF-133; contracting officers with expired authority continued to
          approve obligations; commitments were not routinely monitored
       3. EPR's method of accounting for investments resulted in an audit adjustment to correct the misstatement in
          the statement of budgetary resources.

 J.    Intragovermental and Intradepartmental Balances
       Coast Guard, EPR, CBP, and CIS/ICE do not have effective SOPSto track, confirm, or reconcile                      Repeated as
       intragovernmental balances and transactions with trading partners; and DHS OCFO does not have an adequate       Material Weakness
       process for reconciling differences with other Federal government trading partners.                               (Comment J)
 Independent Auditors' Report
 Appendix IV - Status of Prior Year Findings
.".,- ,.                  - - -
                                                                                                                            Fiscal Year 2005 .
            "   7.                                                                                                                  ".".--s-w,.~s--.,


                                                  Summary of Conditions
                          ~ s . ~ e ~ o rint 2004
                                             e d DHS Performance and Accountability Report                                 stiwsl ~iib;&sition                    '



                     -
  -- ,-,- - , , . - .,.,.
  Other Reportable ~on&tions: -
                                                                                                             -,   .-               r-.    -p   ...w...7   -   -



K     Deferred Revenue on Immigration and Naturalization Applications
      CIS lacks SOPSfor identifying the accuracy and reliability of application status data and fees correction with             Closed
      immigration applications were not always deposited in accordance with Treasury guidelines.

L.    Environmental Liabilities
      1. Coast Guard have not developed consistent written policies and procedures for the identification,                   Repeated as
         evaluation, and estimation of potential environmental remediation of sites; liability estimates for             Reportable Condition
         lighthouses did not include soil testing; did not properly index costs; lacked management review of liability      (Comment K)
         estimates.
      2. S&T had not developed policies and procedures to determine if an environmental liability exists at PIADC,
         and if so to accurately estimate the liability for financial statement reporting purposes

M. Custodial Activity Performed by Customs and Border Protection
      CBP did not have a reliable process of monitoring the movement of in-bond shipments, adequate written SOPS,            Repeated as
      and consistent performance of a compliance measurement program to assess the risk and compute an estimate          Reportable Condition
      of underpayment of duties, taxes, and fees.                                                                           (Comment L)
      -                                                                                                                        " . - . - - - - - -
- ,                                                                                                                                                ":
                 & other ~ a k e r s :
 ~ o m ~ l i a nand

N. Federal Managers' Financial Integrity Act of1982
      DHS management's FMFIA report did not contain corrective action plans for all material weaknesses identified           Repeated as
      in the PAR. In addition, DHS and its components have not established effective systems, processes, policies        Reportable Condition
      and procedures to evaluate and report on FMFIA compliance.                                                            (Comment M)
Independent Auditors' Report
~ ~ ~ e nIVd -i Status
                x      of Prior Year Findings
. -- --" . " . ...     - -          . " . ~ ..                                   ..                            ,-    - ,,   . -    - * -.  ..-F-   Y,"v?U-%---

                                                                                                                                          a ~ 2005 , .
                                                                                                                                      7-




                                            summary 6f Conditions                                                              - ~ i s cYi&r
                   As Reported in 2004 DHS Performance and Accountability Report                                              siafusJ ~isuositioai

0. Federal Information SecuriQ Management Act (Electronic Government Act of 2002)
   Instances on non-compliance with the FISMA were noted.                                                                       Repeated as
                                                                                                                            Reportable Condition
                                                                                                                               (Comment 0)

P. Single Audit Act Amendments of 1996, and Laws and Regulations Supporting OMB Circular No. A-50,
     Audit Follow-up, as revised
     EPR, SLGCP, and TSA did not have procedures to monitor grantees and their audit fmdings.                               Partially Repeated as
                                                                                                                            Reportable Condition
                                                                                                                                (Comment P)
Q.   Improper Payments Information Act of 2002
     DHS did not properly defme programs and activities, institute a systematic method of reviewing all programs                Repeated as
     and identifying those at risk of significant erroneous payments, and properly sample or compute the estimated          Reportable Condition
     dollar amount of improper payments.                                                                                       (Comment Q)
                                                                     U.S. Department of Homeland
                                                                     Security
                                                                     Washington, DC 20528



                                                                    Homeland
                                                                    Security

                                     November 15,2005




MEMORANDUM FOR:              Richard L. Skinner,
                             Instlector General              t



                             Andrew B. Maner
                             Chief Financial

SUBJECT:                     Management's Response to the Independent Auditor's Report


Thank you for the opportunity to respond to the Independent Auditor's Report. Overall, the
Report was well balanced and the Department concurs with the Independent Auditor's
recommendations. Detailed corrective action plans for material weaknesses, reportable
conditions, and non-compliance with laws and regulations are provided in the Management
Discussion and Analysis section of the PAR, however, we would like to take this opportunity to
highlight significant actions currently underway to address the material weaknesses reported.
Over the next year we will:

       Execute the Secretary's Second Stage Review agenda item for improving DHS financial
       management.
       Build upon our progress in implementing the Department of Homeland Security
       Financial Accountability Act. Management's assessment for the Act's annual assertion
       requirement on internal control over financial reporting will be the framework to ensure
       that all financial management processes across the Department are designed and
       implemented with strong internal controls.
       Implement a standardized financial reporting process, including formal policies and
       procedures that require Components to prepare a comprehensive financial reporting
       package that will result in complete and reliable financial reporting.
       Issue a formal Corrective Action Planning Management Directive and Process Guide to
       improve our corrective action plans and ensure they demonstrate results.
       Continue to invest in and expand accounting staffs with the right skill sets to improve
       internal controls over financial reporting.
       Carry on with our efforts to implement a Department-wide IT security program in
       accordance with OMB and NIST guidance.
Financial Information (Unaudited)




Introduction
The principal consolidated financial statements included in ihis report are prepared pursuant to the
requirements of the Accountability of Tax Dollars Act of 2002 and the Department of Homeland Security
(DHS) Financial Accountability Act of 2004, to meet the requirements of the Chief Financial Officers Act of
1990. Other requirements include the Government Management Reform Act of 1994, and the Office of
Management and Budget's (OMB) Circular No. A-136. The responsibility for the integrity of the financial
information included in these statements rests with the management of DHS. An independent certified
public accounting firm, selected by the Department's Inspector General, was engaged to perform the
audit of the consolidated balance sheet. The independent auditors' report accompanies the principal
consolidated statements. These financial statements include the following:

    e   The Consolidated Balance Sheet presents as of September 30,2005 and 2004, those
        resources owned or managed by DHS which are available for future economic benefits (assets);
        amounts owed by DHS that will require payments from those resources or future resources
        (liabilities) and residual amounts retained by DHS, comprising the difference (net position).

    o   The Consolidated Statement of Net Cost presents the net cost of DHS operations for the years
        ended September 30, 2005 and 2004. DHS net cost of operations includes the gross costs
        incurred by DHS less any exchange revenue earned from DHS activities.

        The Consolidated Statement of Changes in Net Position presents the change in DHS' net
        position resulting from the net cost of DHS operations, budgetary financing sources and other
        financing sources for the years ended September 30,2005 and 2004.

        The Combined Statement of Budgetary Resources presents the budgetary resources
        available to DHS during fiscal years 2005 and 2004, the status of these resources at September
        30, 2005 and 2004, and the outlay of budgetary resources for the years ended September 30,
        2005and2004

        The Consolidated Statement of Financing presents the reconciliation of the net cost of
        operations with the budgetary resources for the years ended September 30, 2005 and 2004.

        The Statement of Custodial Activity presents the disposition of custodial revenue collected and
        disbursed by DHS on behalf of other recipient entities for the years ended September 30, 2005
        and 2004.


Limitations of Financial Statements

The principal financial statements have been prepared to report the financial position and results of
operations of the entity, pursuant to the requirements of Title 31, United States Code, Section 3515 (b)
relating to financial statements of agencies. While the statements have been prepared from the books
and records of the agency in accordance with U.S. generally accepted accounting principles (GAAP) for
Federal entities and the formats prescribed by OMB, the statements are in addition to the financial reports
used to monitor and control budgetary resources which are prepared from the same books and records.
The statements should be read with the realization that they are for a component of the U.S. Government,
a sovereign entity.




Department of Homeland Security Fiscal Year 2005 Performance and AccountabilifyRepo,rt             258   ,
                                                                                                         ,
                                                                                                         ,
, .nancial Information (Unaudited)


                                       Department of Homeland Security
                                          Consolidated Balance Sheet
                                       As of September 30,2005 and 2004
                                                  (In Millions)

                                                                                -
                                                                              2005                -
                                                                                                 2004
                                                                                              (Unaudited)
                                                                           (Unaudited)

 ASSETS (Notes 2 and 22)
 lntragovernmental
    Fund Balance with Treasury (Notes 2 and 3)
    Investments, Net (Note 4)
    Advances and Prepayments (Note 6)
    Other (Note 12)
 Total lntragovernmental

   Accounts Receivable, Net (Note 5)
   Tax, Duties, and Trade Receivables, Net (Notes 2 and 7)
   Operating Materials, Supplies, and Inventory, Net (Note 9)
   General Property, Plant, and Equipment, Net (Note 11)
   Other (Note 12)
 Total Assets

 LIABILITIES (Note 13)
 lntragovernmental
    Due to the Treasury General Fund (Note 14)
    Accounts Payable
    Other (Note 19)
 Total lntragovernmental

   Accounts Payable
   Claims and Claims Settlement Liabilities (Note 15)
   Deferred Revenue and Advances from others (Note 16)
   Accrued Payroll and Benefits (Note 17)
   Military Service and Other Retirement Benefits (Note 18)
   Other (Note 19)
 Total Liabilities
   Cotnniitlnents and contingencies (Notes 20 and 21)
 Net Position
   Unexpended Appropriations
   Culnulative Results of Operations
 Total Net Position

 Total Liabilities and Net Position (Note 22)

             The accompanying notes are an integral part of these statements.




 Department of Homeland Securjfy Fisci           ear 2005 Performance and Accountability Report     259
Financial Information (Unaudited)



                                    Department of Homeland Security
                                   Consolidated Statement of Net Cost
                            For the Years Ended September 30,2005 and 2004
                                              (In Millions)



          Directorates and Other Components (Note 23)
                                                                     -
                                                                    2005
                                                                 (Unaudited)
                                                                                      2004
                                                                                      7


                                                                                   (Unaudited)

          Border and Transportation Security
            Gross Cost
            Less Earned Revenue
            Net Cost

          Emergency Preparedness and Response
            Gross Cost
            Less Earned Revenue
            Net Cost of Continuing Operations
            Cost of Transferred Operations (Note 29)
            Net Cost

          Information Analysis and Infrastructure
          Protection
             Gross Cost
             Less Earned Revenue
             Net Cost

           Science and Technology
             Gross Cost
             Less Earned Revenue
              Net cost

           United States Coast Guard
             Gross Cost
             Less Earned Revenue
             Net Cost

           United States Secret Service
             Gross Cost
             Less Earned Revenue
             Net Cost

           United States Citizenship and Immigration
           Services
             Gross Cost
             Less Earned Revenue
             Net Cost

           Departmental Operations and Other
             Gross Cost
             Less Earned Revenue
             Net Cost

           Net Cost of Operations (Note 23)                              $66,405         $33,128

           The accompanying notes are an integral part of these statements.




 Deparfment of Homeland Security Fiscal Year 2005 Performance and Accountabilify Report            260
     , ,.?ancia/ information (Unaudited)




                                            Department of Homeland Security
                                    Consolidated Statement of Changes i n Net Position
                                    For the Years Ended September 30,2005 and 2004
                                                      (In Millions)

                                                            -
                                                            2005                                  -
                                                                                                  2004
                                             Cumulative                             Cumulative
                                              Results of        Unexpended           Results of       Unexpended
                                             Operations        Appropriations       Operations       Appropriations
                                             (Unaudited)        (Unaudited)         (Unaudited)       (Unaudited)

BEGINNING BALANCES
Budgetary Financing Sources:
Prior Period Adjustments:
Correction of Errors (Note 30)
Beginning Balance, as Adjusted

Budgetary Financing Sources:
Appropriations Received (Note 24)
Appropriations Transferred inlout
Rescissions and Other Adjustments
 (Notes 3 and 24)
Appropriations Used
Non-exchange Revenue
Donations and Forfeitures of
  CashlEquivalents
Transfers inlout without
  Reimbursement
Other
Other Financing Sources:
Donations and Forfeitures of Property
Transfers inlout Without
  Reimbursement
Imputed Financing from Costs
  Absorbed by Others
Total Financing Sources
Net Cost of Operations
Net Change
ENDING BALANCES

      The accompanying notes are an integral part of these statements.




       Deparfment of Homeland Securify Fiscal Year 2005 Performance and Accountability Report            261

. -- - ---.-. .- .. .   ..... ..
                                   Department of Homeland Security
                        Combined Statement of Budgetary Resources (page 1 of 2)
                           For the Years Ended September 30,2005 and 2004
                                             (In Millions)

                                                                         -
                                                                        2005                     -
                                                                                              2004
  BUDGETARY RESOURCES                                                (Unaudited)           (Unaudited)
                                                                                            (Restated)
  Budget Authority:
    Appropriations Received
    Borrowing Authority
    Net Transfers
  Unobligated Balance:
    Beginning of Period (Notes 24 and 30)
    Net Transfers
  Spending Authority from Offsetting Collections:
    Earned:
        Collected
        Receivable from Federal Sources
    Change in Unfilled Customer Orders:
        Advance Received
        Without Advance From Federal Sources
    Transfers from Trust Funds
    Subtotal
  Recoveries of Prior Year Obligations
  Temporarily Not Available Pursuant to Public Law
  Permanently Not Available (Note 24)
  TOTAL BUDGETARY RESOURCES

  STATUSOFBUDGETARYRESBURCES

  Obligations Incurred:
    Direct (Note 24)
    Reimbursable (Note 24)
    Subtotal
  Unobligated Balance:
    Apportioned
       Balance, Currently Available
    Exempt from Apportionment
  Unobligated Balance Not Available
  TOTALSTATUSOFBUDGETARYRESOURCES


  The accompanying notes are an integral part of these statements.




Deparfment of Homeland Security I       ,a/Year 2005 Performan       snd Accounfabilify Report
                                   Department of Homeland Security
                        Combined Statement of Budgetary Resources (page 2 of 2)
                           For the Years Ended September 30,2005 and 2004
                                             (In Millions)


    RELATIONSHIP OF OBLIGATIONS TO OUTLAYS
                                                                            -
                                                                            2005
                                                                         (Unaudited)
                                                                                          -
                                                                                          2004
                                                                                       (Unaudited)
                                                                                        (Restated)

    Obligated Balance, Net, Beginning of Period (Notes 24 and 30)
    Obligated Balance Transferred, Net
    Obligated Balance, Net, End of Period:
      Accounts Receivable
      Unfilled Customer Orders from Federal Sources
      Undelivered Orders
      Accounts Payable
    Outlays:
      Disbursements
       Collections
       Subtotal
    Less: Offsetting Receipts
    NET OUTLAYS


     The accompanying notes are an integral part o.i these statements.




Department of Homeland        curity Fiscal Year 2005 Performance and Accountability Report     263
Financial lnformatio , Jnaudited)


                                      Department of Homeland Security
                              Consolidated Statement of Financing (page 1 of 2)
                              For the Years Ended September 30,2005 and 2004
                                                (In Millions)

                                                                             -
                                                                             2005             -
                                                                                              2004
                                                                                           (Unaudited)
                                                                          (Unaudited)
                                                                                            (Restated)

Resources Used t o Finance Activities:
Budgetary Resources Obligated
 Obligations Incurred
 Less: Spending Authority from Offsetting Collections and Recoveries
 Obligations Net of Offsetting Collections and Recoveries
 Less: Offsetting Receipts
 Net Obligations

Other Resources
 Donations and Forfeiture of Property
 Transfers in(out) Without Reimbursement
 Imputed Financing from Costs Absorbed by Others
 Net Other Resources Used to Finance Activities

 Total Resources Used to Finance Activities

Resources Used t o Finance items Not Part of the Net Cost of Operations
 Change in Budgetary Resources Obligated for Goods, Services
  and Benefits Ordered but not yet Provided
 Resources that Fund Expenses Recognized in Prior Periods
 Budgetary Offsetting Collections and Receipts that do not Affect
  Net Cost of Operations:
  Credit program Collections that increase Liabilities for Loan
 Guarantees or Allowances for Subsidy                                                (8)         (1,182)
 Other                                                                             (344)           (816)
 Resources that Finance the Acquisition of Assets or Liquidation of
  Liabilities                                                                      1,860           1,575
 Other Resources or Adjustments to Net Obligated Resources that do not
   Affect Net Cost of Operations                                                   (499)           (471
Total Resources Used to Finance Items Not Part of the Net Cost of
Operations                                                                        14,898           4,713

 Total Resources Used to Finance the Net Cost of Operations


 The accompanying notes are an integral part of these statements.




Department of Homeland Security Fiscal Year 2005 Performance and Accountability Report          261
 . .nancial lnformation (Unaudited)


                                        Department of Homeland Security
                                Consolidated Statement of Financing (page 2 of 2)
                                For the Years Ended September 30,2005 and 2004
                                                  (In Millions)

                                                                                -
                                                                               2005
                                                                            (Unaudited)
                                                                                                    -
                                                                                                    2004
                                                                                                 (Unaudited)
                                                                                                  (Restated)

Components of the Net Cost of Operations that will not Require or
 Generate Resources in the Current Period:
Components Requiring or Generating Resources in Future Periods:
 lncrease in Annual Leave Liability
 lncrease in Unfunded Environmental and Disposal Liability
 lncrease in Unfunded Claims and Claims Settlement Liabilities
 lncrease in Exchange Revenue Receivable from the Public
 lncrease in Actuarial Pension Liability
 lncrease in CG Military Post Employment Benefits
 lncrease in Actuarial Health Insurance Liability
 Other
 Total Components of Net Cost of Operations that will Require or Generate
   Resources in Future Periods
Components not Requiring or Generating Resources:
Depreciation and Amortization
Revaluation of Assets or Liabilities
Other
Total Components of Net Cost of Operations that will not Require or
  Generate Resources
Total Components of Net Cost of Operations That Will Not Require or
  Generate Resources in the Current Period

Net Cost of Operations

The accompanying notes are an integral part of these statements.




  Department of Homeland Securii         iscal Year 2005 Performance and Accountability Report      265
                                               .       -
Financial Information (Unaudited)




                                      Department of Homeland Security
                                       Statement of Custodial Activity
                              For the Years Ended September 30,2005 and 2004
                                                (In Millions)

                                                                     -
                                                                     2005          2004
                                                                                   7



                                                                  (Unaudited)   (Unaudited)
            Revenue Activity:
            Sources of Cash Collections:
            Duties
            User Fees
            Excise Taxes
            Fines and Penalties
            Interest
            Miscellaneous
            Total Cash Collections
             Accrual Adjustment
            Total Custodial Revenue

            Disposition of Collections:
            Transferred to Non-Federal Entities
            Transferred to Federal Entities
            Refunds and Drawbacks (Notes 19 and 25)
            Retained by the Department

              Total Disposition of Custodial Revenue
              Net Custodial Activity

           The accompanying notes are an integral part of these statements.




 Deparfmeni      Homeland Security Fiscal Year 2005 Performance and Accounfability Report     2(iG
Table of Contents for Notes to the Financial Statements (unaudited)

Note   Title of Note                                                                       Page
No.                                                                                       Number

       Summary of Significant Accounting Policies
       Non-Entity Assets
       Fund Balance with Treasury
       Investments, Net
       Accounts Receivable, Net
       Advances and Prepayments
       Tax, Duties and Trade Receivables, Net
       Credit Program Receivables, Net
       Operating Materials, Supplies, and Inventory, Net
       Prohibited Seized Property
       Property, Plant, and Equipment, Net
       Other Assets
       Liabilities Not Covered by Budgetary Resources
       Due to the Treasury General Fund
       Claims and Claims Settlement Liabilities
       Deferred Revenue and Advances from Others
        Accrued Payroll and Benefits
       Military Service and Other Retirement Benefits
       Other Liabilities
       Leases
       Contingent Liabilities and Other Commitments
       Balance Sheet Crosswalk to OMB Circular A-136 Classifications
       Consolidated Statement of Net Cost and Net Costs of DHS Components
        Comb~nedStatement of Budgetary Resources (SBR)
        Permanent Indefinite Appropriations
        Legal Arrangements Affecting the Use of Unobligated Balances of Budget
        Authority
        Explanation of the Relationship Between Liabilities Not Covered by Budgetary
        Resources and the Changes in Components Requiring or Generating
        Resources in Future Periods
        Dedicated Collections
        Transfer of the Strategic National Stockpile
        Restatements




Department of Homeland Security Fisc:    sar 2005 Performance and Accountability Report
rlnancral ~nrormarron( u n a u u ~ ~ e u j


Notes to the Financial Statements
1. Summary of Significant Accounting Policies

A. Reporting Entity

The Department of Homeland Security (DHS or Department) was established by the Homeland Security Act
of 2002 (USA), Public Law (P.L.) 107-296, dated March 25, 2002, as an executive department of the United
States government. The Department is subject to the requirements of the Department o f Homeland
Security Financial Accountability Act (DHS Accountability Act). The strategic goals directly linked to the
Department's mission are:

    0    Awareness: Identify and understand threats, assess vulnerabilities, determine potential impacts
         and disseminate timely information to our homeland security partners and the American public;
    0    Prevention: Detect, deter and mitigate threats to our homeland;
         Protection: Safeguard our people and their freedoms, critical infrastructure, property and the
         economy from acts of terrorism, natural disasters or other emergencies;
    0    Response: Lead, manage and coordinate the national response to acts of terrorism, natural
         disasters, or other emergencies;
         Recovery: Lead Federal, state, local and private sector efforts to restore services and rebuild
         communities after acts of terrorism, natural disasters, or other emergencies;
         Service: Serve the public effectively by facilitating lawful trade, travel and immigration; and
    e    Organizational Excellence: Value our most important resource, our people. Create a culture that
         promotes a common identity, innovation, mutual respect, accountability and teamwork to achieve
         efficiencies, effectiveness and operational synergies.

The Department is composed of the following organizational elements, hereafter referred to as
components:

        Directorates:
           Border and Transportation Security Directorate (BTS):
                e   U.S. Customs and Border Protection (CBP)
                s   U.S. lmmigration and Customs Enforcement (ICE), including Federal Protective
                    Service (FPS) and Federal Air Marshal Service (FAM)
                    Transportation Security Administration (TSA)
                e   Federal Law Enforcement Training Center (FLETC)
           Emergency Preparedness and Response Directorate (EPLR): the core of EP&R includes
                    the Federal Emergency Management Agency (FEMA)
            Information Analysis and Infrastructure Protection Directorate (IAIP)
           Science and Technology Directorate (S&7)
            Management Directorate (presented in the Net Cost Statement and related notes as part of
                    Departmental Operations and Other, which includes the Office of State and Local
                    Government Coordination and Preparedness and Office of the lnspector General)
        Other Components:
            U.S. Coast Guard (USCG)
            U.S. Secret Service (USSS)
            U.S. Citizenship and lmmigration Services (USCIS)
            Office of State and Local Government Coordination and Preparedness (SLGCP)
            Office of the lnspector General (OIG)




Department of Homeland Security Fiscal Year 2005 Performance and Accountability Report            268

                    - -. . - - .   -
n r la,rwai   lnformafion (Unaudited)



On July 21, 2004, the President signed the Project BioshieldAct of 2004, P.L. 108-276. This Act
authorized the transfer of the Strategic National Stockpile (SNS) functions, personnel, assets,
unexpended balances and liabilities to the Department of Health and Human Services (HHS). Pursuant to
Project Bioshield Act of 2004, on August 13, 2004, the Department transferred the SNS from EP&R to
HHS. Although the program was transferred, operations related to the SNS activities are reflected in the
Department's Consolidated Statement of Net Cost through the date of transfer.

During fiscal year 2004, the Department merged the Office of Domestic Preparedness (ODP) with the
Office of State and Local Government Coordination (SLGC) to form SLGCP. The SLGCP reports directly
to the Secretary and is responsible for information flow between the Department and state and local
governments, for state and local grant award functions, and for building and sustaining the terrorism
preparedness of the first responder community. Beginning in fiscal year 2005, select grant award
functions previously administered by EP&R and TSA were transferred to SLGCP. Consequently, the
Department is presenting the SLGCP as part of Departmental Operations and Other in the consolidated
financial statements and related notes, previously SLGCP was presented as part of the BTS in the
consolidated financial statements and related notes. Beginning in fiscal year 2005, FPS was transferred
within the Border and Transportation Security Directorate to ICE. Fiscal year 2004 SLGCP and FPS
financial results have been reclassified for comparative purposes to conform with the fiscal year 2005
presentation.

The .fiscalyear 2005 Deparirnent of Homelancl S e c ~ ~ r iAppropriations
                                                            iy              Act directed the transfer of
missions and assets of the Air Marine Operations (AMO) from ICE to CBP (both components of BTS).
The transfer vvas completecl in two phases. Phase One was completed on October 31, 2004, moving
A M 0 intact i'rorn ICE io CBP. This phase included the .transfer of responsibility for all i-\MU operations,
personnel. missions, corrlmitrnents, facilities, and assels io CBP Phase Two, which commenced in late
November 2004 and completed in A ~ ~ g u2005, st    iniegratecl all CBP air and marine operations, personnel,
missions, and assets into the CBP ORice o i Border Patrol. Fiscal year 2004 A M 0 financial resuits have
been reclassified in the accompanying -financial statements for comparati\~epurposes to conforrri wiih the
Fiscal year 2005 presentation.

Beginning fiscal year 2005, ICE assumed the financial management functions previously provided to FPS
by the General Services Administration, and USCG assumed the financial management functions of TSA
and FAM.

On July, 13, 2005, the DHS Secretary announced details of a realignment of the Department to increase
its ability to prepare, prevent, and respond to terrorist attacks and other emergencies. The statutory
authority of the HSA provides certain flexibility for the Secretary of DHS to establish, consolidate, alter or
discontinue organizational units within the Department. The mechanism for ~mplementingthese changes
is a notification to Congress, required under Section 872 of the HSA, allowing for the changes to take
effect after 60 days. Other proposed changes require legislative action. Proposed changes impacting
several Directorates including BTS, lAlP and ERP are not scheduled to take place until fiscal year 2006,
pending congressional approval.

B. Basis of Accounting and Presentation

The financial statements have been prepared from the accounting records of the Department and its
components in conformity with accounting principles generally accepted in the United States, and the
Office of Management and Budget (OMB) Circular A-136, FinancialReporting Requirements (Circular A-
136). Accounting principles generally accepted for Federal entities are the standards prescribed by the
Federal Accounting Standards Advisory Board (FASAB), the official accounting standards-setting body of
the Federal government.




Department         Homeland Security Fiscal Year 2005 Performance and Accountability Report           269
r rr r a r r w a r rr r r X m a ~ r u rr \ v r r u u u r r u u ,



These financial statements are prepared pursuant to the DHS Accountability Act and Accountability of Tax
Dollars Act (applies to fiscal year 2004) and Chief Financial Officers Act. These financial statements consist
of the Consolidated Balance Sheet, the Consolidated Statement of Net Cost, the Consolidated Statement of
Changes in Net Position, the Combined Statement of Budgetary Resources, the Consolidated Statement of
Financing and the Statement of Custodial Activity as of and for the years ended September 30, 2005 and
2004.

The Department's financial statements reflect the reporting of component activities including
appropriations received to conduct operations and revenue generated from operations. The financial
statements also reflect the reporting of certain non-entity (custodial) functions performed on behalf of the
Federal government and others (CBP has the authority to assess and collect duties, taxes and fees for
the governments of Puerto Rico and the U.S. Virgin Islands).

Transactions are recorded on an accrual and a budgetary basis of accounting. Under the accrual basis,
revenues are recorded when earned and expenses are recognized when a liability is incurred, regardless
of when cash is exchanged. The Combined Statement of Budgetary Resources facilitates compliance
with legal constraints and the use of Federal funds. Obligations are recognized when new orders are
placed, contracts are awarded and services are received, which will require payments during the same or
future periods. The Consolidated Statement of Financing reconciles the net cost of operations with the
budgetary resources. Non-entity revenue and refunds are reported on the Statement of Custodial Activity
using a modified cash basis. With this method, revenues from cash collections are reported separately
from receivable accruals, and cash disbursements are reported separately from payable accruals.

lntragovernmental assets and liabilities result from activity with other Federal agencies. All other assets
and liabilities result from activity with parties outside the Federal government, such as domestic and
foreign persons, organizations, or governments. lntragovernmental earned revenues are collections or
accruals of revenue from other Federal agencies. lntragovernmental costs are payments or accruals to
other Federal agencies. Transactions and balances among the Department's components have been
eliminated from the Consolidated Balance Sheet, the Consolidated Statement of Net Cost, and the
Consolidated Statement of Changes in Net Position. As provided by OMB Circular A-136, the Statement
of Budgetary Resources is presented on a combined basis; therefore, intradepartmental transactions and
balances have not been eliminated from this statement. In accordance with OMB Circular A-136,
intradepartmental transactions and balances have been eliminated from all amounts on the Consolidated
Statement of Financing, except for obligations incurred and spending authority from offsetting collections
and adjustments, which are presented on a combined basis.

The Consolidated Statement of Net Cost no longer separates intragovernmental and public costs and
revenues on the face of the statement. These separate costs and revenues are displayed in Note 23.
Within this disclosure, intragovernmental costs (exchange transactions made between two reporting
entities within the Federal government) are presented separately from costs with the public (exchange
transactions made between the reporting entity and a non-Federal entity). lntragovernmental exchange
revenue (exchange transactions made between two reporting entities within the Federal government) are
disclosed separately from exchange revenue with the public (exchange transactions made between the
reporting entity and a non-Federal entity). The criteria used for this classification requires that the
intragovernmental expenses relate to the source of goods and services purchased by the reporting entity
and not to the classification of related revenue. For example, with "exchange revenue with the public," the
buyer of the goods or services is a non-Federal entity. With "intragovernmental costs," the buyer and
seller are both Federal entities. If a Federal entity purchases goods or services from another Federal
entity and sells them to the public, the exchange revenue would be classified as "with the public," but the
related costs would be classified as "intragovernmental." The purpose of this classification is to enable
the Federal government to provide consolidated financial statements, and not to match public and
intragovernmental revenue with costs that are incurred to produce public and intragovernmental revenue.




Department of Homeland Security Fiscal Year 2005 Performance and Accountability Reporf               270

                .-. - --      --- -            -   -.-     -
Financial Information (Unaudited)

While these financial statements have been prepared from the books and records of the Department in
accordance with the formats prescribed by OMB, these financial statements are in addition to the financial
reports used to monitor and control budgetary resources, which are prepared from the same books and
records.

These financial statements should be read with the realization that they are for a component of a
sovereign entity, that liabilities not covered by budgetary resources cannot be liquidated without the
enactment of an appropriation, and that the payment of all liabilities other than for contracts can be
abrogated by the sovereign entity.

C. Entity Revenue and Financing Sources

The Department receives the majority of funding needed to support its programs through Congressional
appropriations. The Department receives annual, multi-year, and no-year appropriations that may be
used, within statutory limits, for operating and capital expenditures. Additional funding is obtained through
exchange revenues, non-exchange revenues and transfers-in.

Appropriations are recognized as financing sources when related expenses are incurred or assets are
purchased. Revenue from reimbursable agreements is recognized when the goods or services are
provided by the Department. Prices for goods and services sold to the public are based on recovery of full
cost or are set at a market price. Reimbursable work between Federal appropriations is subject to the
Economy Act (31 United States Code (U.S.C.) 1535) or other statutes authorizing reimbursement. Prices
for goods and services sold to other Federal government agencies are generally limited to the recovery of
direct cost.

Exchange revenues are recognized when earned; i.e., goods have been delivered or services have been
rendered. Non-exchange revenues are recognized when a specifically identifiable, legally enforceable
claim to resources arises, and to the extent that collection is probable and the amount is reasonably
estimable. Non-exchange revenues consist primarily of user fees collected by CBP to off-set certain costs
of operations. Other financing sources, such as donations and transfers of assets without
reimbursements, are recognized on the Consolidated Statement of Changes in Net Position during the
period in which the donations and transfers occurred.

Fees for flood mitigation products and services, such as insurance provided through FEMA's National
Flood Insurance Program (NFIP), are established at rates necessary to sustain a self-supporting program.
NFIP premium revenues are recognized ratably over the life of the policies. Deferred revenue relates to
unearned premiums reserved to provide for the remaining period of insurance coverage.

Exchange revenue for TSA consists of security fees assessed on the public and air carriers pursuant to
Pb 107-71, the Aviation and Transportation Security Act.

USCIS requires advance payments of the fees for adjudication of applications or petitions for immigration,
nationality and citizenship benefits. Revenue associated with the application fees received is deferred and
not considered earned until the application is adjudicated.

imputed Financing Sources

In certain instances, operating costs of DHS are paid out of funds appropriated to other Federal agencies.
For example, the Office of Personnel Management (QPM), by law, pays certain costs of retirement
programs, and certain legal judgments against BHS are paid from a Judgment Fund maintained by the
Department of the Treasury. When costs that are identifiable to DHS and directly attributable to BHS
operations are paid by other agencies, DHS recognizes these amounts as operating expenses. DHS also
recognizes an imputed financing source on the Consolidated Statement of Changes in Net Position to
indicate the funding of DHS operations by other Federal agencies.




Department of Homeland Security Fiscal Year 2005 Performance and Accountability Report               27 1
    Imputed intradepartmental costs are the un-reimbursed portion of the full costs of goods and services
    received by the Department or a component from a providing component that is part of DHS. DHS
    identifies intra-entity costs that meet the criteria for recognition (materiality, significance to the entity,
    directness of the relationship to entity operations and identifiability) that are not fully reimbursed by the
    receiving component and recognizes them at full cost, To accomplish this recognition, the receiving
    component recognizes an imputed financing source for the difference between the actual payment, if any,
    and the full cost. In preparation of the financial statements, these costs and imputed financing sources
    have been eliminated in the process of consolidation.

    D. Non-Entity Assets, Revenue and Disbursements

    Non-entity assets are held by the Department but are not available for use by the Department. Non-entity
    Fund Balance with Treasury represents funds available to pay refunds and drawback claims of duties,
    taxes and fees; and other non-entity amounts to be distributed to the Treasury General Fund and other
    Federal agencies in the future.

    Non-entity revenue reported on the Department's Statement of Custodial Activity include duties, excise
    taxes, and various non-exchange fees collected by CBP and USClS that are subsequently remitted to
    Treasury's General Fund or to other Federal agencies. CBP assesses duties, taxes, and fees on goods
    and merchandise brought into the United States from foreign countries. At the time an importer's
    merchandise is brought into the United States, the importer is required to file entry documents. Generally,
    within ten working days after release of the merchandise into the United States commerce, the importer is
    to submit an entry document with payment of estimated duties, taxes, and fees. Non-entity tax and trade
    accounts receivables, custodial revenue, and disposition of revenue is recognized when CBP is entitled to
    collect duties, user fees, .fines and penalties, refunds and drawback overpayments, and interest
    associated with importlexport activity on behalf of the Federal Government that have been established as
    a specifically identifiable, legally enforceable claim and remain uncollected as of year-end. These revenue
    collections primarily result from current fiscal year activities. Generally, CBP records an equal and
    offsetting liability due to the Treasury General Fund for amounts recognized as non-entity tax and trade
    receivable and custodial revenue. CBP accrues an estimate of duties, taxes and fees related to
    commerce released prior to year-end where receipt of payment is anticipated subsequent to year-end.
    Application fees collected by USClS for nonimmigrant petitions are recorded as deferred revenue at the
    time of collection, and the revenue is recognized as the petitions are adjudicated.

    The significant types of non-entity accounts receivable (custodial revenues as presented in the Statement
    of Custodial Activity) are described below.

        s   Duties: amounts collected on imported goods and other miscellaneous taxes collected on behalf
            of the Federal government.

             Excise taxes: amounts collected on imported distilled spirits, wines and tobacco products.

             User fees: amounts designed to maintain United States harbors and to defray the cost of other
             miscellaneous service programs. Us6r fees include application fees collected from employers
             sponsoring nonimmigrant petitions.

        a    Fines and penalties: amounts collected for violations of laws and regulations.

             Refunds: amounts of duties, taxes and fees previously paid by an importerlexporter. Refunds
             include drawback remittance paid when imported merchandise, for which duty was previously
             paid, is exported from the United States.

    Duties, user fees, fines and penalties are assessed pursuant to the provisions of Title 19 United States
    Code (U.S.C.); Immigration fees under Title 8 U.S.C., and; Excise taxes under Title 26 U.S.C. CBP also
    enforces over 400 laws and regulations some of which require the collection of fees or the imposition of
    fines and penalties pursuant to other Titles within the U.S.C. or Code of Federal Regulation



3    Iepartmenf of HorneC                Security Fiscal Year 2005 Performance and Accour   lility Report

            . .. .. - . -. -. -. . . ... - . .. .. ..
Non-entity receivables are presented net of amounts deemed uncollectible. CBP tracks and enforces
payment of estimated duties, taxes and fees receivable by establishing a liquidated damage case that
generally results in fines and penalties receivable. A fine or penalty, including interest on past due
balances, is established when a violation of importlexport law is discovered. An allowance for doubtful
collections is established for substantially all accrued fines and penalties and related interest. The
amount is based on past experience in resolving disputed assessments, the debtor's payment record and
willingness to pay, the probable recovery of amounts from secondary sources, such as sureties and an
analysis of aged receivable activity. CBP regulations allow importers to dispute the assessment of duties,
taxes and fees. Receivables related to disputed assessments are not recorded until the protest period
expires or a protest decision is rendered in CBP's favor.

Refunds and drawback of duties, taxes and fees are recognized when payment is made. A permanent,
indefinite appropriation is used to fund the disbursement of refunds and drawbacks. Disbursements are
recorded as a decrease in the amount Transferred to Federal Entities as reported on the Statement of
Custodial Activity. An accrual adjustment is recorded on the Statement of Custodial Activity to adjust cash
collections and refund disbursements with the net increase or decrease of accrued non-entity accounts
receivables, net of uncollectible amounts and refunds payable at year-end.

E. Fund Balance with Treasury, Cash and Other Monetary Assets

Entity Fund Balance with Treasury amounts are primarily appropriated, revolving, trust, deposit, receipt
and special fund amounts remaining as of the fiscal year-end from which the Department is authorized to
make expenditures and pay liabilities resulting from operational activity, except as restricted by law.
Except for small amounts within EP&R, the Department does not maintain cash in commercial bank
accounts. Certain receipts are processed by commercial banks for deposit into individual accounts
maintained at the U.S. Treasury. The Department's cash and other monetary assets primarily consist of
undeposited collections, imprest funds, cash used in undercover operations, cash held as evidence and
seized cash and monetary instruments. Cash and other monetary assets are presented as a component
of other assets in the accompanying Consolidated Balance Sheet.

F. Investments, Net
Investments consist of United States government non-marketable Treasury securities and are reported at
cost or amortized cost net of premiums or discounts. The Bureau of Public Debt (BPD) manages certain
trust funds for the Department, including the USCG Oil Spill Liability Trust Fund. Premiums or discounts
are amortized into interest income over the terms of the investment using the effective interest method.
No provision is made for unrealized gains or losses on these securities because it is the Department's
~ntentto hold these investments to maturity.

G. Advances and Prepayments

lntragovernmental advances consist primarily of EQ&R's disaster recovery and assistance grants to other
Federal agencies tasked with mission assignments. Advances are expensed as they are used by grant
recipients. At year-end, the amount of grant funding unexpended is estimated based on cash transactions
reported by the grant administrator used by EP&R. In accordance with QMB Circular A-110, the
Department provides advance funds to grant recipients to incur expenses related to the approved grant.
Advances are made within the amount of the total grant obligation.

Advances and Prepayments to the public, presented as a component of other assets in the
accompanying Consolidated Balance Sheet, consist primarily of EP&R and SLGCP disaster recovery and
assistance grants to states and other grants. The largest category is Emergency Management
Performance Grants, a consolidation of grant programs that supports state and local emergency
management staffs and insurance policy acquisition costs, Insurance policy acquisition costs ~nclude
commissions incurred at policy issuance. Commissions are amortized over the period in which the related
-1remiums are earned, generally one to three year-




Department of Homeland Security Fiscal Year 2005 Performance and           :ountability Report
Financial Information (Unaudited)


H. Accounts Receivable, Net

Accounts receivable represent amounts owed to the Department by other Federal agencies and the
public. lntragovernmental accounts receivable reported as a component of other intragovernmental
assets on the Consolidated Balance Sheet generally arise from the provision of goods and services to
other Federal agencies and are expected to be fully collected.

Public accounts receivable consist of amounts due to CBP from commercial air and sea vessel carriers
for immigration user fees, 1931 Act overtime services, and breached bonds; reimbursable services and
user fees collected and interest assessed by CBP; premiums and restitution due to EP&R from Write
Your Own (WYO) insurance companies participating in EP&R's Federal Insurance and Mitigation
Administration flood insurance program and amounts due from insurance policy holders; amounts due to
the USCG's Oil Spill Liability Trust Fund to recover costs incurred to respond to oil pollution incidents and
to collect civil fines and penalties from parties responsible for oil spills recognized when the claim arises;
and security fees assessed by TSA on the public and air carriers. Public accounts receivable are
presented net of an allowance for doubtful accounts, which is based on analyses of debtors' ability to pay,
specific identification of probable losses, aging analysis of past due receivables and historical collection
experience. Interest due on past due receivables is fully reserved until collected.

I. Credit Program Receivables, Net

EP&R operates the Community Disaster Loan program to support any local government which has
suffered a substantial loss of tax and other revenues as a result of a major disaster and which
demonstrates a need for Federal financial assistance in order to perform its governmental functions.
Under the program, EP&R transacts direct loans to local governments who meet statutorily set eligibility
criteria. Credit program receivables c0nsis.t of such loans and are recorded as other assets in the
accompanying Consolidated Balance Sheet. Loans are accounted for as receivables as funds are
disbursed.

Post 1991 obligated direct loans and the resulting receivables are governed by the Federal Credit Reform
Act of 1990 (FCRA). Under FCRA, for direct loans disbursed during a fiscal year, the corresponding
receivable is adjusted for subsidy costs. Subsidy costs are an estimated long-term cost to the United
States Government for its loan programs. The subsidy cost is equal to the present value of the estimated
cash outflows over the life of the loans minus the present value of the estimated cash inflows, discounted
at the applicable Treasury interest rate. Administrative costs such as salaries and contractual fees are not
included. Subsidy costs can arise from interest rate differentials, interest subsidies, delinquencies and
defaults, and other cash flows. EQ&R calculates the subsidy costs based on a subsidy calculator model
created by OMB.

Loans receivable are recorded at the present value of the estimated cash inflows less cash outflows. The
difference between the outstanding principal of the loans and the present value of their net cash rnflows is
recorded in the allowance for subsidy, which is estimated and adjusted annually, as of year-end.




Depatfn7ent o f Homeland Security Fiscal Year 2005 Performance and Accountability Report             274
 - -- - -   -. . . .. . -
-
Financial Information (Unaudited)
                                                                                                                                                                I
J. Operating Materials, Supplies, and Inventory, Net

Operating materials and supplies (OM&S) are primarily consumed during normal operations to service
USCG, and, to a lesser extent, CBP vessels and aircraft. OM&S are valued based on a weighted moving
average method or on actual prices paid. OM&S are expensed when consumed or issued for use.
Excess, obsolete, and unserviceable OM&S are stated at net realizable value net of an allowance, which
is based on the condition of various asset categories, as well as USCG's and CBP's historical experience
with using and disposing of such assets.

lnventories consist primarily of USCG Supply Fund's uniform clothing, subsistence provisions, retail
stores, general stores, technical material and fuel, and USCG Yard Fund's ship repair and general
inventory. lnventories on hand at year-end are stated at cost using standard pricelspecific identification,
last acquisition price, or weighted average cost methods, which approximates historical cost. Revenue on
inventory sales and associated cost of goods sold are recorded when merchandise is sold to the end
user. USCG's inventory is restricted to sales within the USCG, and is not available for sale to the public or
other government agencies.

M. Seized and Forfeited Property
Prohibited seized property results primarily from CBP criminal investigations and passengerlcargo
processing. Seized property is not considered an asset o.f the Department and is not reported as such in
the Department's financial statements. However, the Department has a stewardship responsibility until
the disposition of the seized items are determined; i.e., judicially or administratively forfeited or returned to
the entity from which it was seized. Non-prohibited seized property, including non-cash monetary
instruments, real property and tangible personal property of others in the actual or constructive
possession of the Department will be transferred to the Treasury Forfeiture Fund and is not presented in
the accompanying consolidated financial statements of the Department.

Forfeited property is seized property for which the title has passed to the United States government.
However, prohibited forfeited items such as counterfeit goods, narcotics, or firearms are held by CBP until
disposed of or destroyed. In accordance with Statement of Federal Financial Accounting Standard
(SFFAS) No. 3, Accounting for Inventory and Related Property, analyses of changes in seized and
forfeited property of prohibited items are disclosed in note 10.

CBP will take into custody, without risk or expense, merchandise termed "general order property," which
for various reasons cannot legally enter into the commerce of the United States. CBP's sole responsibility
with general order property is to ensure the property does not enter the nation's commerce. If general
order property remains in CBP custody for a prescribed period of time, without payment of all estimated
duties, storage and other charges, the property is considered unclaimed and abandoned and can be sold
by CBP at public auction or donated to charity (if not prohibited by law). Auction sales revenue in excess
of charges associated with the sale or storage of the item is remitted to the Treasury General Fund, in
some cases, CBP incurs charges prior to the sale and funds these costs from entity appropriations.
Regulations permit CBP to offset these costs of sale before returning excess amounts to Treasury.

USSS seizes property for violation of laws it is authorized to enforce. Seized and forfeited properly result
principally from investigations of credit card fraud, bank fraud, wire fraud, computer fraud and
counterfeiting. The items seized by USSS include genuine and counterfeit currency, monetary
instruments (cashier's checks, money orders), real property and tangible personal property of others.
Although the property is not legally owned by USSS until judicially or administratively forfeited, USSS
does have a fiduciary responsibility for such property.

b. Property, Plant, and Equipment, Net

The Department's property, plant, and equipment (PP&E) consists of aircraft, vessels, vehicles, land,
structures, facilities, leasehold improvements, software, information technology and other equipment.




Department o f Homeland Security Fiscal Year ,-.35Performance and Accountability Report                                                          275

  .    -   -            .- . - - .        ...- . . ..-            ... ....   __ _ . . _ _ . _ _.____. __ __ __ __ _ __ ___ _. _ _
                                                                                                                                _ _ ___ _ _ _ _ _ _ _ _ _ _ _
Financial Information (Unaudited)

PP&E is recorded at cost. The Department capitalizes acquisitions of PP&E when the cost equals or
exceeds an established threshold and has a useful life of two years or more. Costs for construction
projects are recorded as construction-in-progress until completed, and are valued at actual (direct) costs,
plus applied overhead and other indirect costs. In cases where historical cost information was not
maintained, PP&E is capitalized using an estimated cost based on the cost of similar assets at the time of
acquisition or the current cost of similar assets discounted for inflation since the time of acquisition. The
Department owns some of the buildings in which components operate. Other buildings are provided by
the General Services Administration (GSA), which charges rent equivalent to the commercial rental rates
for similar properties.

Internal use software includes purchased commercial off-the-shelf software (COTS), contractor developed
software, and internally developed software. For COTS software, the capitalized costs include the amount
paid to the vendor for the software. For contractor developed software the capitalized costs include the
amount paid to a contractor to design, program, install and implement the software. Capitalized costs for
internally developed software include the full cost (direct and indirect) incurred during the software
development phase.

Multi-use heritage assets consist primarily of buildings and structures owned by CBP and USCG, and are
~ncludedin general PP&E on the Consolidated Balance Sheet. The physical quantity information for the
multi-use heritage assets is included in the Required Supplementary Stewardship lnformation for heritage
assets.

The schedule of capitalization thresholds shown below is a summary of the range of capitalization rules in
place for the 22 legacy agencies that comprise the Department at inception. The DHS policy,
Management Directive No. 1120, allows these agencies to continue using their legacy rules until a more
comprehensive approach is developed that takes into account the vast differences across components in
size and asset usage.

The ranges of capitalization thresholds used by components, by primary asset category, are as follows:

Asset Description                     capitalization Threshold
Land                                  Regardless of cost to $100,000
Buildings and improvement
Equipment and capital leases
Software

The Department begins lo recognize depreciation expense once the asset has been placed in service.
Depreciation is calculated on a straight-line method for all asset classes over their estimated useful lives.
Land is not depreciated. Depreciation on buildings and equipment leased by GSA is not recognized by
the Department. Leasehold improvements are depreciated over the shorter of the term of the remaining
portion of the lease or the useful life of the improvement. Buildings and equipment acquired under capital
leases are amortized over the lease term. The estimated useful life is 3 to 10 years for calculating
amortization of software using the straight-line method. Amortization of capitalized software begins on the
date of acquisition if purchased, or when the module or component has been placed in use (i.e.,
successfully installed and tested) if contractor or internally developed. There are no restrictions on the
use or convertibility of general PP&E.

M. Liabilities

Liabilities represent the probable and measurable future outflow or other sacrifice of resources as a result
of past transactions or events. Since the Department is a component of the United States Government, a
sovereign entity, the Department's liabilities cannot be liquidated without legislation that provides
resources or an appropriation. Liabilities covered by budgetary resources are those liabilities for which
Congress has appropriated funds or funding is otherwise available to pay amounts due. Liabilities not




Department of Homeland Security Fiscal Year 2005 Perf                  lance and Accountability Report        276

                  .   .              . .        -.   -   -. ---   --         . ._.....   __   -_   _     --
covered by budgetary or other resources represent amounts owed in excess of available, Congressionally
appropriated funds or other amounts, and there is no certainty that the appropriations will be enacted.
The United States Government, acting in its sovereign capacity, can abrogate liabilities of the Department
arising from other than contracts.

N. Contingent Legal Liabilities and Environmental Cleanup Costs
Contingent Legal Liabilities

Certain conditions exist as of the date the financial statements are issued, which may result in a loss
contingency to the government, but which will only be resolved when one or more future events occur or
fail to occur. DHS management and general legal counsel assess such contingent liabilities, and such
assessment inherently involves an exercise of judgment. In assessing contingencies related to legal
proceedings that are pending against DHS, or unasserted claims that may result in such proceedings,
general legal counsel evaluates the perceived merits of any legal proceedings or unasserted claims as
well as the perceived merits of the amounts of relief sought or expected to be brought therein.

If the assessment of the loss contingency indicates that it is probable that a material liability has been
incurred and the amount of the liability can be estimated, then the estimated liability is accrued in the
financial statements. If the assessment indicates that a potentially material contingent liability is not
probable but is reasonably possible, or is probable but cannot be estimated, then the nature of the
contingent liability, together with an estimate of the range of possible loss if determinable and material is
disclosed.

Contingent liabilities considered remote are generally not disclosed unless they involve guarantees, In
which case the nature of the guarantee would be disclosed.

Environmental Cleanup Costs

Accruals for environmental cleanup costs are the costs of removing, containing, andlor disposing of
hazardous wastes or materials that, because of quantity, concentration, or physical or chemical
characteristics may pose a substantial present or potential hazard to human health or the environment.
Cleanup costs for general PP&E placed into service in fiscal year 1998 and thereafter may be allocated to
operating periods based on the physical capacity of the PP&E or accrued over the useful life if physical
capacity is not applicable or estimable. Expense recognition shall begin on the date that the PP&E is
placed into service. Regardless of the method the result should be the accumulation of total cleanup
costs liability at the time when the PP&E ceases operation.

For all PP&E in service as of October 1, 1997, DHS recognizes the estimated total (ultimate) cleanup
costs associated with the PP&E at the time the cleanup requirement is identified. DHS will not prorate a
cleanup cost over the life of these PP&E. However, the estimate may be subsequently adjusted for
material changes due to inflation/de.flationor changes in regulations, plans, or technology. The applicable
costs of decommissioning DHS' existing and future vessels will be considered cleanup costs.

    0. Grants Liability

EP&R, SLGCP, and TSA award grants and cooperative agreements to Federal, state and local
governments, universities, non-profit organizations, and private sector companies for the purpose of
building capacity to respond to disasters and emergencies, conduct research into preparedness, enhance
and ensure the security of passenger and cargo transportation by air, land, or sea, and other Department-
related activities. EP&R estimates a year-end grant accrual representing the amounts payable to
grantees, using historical disbursement patterns over a period of 20 quarters to predict unreported
grantee expenditures. The SLGCP and TSA grant liability accrual is estimated using known reported
expenditures reported by grantees and the estimated daily expenditure rate for the period subsequent to
the latest grantee submission in relation to the cumulative grant amount. Grants issued by TSA through




    Department of Homeland Security Fiscal Year 2005 Performance and Acmuntability Report                      277-.-

.   ---   --.   --- -   .   -   . - -- . .. . .. . . -.   .                         ___ _ ___ _
                                                              . . .. . .. .. . .. . _ _           I-_   ____
    Finqnuial.I o ~ . c t b(Unaudited)
                            #~

    September 30, 2004 are maintained jointly by TSA and SLGCP. Grants liabilities are combined with
    accounts payable to the public in the accompanying Consolidated Balance Sheet.

    P. Claims and Claims Settlement Liabilities

    EP&R administers the National Flood Insurance Program (NFIP) through sale or continuation-in-force of
    insurance in communities that enact and enforce appropriate flood plain management measures. Claims
    and claims settlement liability represents an estimate of NFIP losses that are unpaid at the balance sheet
    date and is based on the loss and loss adjustment expense factors inherent in the NFIP insurance
    underwriting operations experience and expectations. Estimation factors used by the insurance
    underwriting operations reflect current case basis estimates and give effect to estimates of trends in claim
    severity and frequency. These estimates are continually reviewed, and adjustments, reflected in current
    operations, are made as deemed necessary. Although the insurance underwriting operations believes the
    liability for unpaid losses and loss adjustment expenses is reasonable and adequate in the
    circumstances, the insurance underwriting operations' actual incurred losses and loss adjustment
    expenses may not conform to the assumptions inherent in the estimation of the liability. Accordingly, the
    ultimate settlement of losses and the related loss adjustment expenses may vary from the amount
    included In the financial statements.

    Q. Debt and Borrowing Authority

    Debt is reported within other intragovernmental liabilities and results from Treasury loans and related
    interest payable to fund NFlP and Disaster Assistance Direct Loan Program (DADLP) operations. NFIP
    loan and interest payments are financed by flood premiums and map collection fees. Additional funding
    for NFIP may be obtained through Treasury borrowing authority of $1.5 billion. DADLP annually requests
    borrowing authority to cover the principal amount of direct loans not to exceed $25 million less the subsidy
    due from the program account. DADLP borrowing authority is for EP&R "State Share Loans". Borrowing
    authority for Community Disaster Loans is requested on an "as needed basis",

    R. Annual, Sick and Other Accrued Leave

    Earned annual and other vested compensatory leave is an accrued liability. The liability is reduced as
    leave is taken. At year-end, the balances in the accrued leave accounts are adjusted to reflect the liability
    at current pay rates and leave balances, and are reported within accrued payroll and benefits in the
    Consolidated Balance Sheet. Sick leave and other types of non-vested leave are not earned benefits.
    Accordingly, non-vested leave is expensed when used.

    S. Workers' Compensation

    A liability is recorded for accrued and estimated future payments to be made for workers' compensation
    pursuant to the Federal Employees' Compensafion Act (FECA). The accrued liability is presented as a
    component of intragovernmental other liabilities as it is payable to the U. S. Department of Labor (DOL),
    and the actuarial liability is presented within accrued payroll and benefits in the accompanying
    Consolidated Balance Sheet. The FECA program is administered by the DOL, which initially pays valid
    claims and subsequently seeks reimbursement from Federal agencies employing the claimants.
    Reimbursement to BOL on payments made occurs approximately two years subsequent to the actual
    disbursement. Budgetary resources for this intragovernmental liability are made available to the
    Department as part of its annual appropriation from Congress in the year in which the reimbursement
    takes place.

    Additionally, a liability due to the public is recorded that includes the expected liability for death, disability,
    medical and miscellaneous costs for approved compensation cases. The liability is determined using an
    actuarial method that utilizes historical benefit payment patterns related to a specific incurred period to
    predict the ultimate payments related to that period. The Department allocates the actuarial liability to its
    components based on payment history provided by DOL. The accrued liability is not covered by
    budgetary resources and will require future funding.




,   &~3rfm!3!7!   d Homeland Sewf~,&-Fiscal Year 2005 Performance and Accountability Report                   278
Financial Information (Unaudited)


T. Military Service and Other Retirement Benefits

DHS and Component Civilian Workforce Pension and Other Benefib

The Department recognizes the full annual cost of its civilian employees' pension benefits; however, the
assets of the plan and liability associated with pension costs are recognized by OPM rather than the
Department.

Most employees of the Department hired prior to January 1, 1984, participate in the Civil Service
Retirement System (CSRS), to which the Department contributes 7 percent of base pay for regular CSRS
employees, and 7.5 percent of base pay for law enforcement agents. The majority of employees hired
after December 31, 1983 are covered by the Federal Employees Retirement System (FERS) and Social
Security. For the FERS basic annuity benefit the Department contributes 11.2 percent of base pay for
regular FERS employees and 23.8 percent for law enforcement agents. A primary feature of FERS is that
it also offers a defined contribution plan to which the Department automatically contributes 1 percent of
base pay and matches employee contributions up to an additional 4 percent of base pay. The Department
also contributes the employer's Social Security matching share for FERS participants.

Similar to CSRS and FERS, OPM rather than the Department reports the liability for future payments to
retired employees who participate in the Federal Employees Health Benefits Program and Federal
Employees Group Life Insurance Program. The Department is required to report the full annual cost of
providing these other retirement benefits (ORB) for its retired employees as well as reporting contributions
made for active employees. In addition, the Department recognizes an expense and liability for other post
employment benefits (OPEB), which includes all types of benefits provided to foriiier or inactive (but not
retired) employees, their beneficiaries and covered dependents.

The difference between the full annual cost of CSRS or FERS retirement, ORB and QPEB benefits and
the amount paid by the Department is recorded as an imputed cost and off-setting imputed financing
source in the accompanying Consolidated Statement of Net Cost, Consolidated Statement of Changes in
Net Position, and Consolidated Statement of Financing.

USCG   - Military Retirement System Liability
The USCG Military Retirement System (MRS) is a defined benefit plan that covers both retirement pay
and health care benefits for all active duty and reserve military members of the USCG. The plan is funded
through annual appropriations and, as such, is a pay-as-you-go system. The unfunded accrued liability
reported on the accompanying Consolidated Balance Sheet is actuarially determined by subtractiiig the
present value of future employer/employee contributions, as well as any plan assets, from the present:
value of the future cost of benefits. Current period expense is computed using the aggregate entry age
normal actuarial cost method.

A portion of the accrued MRS liability is for the health care of non-Medicare eligible retireeslsurvivors.
Effective October 1, 2002, USCG transferred its liability for the health care of Medicare eligible
retireeslsurvivors to the Department of Defense (DoD) Medicare-Eligible Retiree Health Care Fund (the
Fund), which was established in order to finance the health care benefits for tlia Medicare-eligible
beneficiaries of all DoD and non-DoD uniformed services. DoB is the administrative entity and in
accordance with SFFAS No. 5, is required to recognize the liability on the Fund's financial statements.
The USCG makes monthly payments to the Fund for current active duty menibers. Benefits for USCG
members who retired prior to the establishment of the Fund are provided by payments from the Treasury
to the Fund. The future cost and liability of the Fund is determined using claim factors and claims cost
data developed by the DoD, adjusted for USCG retiree and actual claims experience. The USCG uses
the current year actual costs to project costs for all future years.




Department of Homeland Security Fiscal Year 2005 Pedormance and Accountability Report              2

--                   --       -   -     --                 -   ---   - --   --   ------
        -
USCG Post-employment Military Travel Benefit

USCG uniformed service members are entitled to travel and transportation allowances for travel
performed or to be performed under orders, without regard to the comparative costs of the various modes
of transportation. These allowances, upon separation from the service, include the temporary disability
retired list placement, release from active duty, retirement and entitlement for travel from the member's
last duty station to home or the place from which the member was called or ordered to active duty,
whether or not the member is or will be an active member of a uniformed service at the time the travel is
or will be performed.

USCG recognizes an expense and a liability for this OPEB when a future outflow or other sacrifice of
resources is probable and measurable on the basis of events occurring on or before the reporting date.
The OPEB liability is measured at the present value of future payments, which requires the USCG to
estimate the amount and timing of future payments, and to discount the future outflow using the Treasury
borrowing rate for securities of similar maturity to the period over which the payments are made.

USSS    - Uniformed Division and Special Agent Pension Liability
The District of Columbia Police and Fireman's Retirement System (the DC Pension Plan) is a defined
benefit plan that covers USSS Uniformed Division and Special Agents. The DC Pension Plan makes
benefit payments to retirees andlor their beneficiaries. The USSS receives permanent, indefinite
appropriations each year to pay the excess of benefit payments over salary deductions. The BC Pension
Plan is funded through annual appropriations and, as such, is a pay-as-you-go system. The unfunded
accrued liability reported on the accompanying Consolidated Balance Sheet is actuarially determined by
subtracting the present value of future employerlemployee contributions, as well as any plan assets, from
the present value of future cost of benefits. Current period expense is computed using the aggregate cost
method.

U. Use of Estimates
Management has made certain estimates and assumptions in the reporting of assets, liabilities, revenues,
expenses, obligations incurred, spending authority from offsetting collections and note disclosures in the
consolidated financial statements. Actual results could differ from these estimates. Significant estimates
include: the allocation of trust fund receipts, year-end accruals of accounts and grants payable,
contingent legal and environmental liabilities, accrued workers' compensation, allowance for doubtful
accounts receivable, allowances for obsolete inventory and OM&§ balances, allocations of indirect
common costs to construction-in-progress, depreciation, subsidy re-estimates, deferred revenues, NFlP
claims and settlements, actuarial workers compensation assumptions, MRS and other pension, retirement
and post-retirement benefit assumptions, allowances for doubtful duties, fines, and penalties, and certain
non-entity receivables and payables related to custodial activities. Certain accounts payable balances are
estimated based on current payments that relate to prior periods or a current assessment of
serviceslproducts received but not yet paid.

V. Taxes

The Department, as a Federal agency, is not subject to Federal, state or local income taxes and
accordingly, no provision for income taxes has been recorded in the accompanying consolidated financial
statements.

W. Reclassifications

Certain fiscal year 2004 balances have been reclassified for consistent disclosures with 2005 balances,
including transfer of the FPS from BTS to ICE, the transfer of the Air and Marine Interdiction program from
ICE to CBP, and realignment of SLGCP from BTS Directorate to Management Directorate. Some Grants
were realigned between EP&R and TSA and the Management Directorate (which includes SLGCP). In
addition, taxes, duties, and receivables were combined by entity and non-entity.



Departmen1. Homeland Security Fiscal Year 2005 Performance and ~ccountabilityRepor

- - - -- --     - - - . . ... .. - - . .. .. .- - ...   . -- .. . .   .. ......   __ _ _   ________   - _ __ _   _   .   _
Financial Information (Unaudited)

                              This page has been intentionally left blank.




Dep6r1111G11:
         of Homeland Security Fiscal Year 2005 1        ,Formant, c;nd Accountability   . ..,port   28 1
Financial Information (Unaudited)


2. Non-Entity Assets

Non-entity assets at September 30, consisted of the following (in millions):

                                                          2005                          2004
                                                       (unaudited)                   (unaudited)
Intragovernmental:
Fund Balance with Treasury
Receivables Due From Treasury (note 12)                         144                           170
    Total lntragovernmental                                   5,211                         3,512
Public:
Tax, Duties, and Trade Receivables, Net (note 7)
Other
    Total Public


Total Non-Entity Assets
Total Entity Assets
Total Assets

Non-entity fund balance with Treasury consists of special and deposit funds, permanent and indefinite
appropriations and miscellaneous receipts that are available to pay non-entity liabilities presented on the
Consolidated Balance Sheet. Non-entity fund balance with Treasury at September 30, 2005 and 2004,
includes (in deposit fund) approximately $4.7 billion and $2.9 billion of duties collected by CBP on imports
of Canadian softwood lumber and $316 million and $375 million (in special fund) for Injured Domestic
Industries (IDI) at September 30, 2005 and 2004, respectively. These assets off-set accrued liabilities at
September 30, 2005 and 2004 (see note 19).

Non-entity receivables due from Treasury represent an estimate of duty, tax andlor fee refunds and
drawbacks that will be reimbursed by a permanent and indefinite appropriation account and will be used
to pay estimated duty refunds and drawbacks payable of $118 million and $132 million at September 30,
2005 and 2004, respectively (see note 19). Duties and taxes receivable from public represents amounts
due from ~mportersfor goods and merchandise imported to the United States, and upon collection, will be
available to pay the accrued intragovernmental liability due to the Treasury General Fund, which equaled
$1.4 billion and $1.3 billion at September 30, 2005 and 2004, respectively (see notes 7 and 14).




Department of Homeland Security Fiscal Year 2005 Performance and Accountability Report                                             282
.     .            -   -   - - - - - - - - ---   .--....-. .. .. ... .   __ _   -.                 _ _ _ _ ._ _
                                                                                                              _ _ _. _ _ _ _ _ _ _ _ _ _ _ _
Financial Information (Unaudifed)
                                                                                                              I
3. Fund Balance with Treasury

A. Fund Balance with Treasury

Fund Balance with Treasury at September 30, consisted of the following (in millions):

                                                        2005              2004
                                                     (unaudited)       (unaudited)
Appropriated Funds                                        $89,494         $27,587
Trust Funds                                                     39              48
Revolving, Liquidating, and Working Capital
Funds
Special Funds
Deposit Funds
Total Fund Balance with f reasury

Appropriated funds consist of amounts appropriated annually by Congress to fund the operations of the
Department and its components. Appropriated funds included clearing funds totaling $106 million and a
$457 million at September 30, 2005 and 2004, which represent reconciling differences with Treasury
balances. The significant increase in appropriated funds is due to the Disaster Relief Fund receiving two
emergency supplemental appropriations in September 2005 for Hurricane Katrina. For further details,
see Other Accompanying Information, Effects of Hurricanes Katrina and Rita.

Trust funds include both receipt accounts and expenditure accounts that are designated by law as a trust
fund. Trust fund receipts are used for specific purposes, generally to offset the cost of expanding border
and port enforcement activities, oil spill related claims and activities, or to hold CIS bond receipts.

Revolving funds are used for continuing cycles of business-like activity, in which the fund charges for the
sale of products or services and uses the proceeds to finance its spending, usually without requirement
for annual appropriations. The Working Capital Fund is a fee-for-service fund established to support
operations of Department component bureaus. Also included are the liquidating and financing funds for
credit reform and the national flood insurance fund of $25 million and $321 million at September 30, 2005
and 2004, respectively.

Special funds are receipts andlor off-setting receipt funds earmarked for specific purposes including the
disbursement of non-entity monies received in connection with antidumping and countervailing duty
orders due to qualifying ID1of $316 million and $375 million at September 30, 2005 and 2004,
respectively. The Department also has special funds for immigration user fees of $179 million and $154
million at September 30, 2005 and 2004, respectively; CBP user fees of $741 million and $730 million at
September 30, 2005 and 2004, respectively; immigration examination fees of $777 million and $715
million at September 30, 2005 and 2004 respectively; as well as inspection fees, flood map modernization
subsidy, off-set and refund transfers.

Deposit funds represent amounts received as an advance that are not accompanied by an order and
include non-entity collections that do not belong to the Federal Government and for which final disposition
has not been determined at year-end, including $4.7 billion and $2.9 billion of duties collected on imports
of Canadian softwood lumber at September 30, 2005 and 2004, respectively (see Notes 2 and 19).




Jepartment of Homeland Security Fiscal Yeat          Performance and rruuwuntabilityRepot,         283
Financial Information (Unaudited)

B. Status of Fund Balance with Treasury

The status of Fund Balance with Treasury at September 30, consisted of the following (in millions):

                                                       2005              2004
                                                    (unaudited)       (unaudited)
Unobligated Balances:
  Available
  Unavailable
Obligated Balance Not Yet Disbursed
Subtotal
Adjustments for:
  Receipt, Clearing, and Deposit Funds
  Borrowing Authority
  Investments
  Receivable Transfers and lmprest Fund
  Receipt unavailable for obligation                          585
Total Status of Fund Balance with Treasury               $97,004          $33,436
                                                  P




Adjustments are made to reconcile the budgetary status to Fund Balance with Treasury for the following
reasons:
    e   Receipt, clearing and deposit funds represent amounts on deposit with Treasury that have no
        budget status at September 30, 2005 and 2004. Included in adjustments for deposit funds are
        restricted balances of $4.7 billion and $2.9 billion for Canadian softwood lumber at September 30,
        2005 and 2004, respectively, of non-entity funds, and receipts that are not available for obligation.
    e   Borrowing authority is in budgetary status for use by EP&R for disaster relief purposes and
        Community disaster loans.
    e   Budgetary resources have investments included; however, the money has been moved from the
        Fund Balance with Treasury asset account to investments.
        Receivable transfers of currently invested balances increases the budget authority at the time the
        transfer is realized and obligations may be incurred before the actual transfer of funds.
    *   lmprest funds represent monies moved from fund balance with Treasury to imprest funds with no
        change in the budgetary status.
    e   Reciepts immediately upon collection are unavailable for obligation. The receipts are not
        available for obligation until a specified time in the future.
Portions of the unobligated balances available, unavailable and obligations balance not yet disbursed
contains CBP's user fees of $741 million and $730 million (at September 30, 2005 and 2004), which is
restricted by law in its use to offset costs incurred by CBP until authority is granted through appropriations
acts.

Portions of the unobligated balance unavailable includes amounts appropriated in prior fiscal years that
are not available to fund new obligations. However, it can be used for upward and downward adjustments
for existing obligations in future years.

During September 2005, the Disaster Relief Fund received two supplemental appropriations totaling $60
billion for Hurricane Katrina. As of September 30, 2005, this fund has an unobligated balance available of




Department o f Homeland Security Fiscal Year 2005 Performance ;,,        Accountability Repor,       284
Financial lnformation (Unaudited)

$46.4 billion. For further details, see Other Accompanying Information, Effects of Hurricanes Katrina and
Rita.

The obligated not yet disbursed balance represents amounts designated for payment of goods and
services ordered but not received or goods and services received but for which payment has not yet been
made. Part of this balance contains obligations from the disaster relief fund of $16.8 billion and $6.4
billion at September 30, 2005 and 2004, respectively.


4. Investments, Net

lnvestments at September 30, consisted of the following (in millions):

                                                   2005             2004
Type of Investment:                             (unaudited)      (unaudited)
U.S. Treasury Securities:
 USCG - Non-Marketable, Par Value                      $736               $839
 EP&R - Non-Marketable, Market-Based                       2               786
Total Intragovernmental Investments, Net
                                                        -
                                                       $738              $1,625

Unexpended funds in the USCG Oil Spill Liability Trust Fund (QSLTF) and the gift fund are invested by
the U.S. Treasury - Bureau of Public Debt in U.S. government securities and are purchased and
redeemed at par. Interest and principal on invested balances in the USCG's oil spill fund are considered
investment authority and are available for use by the USCG to offset the cost of oil spill cleanup, payment
of environmental claims against the fund and for specific funding of cleanup related operations.

EP&R maintains investments for the NFlP and the gifts and bequests fund. EP&R investments are
restricted to Treasury bonds, bills, notes and overnight securities. EP&R's non-marketable, market-based
investments balance at September 30, 2005 represents investments remaining in the gifts and bequests
fund. lnvestments in NFlP were withdrawn in fiscal year 2005 to pay flood insurance claims for damages
caused by four major hurricanes which occurred late in fiscal year 2004. The current EP&R investments
portfolio consists principally of overnight securities, which have neither market value variances nor
unamortized premium or discount.

Market value of all investments approximates cost and balances include applicable accrued interest.




L ,,artment   of Homeland Se .,   ity Fiscal Yea] ,
                                                  ,05 Performance   .; .,A ccountabilify Report    285
Financial Information (Unaudited)


5. Accounts Receivable, Net

Accounts Receivable with public at September 30, consisted of the following (in millions):

                                                  2005               2004
                                               (unaudited)        (unaudited)

Accounts Receivable
Allowance for Doubtful Accounts
Met Accounts Receivable wl Public

lntragovernmental accounts receivable are presented as a component of other assets, and results from
reimbursable work performed by USCG, ICE, EP&R, and CBP (see note 12). Accounts receivable with
the public consists of amounts due to CBP, TSA, EP&R, USCG and ICE for overpayment of refunds,
reimbursable services and user fees.


6, Advances and Prepayments

lntragovernmental advances and prepayments at September 30, consisted of the following (in millions):


                                                              (unaudited)       (unaudited)
Disaster Relief Fund                                               $2,726           $2,718
Other                                                                 211              168
                                                             -
Total lntragsverslrnentai Advances and Prepayments                 $2,937           $2,886

Disaster relief fund (BRF) advances consists of EP&R's disaster assistance grants lo other Federal
agencies (principally the Department of Transportation) tasked with mission assignments that support
state and local emergency management staffs and operations.

Advances and prepayments made to the public are presented as a component of other assets on the
accompanying Consolidated Balance Sheets (see note 12).




Department o f Homeland Security I=.---.   . ear 2005 Performance and Accountability Report    .%$6
Financial Informatiorr ( unauurieu]

7. Tax, Duties, and Trade Receivables, Net

Tax, duties and trade receivables at September 30, consisted of the following (in millions):

As of September 30, 2005 (unaudited):
                                                              Gross                       Total Net
Receivables Category                                     Receivables      Allowance     Receivables
Duties                                                        $1,207           ($97)           $1,11Q
Excise Taxes
User Fees


Anti-Dumping/CountervailingDuties                                 21 7         (176)              41
Total Tax, Duties, and Trade Receivables, Net                 $2,712        ($1,312)           $1,400

As of September 30, 2004 (unaudited):
                                                              Gross                       Total Net
Receivables Category                                     Receivables      Allowance     Receivables
Duties                                                        $1 , I 27        ($95)           $1,032
Excise Taxes                                                       73             (2)              71
User Fees                                                          80             (1)              79
FinesIPenalties                                                   798          (745)               53
Anti-Durnping/Countervailing Duties                               180          (142)               38
Total Tax, Duties, and Trade Receivables, Net                  $2,258         ($985)           $1,273

When a violation of importlexport law is discovered, a fine or penalty is established, typically for the full
value of the merchandise. After receiving the notice of assessment, the importer or surety has a period of
lime to either file a petition requesting a review of the assessment or pay the assessed amount. Once a
petition is received, CBP investigates the circumstances as required by its mitigation guidelines and
directives. Until this process has been completed, CBP records an allowance on fines and penalties of
approximately 93 percent (94 percent at September 30, 2004) of the total assessment based on historical
experience of fines and penalties mitigation and collection.




Department of Hor             3urity Fiscal Year 2005 Perf    ~anwand A~CO~R&I~II&
                                                                              mporf                 28 7
Financial Information (Unaudited)

8. Credit Program Receivables, Net

All credit program activities and the related receivables of the Department relate to EP&R.

A. Summary of Direct Loans to Non-Federal Borrowers at September 30 (in millions):

                                        2005 (unaudited)               2004 (unaudited)
                                     Loans Receivable, Net          Loans Receivable, Net

Community Disaster Loans

An analysis of loans receivable and the nature and amounts of the subsidy and administrative costs
associated with the direct loans is provided in the following sections.

B.   Direct Loans Obligated Prior to Fiscal Year 1992 (Present Value Method, in millions):

Direct loans obligated prior to fiscal year 1992 have been fully collected during fiscal year 2004, and
therefore no balances remained as of September 30, 2004 (unaudited).

C. Direct Loans Obligated After FY 1991 (in millions):

                                           Loans                             Allowance for      Value of Assets
At September 30,2005                  Receivable,       Interest             Subsidy Cost            Related to
(unaudited):                               Gross     Receivable            (Present Value)        Direct Loans
Community Disaster Loans                      $2.3          $1 .4                   ($3.2)                   $.5


                                           Loans                             Allowance for      Value of Assets
At September 30, 2004                 Receivable,        Interest            Subsidy Cost            Related to
(unaudited):                               Gross      Receivable           (Present Value)        Direct Loans

Community Disaster Loans                   $129.4          $62.5                  ($185.1)                $6.8


Tlie value of assets related to direct loans, net of allowance for subsidy cost, is included in other assets
on the consolidated balance sheet.

D. Total Amount of Direct Loans Disbursed, Post-1991 None.
E. Subsidy Expense for Direct Loans (in millions):

                                                                 2005                2004
                                                              (unaudited)         (unaudited)
Subsidy Expense for New Direct Loans Disbursed                   None                None
Modifications and Re-estimates (Prior reporting year)               $4.5             None
Total Direct Loan Subsidy Expense                                   $4.5             None




L -srtment
   ,       of Homeland Security Fiscal Yeat - - 05 Performance and Accountability Report               288
F. Direct Loan Subsidy Rates

The direct loan subsidy rates, by program, are as follows:

                                            2005                            2004
                                         (unaudited)                     (unaudited)
                                  Community             State      Community            State
                                    Disaster           Share         Disaster          Share
                                      Loans            Loans           Loans           Loans

Interest Subsidy Cost
Default Costs
Other

G. Schedule for Reconciling Subsidy Cost Aliowance Balances (in millions):

                                                                               2005           2004.
                                                                            (unaudited)    (unaudited)
Beginning Balance of the Subsidy cost allowance                                  $185.1           $1 71
Adjustments:
    (a) Loans written off
    (b) Subsidy allowance amortization
Ending balance of the subsidy cost allowance before reestimates
Add subsidy reestimate by component
    (a) Technical/default reestimate
Ending balance 01: the subsidy cost al!swanse

The amount of loans written off during fiscal year 2005 includes the cancellation of $127 million (principal
only) in loan to the government of the Virgin Islands.


H. Administrative Expenses (in millions):

                                                                          2005            2004
                                                                       (unaudited)     (unaudited)
 Community Disaster and State Share Loans                                       $.4              $3




Departn _ !of Homeland Security f      _ a1 Year   2005 Performance and Accountability    port       289
Financial Information (Unaudited)


9. Operating Materials, Supplies, and Inventory, Net

Operating materials and supplies (OM&§) and inventory, net at September 30, consisted of the following
(in millions):

                                                        2005              2004
                                                     (unaudited)       (unaudited)
OM&§
 ltems Held for Use
 ltems Held for Future Use
 Excess, Obsolete and Unserviceable ltems
 Less: Allowance for Losses
Total OM&§, Net


lnventory
 lnventory Purchased for Resale
 Less: Allowance for Losses
Total Inventory, Net



Total OM&§ and Inventory, Net




Department of Homeland Security Fiscal Year 2005 Performance and Accountability Report          290
Financial Information (Unaudited)

10. Prohibited Seized Property

Prohibited seized property item counts, as of September 30, and activity for the fiscal years ended
September 30, 2005 and 2004, are as follows:
                                                                                                                      -
                                                Seizure Activity
                                                                                                          Seized
                                    Fiscal Year Ended September 30,2005 (unaudited)
                                                                                                         Property:




                                2,176        444,751                 -      (446,861)            436             502
                                          ppppp




 Heroin                             18          1,230                         (1,225)              3                 26
Firearms and
Explosives (in
n ~ ~ m bof
         e ritems)              7,788           1,454        (5,798)          (1,364)                          2,021




                                                                                                        k
Counterfeit Currency                                                                                                      !
(USIForeign, in
number of items)            2,887,743        804,946                                -       (328,629)      3,364,060
Pornography (in
number of items)                    133           213               (5)         (182) ,
                                               Forfeiture Activity
                                                                                                         Forfeited
Forfeited Property:                 Fiscal Year Ended September 30,2005 (unaudited)
                                                                                                         Property:

Category

Illegal Drugs (in
                       P
                              Balance
                       October 1, 2004
                                                  New
                                           Forfeitures     Transfers
                                                                     . --
                                                                            Destroyed     Adjustments    WeighUltems
                                                                                                        September 30      I
                                                                                                                          1
kilograms):
  Cannabis
  (marijuana)                  98,657         446,861          (641)        (419,668)        (32,375)          92,834
                       ppppp




  Cocaine                      17,348          31,345              (58)      (26,576)           (546)
                                          ppppp




                                                1,225               (1)       ( 1,664)            (1)           2,104
Firearms and
Explosives (in
number of items)                    297         1,364                                                            276
                       --                                    (1,307)             (14)            (64)
Pornography (in
number of items)                     37           182                           (189)               9                39




Department of Homeland Security Fiscal Year 2005 Performance and Accountability Report                  29 1
Prohibited Seized Property, Continued




                       October 1, 2003




-




    Deparfmenf of Homeland    :urity Fiscal Year 2005 Perform   e and Accoun         ility Report   292

                                                                -   .   - . ... ..
Financial Information (Unaudited)


This schedule is presented for material prohibited (non-valued) seized and forfeited property only. These
items are retained and ultimately destroyed by CBP and USSS and are not transferred to the
Departments of Treasury or Justice Asset Forfeiture Funds or other Federal agencies. The ending
balance for firearms includes only those seized items that can actually be used as firearms. Illegal drugs
are presented in kilograms and a significant portion of the weight includes packaging, which often cannot
be reasonably separated from the weight of the drugs since the packaging must be maintained for
evidentiary purposes. Firearms, explosives and pornography are presented in number of items; and
counterfeit currency is presented in number of bills.

USCG also seizes and takes temporary possession of small boats, equipment, contraband and other
illegal drugs. USCG usually disposes of these properties within three days by transfer to CBP (who
transfers non-prohibited seized property to the Treasury Forfeiture Fund), the Drug Enforcement
Administration, or foreign governments, or by destroying it. Seized property in USCG possession at year-
end is considered insignificant and therefore is not itemized and is not reported in the consolidated
financial statements of the Department.




Department of Homeland Security F.,,al Year 2005 Performance and Accountability Report             293
t~nancra~
       ~nrormar~on
                (unauarrea)                                                   myfit
11. Property, Plant, and Equipment, Net
Property, plant, and equipment (PP&E), at September 30, consisted of the following (in millions):


                                                            Accumulated             Total
As of September 30, 2005            Service                 Depreciation1       Net Book
(unaudited):                           Life   Gross Cost     Amortization          Value

Land and Land Rights
lmprovements to Land               3-50 yrs
Construction in Progress               NIA
Buildings, Other Structures
and Facilities                     2-50 yrs
Equipment:
  ADP Equipment                     3-5 yrs
  Aircraft                        10-35 yrs
  Vessels                          5-45 yrs
  Vehicles                          3-6 yrs
 Other Equipment                   2-30 yrs
Assets Under Capital Lease         2-20 yrs
Leasehold lmprovements             3-50 yrs
Internal Use Software              3-10 yrs
lnternal Use Software- in
Development                             NIA

Total Property, Plant, and
Equipment




Department of Homeland Se        , Kiscal Year 2005 Performance and Accountability R E ,            294
Financial Information (Unaudited)



                                                             Accumulated          Total
As of September 30,2004              Service                 Depreciation1    Net Book
(unaudited):                            Life    Gross Cost    Amortization       Value

band and Land Rights                     NIA
lmprovements to Land                 3-50 yrs
Construction in Progress                 NI A
Buildings, Other Structures
and Facilities                       2-50 yrs
Equipment:
 ADP Equipment                        3-5 yrs
 Aircraft                           10-35 yrs
  Vessels                            5-45 yrs
  Vehicles                            3-6 yrs
 Other Equipment                     2-30 yrs
Assets Under Capital Lease           2-20 yrs
Leasehold lmprovements               3-50 yrs
Internal Use Software                3-10 yrs
Internal Use Software- in
Development

Total Property, Plant, and
Equipment




Departr,,-. .. -. Homeland Security Fiscal Year ,-05 Performan- - 2nd Accounfability Report   295
Financial lnformafion (Unaudited)

12. Other Assets
Other assets at September 30, consisted of the following (in millions):

                                                   2005               2004
                                                (unaudited)        (unaudited)
Intragovernmental:
Accounts Receivable (note 5)
Receivables Due From Treasury (note 2)                  144               170
Total lntragovernmental                                 361               481


Public:
Advances and Prepayments
Cash and Other Monetary Assets
Credit Program Receivables, Net (note 8)
Other
Total Public


Total Other Assets



Advances and prepayments with the public consist primarily of NFlP payments made by EP&R.

The negative $50 million represents an allowance for subsidy which exceeds the amount due. This
excess allowance was written off during the current fiscal year.
Financial Inivl la tion (Unaudited)

13. Liabilities Not Covered by Budgetary Resources
Liabilities not covered by budgetary resources at September 30, consisted of the following (in millions):

                                                                                       2004
                                                                     2005
                                                                                    (unaudited)
                                                                  (unaudited)
                                                                                     Restated
Intragovernmental:
Accrued FECA Liability (Note 17)
Borrowings from U.S. Treasury (BPD)
Other
Total lntragovernmental


Public:
Military Service and Other Retirement Benefits (Note 18)
Accrued Payroll and Benefits:
  Accrued Leave (Note 17)
  Other Employment Related Liability (Note 17)
  Actuarial FECA Liability (Note 17)
Claims and Claims Settlement Liabilities (Notes 15 and 30)
Other:
  Environmental Cleanup Costs (Note 21)
  Contingent Liabilities (Note 21)
  Capital Lease Liability (Note 20)
Total Public


Total Liabilities Not Covered by Budgetary Resources
Liabilities Covered by Budgetary Resources or
Non-Entity Assets
Totali Liabilities


The Department anticipates that the liabilities listed above will be funded from ,future budgetary resources
when required. Budgetary resources are generally provided for unfunded leave when it is used.




Department o f Homeland Security Fiscal Year 2005 Performance and Accountabilify Report             297
Financial information (Unaudited)


14. Due to the Treasury General Fund
Amounts due to the Treasury General Fund of $1.4 billion and $1.3 billion, as of September 30, 2005 and
2004, respectively, represent duty, tax, and fee revenues collected by CBP to be remitted to various
General Fund accounts maintained by Treasury. Treasury further distributes these revenues to other
Federal agencies in accordance with various laws and regulations.


15. Claims and Claims Settlement Liabilities

Claims and Claims Settlement Liabilities at September 30, consisted of the following (in millions):

                                                            2005              2004
                                                         (unaudited)       (unaudited)
National Flood lnsurance Program                            $23,406              $1,357
Cerro Grande Fire Assistance Act
Total Claims and Claims Settlement Liabilities


A. National Flood Insurance Program (NF119)

The NFlP liability for unpaid losses and related loss adjustment expenses and amounts paid for the year
ended September 30, 2005 and 2004, consisted of the following (in millions):

                                                            2005              2004
                                                         (unaudited)       (unaudited)
Beginning Balance                                             $1,357                672
lncurred losses and increase estimated losses
Less: Amounts paid during current period
T otal NFlP Liability at September 30

The increase in 'Incurred losses and increase estimated losses' was primarily due to hurricane Katrina
which impacted the Gulf Coast in August 2005. The funded NFlP liability at September 30, 2005 and
2004 is $727 million and $327 million, respectively.

B. Cerro Grande Fire Assistance Act

The U.S.Department of Interior, National Park Service ~nitiateda prescribed burn that resulted in the loss
of Federal, state, local, Indian tribal and private property. In July 2000, Congress passed the Cerro
Grande Fire Assistance Act (CGFAA) to compensate as fully as possible those parties who suffered
damages from the Cerro Grande Fire.

At September 30, 2005 and 2004, the liability for unpaid claims and claim adjustment expenses
represents an estimate of the known probable and estimable losses that are unpaid as of September 30,
2005 and 2004, based on the Final Rules dated March 21, 2001, entitled, the Disaster Assistance: Cerro
Grande Fire Assistance, Final Rule, published in the Federal Register Part I1at 44 Code of Federal
Regulations Chapter I, Part 295. This estimated claims liability for September 30, 2005 and 2004,
includes $7 million and $9 million, respectively, which is unfunded.




Department of Homeland Security Fiscal Year 2005 Performance and Accountability Report                298
..... ..   .........- .. .....         _ __ .
                                 _ _ _ _ _ _ I   ____
16. Deferred Revenue and Advances from Others
Deferred revenue at September 30, and CIS application fee activity for the years ended September 30,
2005 and 2004, consisted of the following (in millions):

                                                              2005              2004
                                                           (unaudited)       (unaudited)
CIS Application Fees:
 Beginning Balance
 Collection deposited
 Less: earned revenue (completed applications)
 Adjustments for undeposited collections and other
Total CIS Application Fees


EP&R Unexpired NFlP premium
Advances from Others
Deferred Credits
T ~ t aDeferred
       i        Revenue

CIS requires advance payments of the fees for applications or petitions for immigration, nationality and
citizenship benefits. EP&R's deferred revenue relates to unearned NFlP premiums that are reserved to
provide for the unexpired period of insurance coverage.




D e p ~ lent of 1   neland Security Fiscal Year 20(          lance and Accountabilify Report       299
      17. Accrued Payroll and Benefits

      Accrued Payroll and Benefits at September 30, consisted of the following (in millions):

                                                                     2005                2004
                                                                  (unaudited)         (unaudited)
      Accrued Funded Payroll and Benefits                                $523
      Accrued Unfunded Leave                                               729
      Unfunded Employment Related Liabilities                              105
      Actuarial FECA Liability                                           1,473
      Other                                                                 15
      f otal Accrued Payroll and Benefits


      Workers' Compensation

      Claims incurred for the benefit of Department employees under FECA are administered by DOL and are
      ultimately paid by the Department. The accrued FECA liability representing money owed for current
      claims at September 30, 2005 and 2004 was $358 million and $240 million, respectively, and is included
      in other liabilities (see note 19). Future workers' compensation estimates, generated from an application
      of actuarial procedures developed by the DOL, for the future cost of approved compensation cases at
      September 30, 2005 and 2004, were approximately $1.5 billion and $1.4 billion, respectively. Workers'
      compensation expense was $141 million and $130 million, respectively, for the fiscal years ended
      September 30,2005 and 2004.


      18. Military Sewice and Other Retirement Benefits
      Accrued liability for military service and other retirement benefits at September 30, consisted of the
      following (in millions):

                                                                                      2005             2004
                                                                                   (unaudited)      (unaudited)
         USCG Military Retirement and Healthcare Benefits                              $25,468           $23,037
         USCG Post-Employment Military Travel Benefits
         USSS DC Pension Plan Benefits                                                   3,453             3,382
         Total Military Service and Other Retirement Benefits Liability                $29,021           $26,502




'9
..-   -1epartment o f Homeland Security Fiscal Year 2005 Performanc              Accountability Report
A. Military Retirement System Expense

The components of the Military Retirement System (MRS) expense for the years ended September 30,
2005 and 2004, consisted of the following (in millions):

                                                                             2005              2004
    Defined Benefit Plan:                                                 (unaudited)       (unaudited)
     Normal cost                                                                 $481               $419
     lnterest on the liability                                                  1,259
     Actuarial lossesl(gains)                                                     617
     Actuarial Assumption Change                                                  103
     Plan Amendments
    Total Defined Benefit Plan Expense


    Post-retirement Healthcare:
     Normal cost
     lnterest on the liability
     bosses/(gains) due to change in medical inflation rate assumptions
     Adjustments
    Total Post-retirement Healthcare Expense


    Total MRS Expense

The USCG's MRS includes the USCG Military Health Services System. The USCG's military service
members (both active duty and reservists) participate in the MRS. USCG receives an annual "Retired
Pay" appropriation to fund MRS benefits, thus the MRS is treated as a pay-as-you-go plan. The
retirement system allows voluntary retirement for active members upon credit of at least 20 years of
active service at any aye. Reserve members may retire after 20 years of creditable service with benefits
beginning at age 60. The health services plan is a post-retirement medical benefit plan, which covers all
active duty and reserve members of the USCG. The retirement plan's only assets are accounts receivable
representing unintentional overpayments of retiree benefits. The plan may subsequently recover such
amounts through future benefit payment adjustments or may elect to waive its right to recover such
amounts. The health services plan has no assets.

The unfunded accrued liability, presented as a component of the liability for military service and other
retirement in the accompanying Consolidated Balance Sheet, represents both retired pay and health care
benefits for non-Medicare eligible retirees/survivors. On October 1, 2002, USCG transferred the actuarial
liability for payments for the health care benefits of Medicare eligible retirees and survivors to the
Department of Defense Medicare-Eligible Retiree Health Care Fund (the Fund). USCG makes monthly
payments to the Fund for current service members. Valuation of the plan's liability is based on the
actuarial present value of accumulated plan benefits derived from the future payments that are
attributable, under the retirement plan's provisions, to a participant's credited service as of the valuation
date. Credited service is the years of service from active duty base date (or constructive date in the case
of active duty reservists) to date of retirement measured in years and completed months. The present
value of future benefits is then converted to an unfunded accrued liability by subtracting the present value
of future employerlemployee normal contributions. USCG plan participants may retire after 20 years of
active service at any age with annual benefits equal to 2.5 percent of retired base pay for each year of
credited service up to 75 percent of basic pay. Personnel who became members after August 1, 1986
may elect to receive a $30,000 lump sum bonus after 15 years of service and reduced benefits prior to




Department of Homeland Security Fiscal Year 2005 Performance and Accountability Report              30 1

-    - -
age 62. Annual disability is equal to the retired pay base multiplied by the larger of (1) 2.5 percent times
years of service, or (2) percent disability. The benefit cannot be more than 75 percent of retired pay base.
If a USCG member is disabled, the member is entitled to disability benefits, assuming the disability is at
least 30 percent (under a standard schedule of rating disabilities by Veterans Affairs) and either: ( I ) the
member has 8 years of service, (2) the disability results from active duty, or (3) the disability occurred in
the line of duty during a time of war or national emergency or certain other time periods.

The significant actuarial assumptions used to compute the MRS accrued liability are:

( I ) life expectancy is based upon the DoD death mortality table;
(2) cost of living increases are 3.0 percent annually; and
(3) annual rate of investment return is 6.25 percent.

These assumptions are based on a 1997 Experience Study and USCG plans to update the study in fiscal
year 2006. Fiscal year 2005 actuarial assumption changes included a salary scale increase from 3.5% to
3.75% and updated Veterans Administration (VA) waiver and combat related pay assumptions.

B. District of Columbia Police and Fireman's Retirement System for U.S. Secret: Service
Employees

Special agents and personnel in certain job series hired by USSS before January 1, 1984, are eligible to
transfer to the District of Columbia Police and Fireman's Retirement System (DC Pension Plan) after
completion of ten years of protection related experience. All uniformed USSS officers who were hired
before January 1, 1984, are automatically covered under this retirement system. Participants in the DC
Pension Plan make contributions of 7 percent of base pay with no matching contribution made by USSS.
Annuitants of this plan receive benefit payments directly from the DC Pension Plan. The USSS
reimburses the District of Columbia for the difference between benefits provided to the annuitants, and
payroll contributions received from current employees. This liability is presented as a component of the
liability for military service and other retirement benefits in the accompanying consolidated balance sheet.
SFFAS No. 5, Accounting for liabilities of the Federal Government, requires the administrative entity
(administrator) to report the actuarial liability. However, the USSS adopted the provisions of SFFAS No. 5
because the administrator, the DC Pension Plan, is not a Federal entity and as such the liability for future
funding would not otherwise be recorded in the United States government wide consolidated financial
statements.

The liability and expense are computed using the aggregate cost method. The primary actuarial
assumptions used to determine the liability at September 30, 2005 are:

( I ) life expectancy is based upon the 1994 Uninsured Pension (UP94) tables;
(2) cost of living increases are 3.5 percent annually;
(3) rates of salary increases are 3.5 percent annually; and
(4) annual rate of investment return is 7.25 percent.

Total expenses related to the DC Pension Plan for the fiscal years ended September 30, 2005 and 2004,
were $188 million and $173 million, respectively, of which $17 million and $16 million were funded but not
paid at September 30, 2005 and 2004, respectively.




Department of Homeland Security Fiscal Year 2005 Performance and Accountabilify Report
Financial information (Unaudfied)

19. Other Liabilities
Other liabilities at September 30, consisted of the following (in millions):

                                                                            2005               2004
                                                                         (unaudited)        (unaudited)
Intragovernmental:
Accrued FECA Liability
Advances from Others
Employer Benefits Contributions and Payroll Taxes
Borrowings from Treasury
Other lntragovernmental Liabilities
Total lntragovernmental Other Liabilities


Public:
Duties for Imports of Canadian Softwood Lumber (Notes 2 and 3)
lnjured Domestic lndustries (Notes 2 and 3)
Contingent Legal Liabilities (Note 21)
Capital Lease Liability (Note 20)
Environmental and Disposal Liabilities (Note 21)
Refunds and Drawbacks (Note 2 and 25)
Other Public Liabilities
Total Public Other Liabilities


Total Other Liabilities


lntragovernmental accrued FECA liability primarily represents the unfunded workers' compensation for
current claims. Borrowings from Treasury represents money borrowed against the NFIP borrowing
authority of $1.5 billion to pay flood insurance claims, mainly for damages caused by four major
hurricanes which occurred late in fiscal year 2004. Other public liabilities consist primarily of liabilily for
deposit funds and suspense at ICE and CBP. lntragovernmental other liabilities consist principally of
current liabilities, while the majority of public other liabilities are considered non-current.

The Continued Dumping and Subsidy Offset Act of 2000 calls for CBP to collect and disburse monies
received in connection with antidumping and countervailing duty orders and findings to qualifying Injured
Domestic lndustries (IDI). Antidumping duties are collected when it is determined that a class or kind of
foreign merchandise is being released into the U.S. economy at less than its fair value to the detriment of
a U.S. ~ndustry.Countervailing duties are collected when it is determined that a foreign government is
providing a subsidy to its local industries to manufacture, produce, or export a class or kind of
merchandise for import into the U.S. commerce to the detriment of a U.S. industry. Antidumping and
countervailing duties collected and due to lDls at September 30, 2005 and 2004, totaled $237 million and
$332 million, respectively. CBP has collected Canadian softwood lumber duties of $4.7 billion and $2.9
billion respectively, as of September 30, 2005 and 2004. The duties will eventually be distributed,
pursuant to rulings by the Department of Commerce (DOC). Duties for imports of Canadian softwood
lumber are included in non-entity fund balance with Treasury, and represent a non-entity liability for wliich
there is an antidumping dispute currently being litigated.




Department of Homeland Security Fiscal Year 2005 Performanl             2nd Accountability Rep01          303
Financial Information (Unaudited)

Refunds and Other Payments

Disbursements from the refunds and drawback account for the fiscal years ended September 30,2005
and 2004 consisted of the following (in millions):

                            2005          2004
                         (unaudited)   (unaudited)
Refunds                         $729          $566
Drawback
fotal

The disbursements include interest payments of $33 million and $45 million, for the fiscal years ended
September 30, 2005 and 2004 respectively. Refunds and other payments funded from coliections rather
than the refunds and drawback account totaled $354 million and $251 million for the fiscal years ended
September 30, 2005 and 2004, respectively.

Amounts refunded during the fiscal years ended September 30, 2005 and 2004, identified by entry year,
consisted of the following (in millions):

                            2005          2004
Entry Year               (unaudited)   (unaudited)
 2005                           $684           $   )-




 2004
 2003
 2002
 Prior Years
 Total

The disbursement totals for refunds include antidumping and countervailing duties collected that are
refunded pursuant to rulings by the DOC. These duties are refunded when the DOC issues a decision in
favor of the foreign industry.

The total amounts of antidumping and countervailing duties vary from year to year depending on
decisions from DOC. Antidumping and countervailing duty refunds (included in total refunds presented
above) and associated interest refunded for the fiscal year ended September 30, 2005 and 2004
consisted of the following (in millions):

                                                                2005           2004
                                                             (unaudited)    (unaudited)
Antidumping and countervailing duty refunds                        $124.             $75
Interest                                                             14                19
Total Antidumping and countervailing duty refunds                  $138              $94




                           , Fiscal Year 2005 Performance and
Department of Homeland Secu~                                               countability Report     304

               - - -                                    .   --     --      - - .- . -......... _   _ __
Financial Information (Unaudited)


20. Leases
A. Operating Leases (unaudited)

The Department leases various facilities and equipment under leases accounted for as operating leases.
Leased items consist of offices, warehouses, vehicles and other equipment. The majority of office space
occupied by the Department is either owned by the Federal government or is leased by GSA from
commercial sources. The Department is not committed to continue to pay rent to GSA beyond the period
occupied providing proper advance notice to GSA is made and unless the space occupied is designated
as unique to Department operations. However, it is expected the Department will continue to occupy and
lease office space from GSA in future years and lease charges will be adjusted annually to reflect
operating costs incurred by GSA.

As of September 30, 2005, estimated future minimum lease commitments under operating leases for
equipment and GSA controlled leases were as follows (in millions):

                                    GSA    Non-GSA             Total
 FY 2006
 FY 2007
 FY 2008
 FY 2009
  FY 20101 Beyond FY 2009
 Beyond FY 2010
 Total future minimum
 lease payments

The estimated future lease payments for GSA controlled leases are based on payments made during 111e
year ended September 30,2005.

B. Capital Leases

The Department maintains capital leases for equipment, buildings and commercial software license
agreements. The liabilities associated with capital leases and software license agreements are presented
as other liabilities in the accompanying consolidated financial statements based upon the present value of
the future minimum lease payments.

Certain license agreements are cancelable depending on future funding. Substantially all of the net
present value of capital lease obligations and software license agreements may be funded from future
sources.




Department of Homeland Security Fisc,.    /ear 2005 Performance and Ac~,,ntability   Repoi.

     -   -    --     -   -                     - -- -   - --      --   -
21. Contingent Liabilities and Other Commitments

A. Legal Contingent Liabilities

The estimated contingent liability recorded in the accompanying financial statements included with other
liabilities for all probable and estimable litigation related claims at September 30, 2005, was $247 million,
of which $26 million is funded. (At September 30, 2004, the estimated contingent liability was $80 million,
of which $26 million was funded). Asserted and pending legal claims for which loss is reasonably possible
was estimated to range from $319 million to $2.5 billion, at September 30, 2005. The Department is
subject to various other legal proceedings and claims. In management's opinion, the ultimate resolution of
other actions will not materially affect the Department's financial position or net costs.

B. Environmental Cleanup Liabilities

The Department is responsible to remediate its sites with environmental contamination, and is party to
various administrative proceedings, legal actions and tort claims which may result in settlements or
decisions adverse to the Federal government.

The source of remediation requirements to determine the environmental liability is based on compliance
with Federal and state or local environmental laws and regulations. The major Federal laws covering
environmental response, cleanup and monitoring are the Comprehensive Environmental Response,
Compensation and Liability Act and the Resource Conservation and Recovery Act. Environmental liability
of $1 72 million ($14 million funded), as of September 30, 2005 and $159 million ($15 million funded), as
of September 30, 2004 is presented with other liabilities in the accompanying Consolidated Balance
Sheet. The liabilities consist primarily of fuel storage tank program, fuels, solvents, industrial, chemicals
and other environmental cleanup associated with normal operations of CBP and the USCG. For Plum
Island Animal Disease Center, under S&T, potential environmental liabilities that are not presently
estimable could exist due to the facility's age, old building materials used and other materials associated
with the facility's past use as a United States Army installation for coastline defense. Cost estimates for
environmental and disposal liabilities are subject to revision as a result of changes in technology,
environmental laws and regulations, and plans for disposal.

C. Duty and Trade Refunds

There are various trade related matters that fall under the jurisdiction of other Federal agencies, such as
the Department of Commerce, which may result in refunds of duties, taxes and fees collected by CBP
Until a decision is reached by the other Federal agencies, CBP does not have sufficient information to
estimate a contingent liability amount, if any, for trade related refunds under jurisdiction of other Federal
agencies in addition to the amount accrued on the accompanying financial statements. All known refunds
as of September 30,2005, and 2004, have been recorded.

D. Loaned Aircraft and Equipment

The Department is generally liable to the DoD for damage or loss to aircraft on loan to CBP, AMO. As of
September 30, 2005, CBP had I 6 aircraft loaned from DoD with an acquisition value of $94 million
(unaudited). (These aircraft were reported as on loan to ICE, as of September 30, 2004. During fiscal
year 2005, ICE transferred these loaned aircraft to CBP No damage or aircraft losses were accrued as of
September 30, 2005.




Department o f Homeland Security Fiscal Year 2005 Performance and Accountability Repor,              306
Financial Information (Unaudited)

E. Other Contractual Arrangements

In addition to future lease commitments discussed in Note 20, the Department is committed under
contractual agreements for goods and services that have been ordered but not yet received (undelivered
orders) at fiscal year-end. Aggregate undelivered orders for all Department activities amounted to $35
billion and $21 billion as of September 30, 2005 and 2004, respectively.

During fiscal year 2004, TSA entered into a number of Letters of Intent for Modifications to Airport
Facilities with eight major airports in which TSA may reimburse the airports for 75% (estimated total of
$957 million) of the cost to modify the facilities for security purposes. These betters of Intent would not
obligate TSA until funds have been appropriated and obligated. In addition, each airport shall have title to
any improvements to its facilities. During fiscal year 2005, $269 million was appropriated and is available
for payment to the airports upon submission to PSA of an invoice for the modification costs incurred. As of
September 30, 2005, TSA has received invoices or documentation for costs incurred and paid in a total of
$204 million related to these agreements. The amounts requested under these Letters of lntent may
differ significantly from the original estimates and, therefore, TSA could ultimately pay substantially more
than originally estimated.

F. NFlP Premiums
NFlP premium rates are generally established for actuarially rated policies with the intent of generating
sufficient premiums to cover losses and loss adjustment expenses of a historical average loss year and to
provide a surplus to compensate the lnsurance Underwriting Operations for the loss potential of an
unusually severe loss year due to catastrophic flooding.

Notwithstanding the foregoing, subsidized rates have historically been charged on a countrywide basis for
certain classifications of insured. These subsidized rates produce a premium less than the loss and loss
adjustment expenses expected to be incurred in a historical average loss year. The subsidized rates do
not include a provision for losses from catastrophic flooding. Subsidized rates are used to provide
affordable insurance on construction or substantial improvements started on or before December 31,
1974, or before the effective date of the initial Flood Insurance Rate Map (i.e., an official map of a
community on which NFlP has delineated both the special hazard areas and the non-subsidized premium
zones applicable to the community).

FEMA's practice of recording a year-end obligation against budgetary obligations for estimated losses
was changed in fiscal year 2005. Consistent with the guidance contained in Section 20.5 of OMB Circular
A-1 1, FEMA now enters obligations against its budgetary allocation when final approval is provided 011 a
claim. The resulting correction of this error is disclosed in Note 30 to these financial statements.




Department of Homeland Security Fiscal Year 2005 Performance and Accoul           ~ilityReport     307
22. Balance Sheet Crosswalk to OMB Circular A-136 Classifications
The Department's consolidated balance sheet is presented in a format which varies from the format
prescribed by OMB Circular A-136. The following tables show reclassification adjustments needed to
present the Balance Sheet in the OMB Circular A-I36 format (in millions):

                                                          As        Reclassification          OMB
 As of September 30,2005:                          Presented        debit      credit         A-136
 (Unaudited)
 Assets

 Intragovernmental:
   Fund Balance with Treasury
   lnvestments
   Advances and Prepayments
   Accounts Receivable
   Loans Receivable
   Other
 Total lntragovernmental

 Cash and Other Monetary Assets
 Investments
 Accounts Receivable
 Taxes Receivable, Net
 Loans Receivable, Net
 Operating Materials, Supplies, & Inventory, Net
 Inventory and Related Property, Net
 General Property, Plant and Equipment, Net
 Other
 Total Assets

 Liabilities

 Intragovernmental:
   Due to the Treasury General Fund
   Accounts Payable
   Debt
   Other
 Total lntragovernmental

 Accounts Payable
 Loan Guarantee Liability
 Debt held by the Public
 Claims and Claims Settlement Liabilities
 Deferred Revenue and Advances from Others
 Accrued Payroll and Benefits
 Military Service and Other Retirement Benefits
 Federal Employee and Veteran Benefits
 Environmental and Disposal Liability
 Benefits Due and Payable
 Other
 Total Liabilities

 Net Position

 Unexpended Appropriations
 Cumulative Results of Operations
 Total Net Position


-
I
  -
 Total Liabilities and Net Position                 $114,506       $58,747    $58,747       $114,506




Departmen        Homeland Security Fiscal Year 2005 Performance and Accountability Report        308
                                                         As      Reclassification        OMB
As of September 30,2004:                          Presented      debit     credit        A-136
(Unaudited)
Assets

Intragovernmental:
  Fund Balance with Treasury
  lnvestments
  Advances and Prepayments
  Accounts Receivable
  Loans Receivable
  Other
Total lntragovernmental

Cash and Other Monetary Assets
Investments
Accounts Receivable
Taxes Receivable, Net
Loans Receivable, Net
Operating Materials, Supplies, & Inventory, Net
Inventory and Related Property, Net
General Property, Plant and Equipment, Net
Other
Total Assets

Liabilities

Intragovernmental:
  Due to the Treasury General Fund
  Accounts Payable
  Debt
  Other
Total lntragovernmental

Accounts Payable
Loan Guarantee Liability
Debt held by the Public
Claims and Claims Settlement Liabilities
Deferred Revenue and Advances from Others
Accrued Payroll and Benefits
Military Service and Other Retirement Benefits
Federal Employee and Veteran Benefits
Environmental and Disposal Liability
Benefits Due and Payable
Other
Total Liabilities

Net Position

Unexpended Appropriations
Cumulative Results of Operations
Total Net Position

Total Liabilities and Net Position




Department of Homeland Security Fiscal Year 2005 Performance and Accountability Report     309

--.            ---                                   .-. . .    ..   ..
23. Consolidated Statement of Net Cost and Net Costs of DHS Components

Operating costs are summarized in the Consolidated Statement of Net Cost by responsibility segment, as
applicable to the reporting period. The net cost of operations is the gross (i.e., total) cost incurred by the
Department, less any exchange (i.e., earned) revenue. A responsibility segment is the component that
carries out a mission or major line of activity, and whose managers report directly to Departmental
Management. For fiscal year 2004, the Department's responsibility segments were responsible for
accomplishing the three objectives of the President's National Strategy for Homeland Security.

During fiscal year 2004, the Department interpreted the National Strategy and developed its first Strategic
Plan, which included seven goals presented in Note 1 .A., Reporting Entity.

Beginning with the fiscal year 2005 budget, ihe Department integrated budget and performance
information as required by the President's Management Agenda and the Government Performance and
Results Act. To integrate performance and financial information, a supplemental schedule of net cost is
included in this note, in which costs by program are allocated to Departmental strategic goals. Also, the
required disclosure on intragovernmental costs and exchange revenue is presented by DHS sub-
organizations. In addition, due to the complexity of the Border and Transportation Security Directorate
organizational structure, a supplemental schedule is presented to show the net cost of the BTS
Directorate's sub organizations.




Department of Homeland Security Fiscal Year 2005 Performance and Accountability Report                3 10
"
     g w     "
           ' ONN
             m




OmmNCOLP)
O m b b N -
.- m" m. q N N-
- w m m      2
r i i r a r r w a r rr r r u r r r r a r r u r   I   \u r r a u u r r ~ i u /


          Statement of Net Cost sub-schedule:
          lntragovernmental Costs and Exchange Revenue (in millions)
          For the year ended September 30,2005
          (Unaudited)
                                                                                                    With the
                                                                                lntragovernmental    Public    Total
          BTS Directorate
          Gross Cost
          Less Earned Revenue
          Net Cost

          EP&R Directorate
          Gross Cost
          Less Earned Revenue
          Net Cost

          IAlP Directorate
          Gross Cost
          Less Earned Revenue
          Net Cost

           S&T Directorate
           Gross Cost
           Less Earned Revenue
           Net Cost

           USCG
           Gross Cost
           Less Earned Revenue
           Net Cost

           USSS
           Gross Cost
           Less Earned Revenue
           Net Cost

           USCIS
           Gross Cost
           Less Earned Revenue
           Net Cost

           Departmental Operations and Other
           Gross Cost
           Less Earned Revenue
           Net Cost

           DHS Total
           Gross Cost
            Less Earned Revenue
            NET COST
   Statement of Net Cost sub-schedule:
   lntragovernmental Costs and Exchange Revenue (in millions)
   For the year ended September 30,2004
   (Unaudited)
                                                                      With the
                                               lntragovernmental       Public            Total
   BTS Directorate
   Gross Cost
   Less Earned Revenue
   Net Cost

   EP&R Directorate
   Gross Cost
   Less Earned Revenue
   Net Cost of Continuing Operations
   Cost of Transferred Operations
   Net Cost

   IAlP Directorate
   Gross Cost
   Less Earned Revenue
   Net Cost

   S&T Directorate
   Gross Cost
   Less Earned Revenue
   Net Cost

   USCG
   Gross Cost
   Less Earned Revenue
   Net Cost

   USSS
   Gross Cost
   Less Earned Revenue
   Net Cost

   USCIS
   Gross Cost
   Less Earned Revenue
   Net Cost

   Departmental Operations and Other
   Gross Cost
   Less Earned Revenue
   Net Cost

    DHS Total
    Gross Cost
     Less Earned Revenue
     NET COST




Department of Homeland Security Fiscal Year 2005 Performance and Accountabilify Report
   Statement of Net Cost sub-schedule:
   Components of Border and Transportation Security (BTS) Directorate (in millions)
   For the year ended September 30,2005
   (Unaudited)

                                                                          With the
                                                  lntragovernmental        Public                 Total
   BTS HQ (Office of Undersecretary)
   Gross Cost
   Less Earned Revenue
   Net Cost

   CBP
   Gross Cost
   Less Earned Revenue
   Net Cost

   ICE (with FAM)
   Gross Cost
   Less Earned Revenue
   Net Cost

   TS A
   Gross Cost
   Less Earned Revenue
   Net Cost

   FLETC
   Gross Cost
   Less Earned Revenue
   Net Cost

   BTS Directorate Total
   Gross Cost
   Less Earned Revenue
   NET COST - BTS




Department of Homeland       curity Fiscal Year 2005 Performance and Accountability Report         3 15

   - .. . . . .   .. . -                                     . . ....-    - . ..- - -        -.
   Statement of Net Cost sub-schedule:
   Components of Border and Transportation Security (BTS) Directorate (in millions)
   For the year ended September 30,2004
   (Unaudited)

                                                                       With the
                                                lntragovernmental       Public           Total
   BTS HQ (Office of Undersecretary)
   Gross Cost
   Less Earned Revenue
   Net Cost

   CBP
   Gross Cost
   Less Earned Revenue
   Net Cost

   ICE (with FAM)
   Gross Cost
   Less Earned Revenue
   Net Cost

   TSA
   Gross Cost
   Less Earned Revenue
   Net Cost

   FLETC
   Gross Cost
   Less Earned Revenue
   Net Cost

    BTS Directorate Total
    Gross Cost
    Less Earned Revenue
    NET COST - BTS




Department of Homeland Security Fiscal Year 2005 Performance and Accountability Report    3 16
Financial Information (Unaudited,

24. Combined Statement of Budgetary Resources (SBR)

The Combined Statement of Budgetary Resources (SBR) provides information about how budgetary
resources were made available as well as their status at the end of the period. It is the only financial
statement exclusively derived from the entity's budgetary general ledger in accordance with budgetary
accounting rules that are incorporated into generally accepted accounting principles for the Federal
government. The total Budgetary Resources of $124,661 million and $53,879 million for fiscal years 2005
and 2004, respectively, include new budget authority, unobligated balances at the beginning of the year
and transferred intout, spending authority from offsetting collections, recoveries of prior year obligations
and adjustments.

A. Appropriations Received (in millions)

Appropriations received on the SBR of $106,691 million will not equal the amounts reported on the
Consolidated Statement of Changes in Net Position (SCNP) of $101,251 million due to: 1) $4,544 million
of trust and special fund receipts that are not reflected in the unexpended appropriation section of the
SCNP; 2) $33 million of change in amounts appropriated from specific Treasury-managed trust funds; 3)
$845 million of refunds and drawbacks; and 4) $18 million of receipts unavailable for obligations upon
collections.

B. Permanently Not AvailablelAdjustments (in millions)

                                                                  2005              2004
                                                               (unaudited)       (unaudited)
Budgetary resources permanently not available per SBR               $1,961           $2,563
Appropriations Returned per SCNP
Difference (explained below)


Budgetary resources permanently not available on the SBR do not agree with the unavailable
appropriations returned to Treasury on the SCNP due to: (I)   trust, special and revolving funds which go
through the cumulative results of operations and not unexpended appropriations; (2) repayments of debt
that were processed through payables and not unexpended appropriations; and (3) reductions of
borrowing authority that have no effect on the proprietary accounts.




Department of      neland Securify Fiscal Year 2005 Performance and Accountability Report           317
Financial Information (Unaudifed)


C. Apportionment Categories of Obligations lncurred

Apportionment categories are determined in accordance with the guidance provided in OMB Circular A-
l l , Preparation, Submission and Execution of the Budget. Category A represents resources apportioned
for calendar quarters. Category 6 represents resources apportioned for other time periods; for activities,
projects, or objectives; or for any combination thereof (in millions).

                                              Apportionment      Apportionment        Exempt from
    FY Ended September 30,2005:                                     Category B       Apportionment
                                                 Category A
    Obligations Incurred - Direct
    Obligations Incurred - Reimbursable
    Total Obligations lncurred


                                              Apportionment      Apportionment        Exempt from
    FY Ended September 30,2084:
                                                 Category A         Category B       Apportionment             Total
     Obligations lncurred - Direct
     Obligations Incurred - Reimbursable                2,015                 854                    11        2,880
     Total Obligations Incurred                       $25,254              $19,488                 $74.5     $45,487


B. Borrowing Authority for EP&R

The NFlP has borrowing authority of $3.5 billion and $1.5 billion, as of September 30, 2005 and 2004
respectively, available for disaster relief purposes. NFlP loans are for a three-year term. Interest rates are
obtained from the Bureau of Public Debt. Simple interest is calculated monthly, and is offset by any
interest rebate, if applicable. Interest is paid semi-annually on October 1 and April 1 Partial loan
repayments are permitted. Principal repayments are required only at maturity, but are permitted at any
time during the term of the loan. At the end of the fiscal year, borrowing authority is reduced by the
amount of any unused portion. EP&R's liability for borrowed amounts was $226 million and $8 million
respectively, at September 30, 2005 and 2004.

Under Credit Reform, the unsubsidized portion of direct loans is borrowed from the Treasury. The
repayment terms of EP&R's borrowing from Treasury are based on the life of each cohort of direct loans.
Proceeds from collections of principal and interest from the borrowers are used to repay the Treasury. In
addition, an annual reestimate is performed to determine any change from the original subsidy rate. If an
upward reestimate is determined to be necessary, these funds are available through permanent indefinite
authority. Once these funds are appropriated, the original borrowings are repaid to the Treasury.

EP&R maintains three funds under the Credit Reform Act:

a     70-4234: Disaster Assistance Direct Loan Financing
a     70-0703: Disaster Assistance Direct Loan Program (no-year)
a     70-0703: Disaster Assistance Direct Loan Program (annual)




           lent of Homeland Sec      ty Fiscal Year 2005 Performance and                    port       318
Financial Information (Unaudited)

E. Non-Budgetary, Credit Program and Financing Account

Included in the SBR are amounts for the Department's one financing account in EP8R for Disaster
Assistance Direct Loans. This non-budgetary financing account is not presented separately on the SBR
because the amounts and impact are immaterial. Financing account information for the fiscal years ended
September 30, 2005 and 2004 is presented below (in millions):

    Budgetary Resources

                                                           (unaudited)       (unaudited)
    Budget Authority:
     Borrowing Authority                                           $26               $26
    Spending Authority from Offsetting Collections:
     Receivable from Federal Sources
     Recoveries of Prior Year Obligations
    Permanently Not Available:
     Other Authority Withdrawn
    Total Budgetary Resources

     Total Status of Budgetary Resources

     Total Outlays

F. Explanation of Differences between the Combined Statement of Budgetary Resources and the
Budget sf the United States Government

The SBR has been prepared in a format consistent with the amounts shown in the President's Budget
(Budget of the United States Government). The actual amounts for fiscal year 2005 in the President's
Budget have not been published at the time these financial statements were prepared. The President's
Budget with the actual fiscal year 2004 amounts was released in February 2005, and the actual fiscal
year 2005 amounts are estimated to be released in February 2006.

The Department's fiscal year 2004 budget amounts does not match the fiscal year 2004 President's
Budget. The Obligated Balance, Beginning of Period, and the Unobligated Balance, Beginning of Period,
does not equal the balance reported in the prior fiscal year as a result of a correction of an error
associated with the recording of obligations for FEMA's National Flood Insurance Program (see Note 30).


25. Permanent Indefinite Appropriations

Permanent indefinite appropriations refer to the appropriations that result from permanent public laws,
which authorize the Department to retain certain receipts. The amount appropriated depends upon the
amount of the receipts rather than on a specific amount. The Department has two permanent indefinite
appropriations as follows:

e   CBP has a permanent and indefinite appropriation, which is used to disburse tax and duty refunds,
    and duty drawbacks. Although funded through appropriations, refund and drawback activity is, in
    most instances, reported as a custodial activity of the Department. Refunds are custodial revenue-
    related activity in that refunds are a direct result of taxpayer overpayments of their tax liabilities.
    Federal tax revenue received from taxpayers is not available for use in the operation of the
    Department and is not reported on the Consolidated Statement of Net Cost. Likewise, the refunds of
    overpayments are not available for use by the Department in its operations. Refunds and drawback
    disbursements totaled $1,159 million and $970 million for the fiscal years ended September 30, 2005
    and 2004 resnectivelv. and are nresented a s a use of custodial revenue on the Statement of




Department of Homeland Security Fiscal Year 2005 Performance a           Plccounfability Report    3 19
Financial Information (Unaudited,

    Custodial Activity.
e   USSS has a permanent and indefinite appropriation, which is used to reimburse the District of
    Columbia Police and Fireman's Retirement System (DC Pension Plan) for the difference between
    benefits to participants in the DC Pension Plan (see note 18), and payroll contributions received from
    current employees.

These appropriations are not subject to budgetary ceilings established by Congress. CBP's refunds
payable at year-end are not subject to funding restrictions, Refund payment funding is recognized as
appropriations are used.


26. Legal Arrangements Affecting the Use sf Unobligated Balances of Budget
Authority
Unobligated balances, whose period of availability has expired, are not available to fund new obligations.
Expired unobligated balances are available to pay for current period adjustments to obligations incurred
prior to expiration. For a fixed appropriation account, the balance can be carried forward for five fiscal
years after the period of availability ends. At the end of the fifth fiscal year, the account is closed and any
remaining balance is canceled. For a no-year account, the unobligated balance is carried forward
indefinitely until (1) specifically rescinded by law; or (2) the head of the agency concerned or the
President determines that the purposes for which the appropriation was made have been carried out and
disbursements have not been made against .the appropriation for two consecutive years.

Included in the cumulative results of operations for special funds is $760 million and $1,015 million at
September 30, 2005 and 2004 respectively, that represents the Department's authority to assess and
collect user fees relating to merchandise and passenger processing, to assess and collect fees
associated with services performed at certain small airports or other facilities, retain amounts needed to
offset costs associated with collecting duties, and taxes and fees for the government of Puerto Rico.
These special fund balances are restricted by law in their use to offset specific costs incurred by the
Department. Part of the passenger fees in the User Fees Account, totaling approximately $741 million
and $730 million at September 30, 2005 and 2004 respectively, is restricted by law in its use to offset
specific costs incurred by the Department and are available to the extent provided in Department
Appropriation Acts.

The entity trust fund balances result from the Department's authority to use the proceeds from general
order items sold at auction to offset specific costs incurred by the Department relating to their sale, to use
available funds in the Salaries and Expense Trust Fund to offset specific costs for expanding border and
port enforcement activities, and to use available funds from the Harbor Maintenance Fee Trust Fund to
offset administrative expenses related to the collection of the Harbor Maintenance Fee.




        lent of Homeland Securify Fiscal Year 2005 Performan1
I


Financial Information (Unaudited)


27. Explanation of the Relationship Between Liabilities Not Covered by Budgetary
Resources and the Changes in Components Requiring or Generating Resources in
Future Periods

The relationship between the amounts reported as liabilities not covered by budgetary resources on the
balance sheet and amounts reported as components requiring or generating resources in future periods
on the Consolidated Statement of Financing were analyzed. The differences are primarily due to the
increase in EP&R claims and claims settlement of 21.6 billion and USCG actuarial pension liability of $1.7
billion and other USCG military post employment liability of $1 billion in fiscal year 2005, which do not
generate net cost of operations or require the use of budgetary resources. In fiscal year 2004, the
differences were primarily due to the increase in EP&R claims and claims settlement liability of $1.0 billion
and the increase in the USCG actuarial pension liability of $1.3 billion.




Departmenf o f Homeland Security Fiscal Year 2005 Performance and Accountability Report              321
Financial Information (Unaudited)


28. Dedicated Collections
The Department administers various Trust Funds that receive dedicated collections. In the U.S.
Government budget, Trust Funds are accounted for separately and used only for specified purposes. A
brief description of the major Trust Funds and their purpose follows.

A. Oil Spill Liability Trust Fund

The Oil Spill Liability Trust Fund (OSLTF) was established by the Oil Pollution Act (OPA) of 1990, P.L.
101-380, to help facilitate cleanup activities and compensate for damages from oil spills. The OSLTF
account includes the parent QSLTF fund that is managed by BPB, the USCG Oil Spill Recovery transfer
account, the USCG Trust Fund Share of Expenses transfer account and the USCG QPA Claims transfer
account. These three transfer accounts fund outlays through SF-1151 non-expenditure transfers from the
BPD OSLTF parent fund.

B. Boat Safety Account

The USCG's Boat Safety Account was established by Federal Boat Safety Act (FBSA) of 1971, P.L. 92-
75, to "encourage greater State participation and uniformity in boating safety efforts, and particularly to
permit the States to assume the greater share of boating safety education, assistance and enforcement
activities." The Boat Safety Account receives funding from the Department of Interior's Sport Fish
Restoration Account, which is funded in part from the Aquatic Resource Trust Fund (ARTF) managed by
Bureau of Public Debt (BPD). Funds are available until expended (no-year). Outlays in this account are
funded through SF-1151 non-expenditure transfers from the Sport Fish account.

Condensed financial information as of and for the fiscal years ended September 30, 2005 and 2004 is
presented below (in millions):

                                                       2005                            2004
                                                    (unaudited)                     (unaudited)
                                              Oil Spill    Boat Safety         Oil         Boat Safety
                                              Liability     Account         Liability Trust Account
                                             Trust Fund                         Fund
Assets:
 Investments
 Other Assets
Total Assets

Liabilities:
 Accounts Payable
 Other Liabilities
Total Liabilities

Net Position:
 Beginning Balance
 Non-Exchange Revenue
 Less: Program Expenses
Net Position

Total Liabilities and Net Position




Department of Homeland Security Fiscal Year 2005 Performance and Accountabiljty Report              322
rrnancial Information (I/~~auuiieu/

29. Transfer of the Strategic National Stockpile
The transfer of the Strategic National Stockpile (SNS) pursuant to Project Bioshield Act o f 2004 had an
effect on all of the Department's fiscal year 2004 financial statements, except for the Statement of
Custodial Activity.

The following lines on the Department's Consolidated Balance Sheet, Consolidated Statement of Net
Cost, Consolidated Statement of Changes in Net Position, Consolidated Statement of Financing and
Combined Statement of Budgetary Resources include the transfer out of assets, liabilities, net position
and budgetary resources of the SNS as of August 13, 2004, the date of transfer.

Consolidated Balance Sheet (in millions)

Fund Balance with Treasury
Operating Materials and Supplies, Inventory and Stockpile
Property, Plant and Equipment, Net
Total Assets

Accounts Payable
Unexpended Appropriations
Cumulative Results of Operations
Total Liabilities and Net Position


Consolidated Statement of Net Cost (in millions)

Costs - lntragovernmental
Less Earned Revenue - lntragovernrnental
Net Cost - lntragovernmental

Costs -With the Public
Less Earned Revenue - With the Public
Net Cost - With the Public

Net Cost of Operation


Consolidated Statement of Changes in Net Position (SCNP) and
Consolidated Statement of Financing (SOF) (in millions)

Appropriations Transferred InIOut (Unexpended Appropriations) -
SCNP only

Other Financing Sources (Non-Exchange): Transfers Inlout without
Reimbursement (Cumulative Results) - Both SCNP and SOF




Department of Homeland Security Fiscal Year 2005 Performance and Accountabilify Report             323
Combined Statements of Budgetary Resources (in millions)

                     -
Budgetary Resources Budget Authority - Net Transfers, Current Year           $1 1
                     -
Budgetary Resources Budget Authority - Net Transfers, Balance                $53
Budgetary Resources - Unobligated Balance - Net Transfers                    $64

Budgetary Resources - Relationship of Obligations to Outlays -
Obligated Balance Transferred, Net


30. Restatements
A. Budgetary Obligations Related to EPR National Flood Insurance Program

BHS restated amounts in the FY 2004 combined statement of budgetary resources to correct an error
associated with the recording of budgetary obligations for the National Flood Insurance Program (NFIP).
EPR previously recorded a year-end obligation against budgetary allocations for estimated losses related
to the NFIP. Following hurricane Katrina in August 2005, OM9 informed EPR that their accounting policy
of recording budgetary obligations for estimated losses, prior to the receipt of a claim and approval of
payment by the government, was inconsistent with the guidance provided in OMB Circular A-1 I .
Consistent with the guidance contained in Section 20.5 of OMB Circular A-I I , EPR shot~ldenter
obligations against their budgetary allocation when final approval is provided on the claim. After
consultation with BHS budget management and legal council, DHS agreed to correct its accounting policy
and restate its fiscal year 2004 Combined Statement of Budgetary Resources and Consolidated
Statement of Financing. There was no effect on the Consolidated Balance Sheet, Consolidated
Statement of Net Cost, Consolidated Statement of Changes in Net Position, or Statement of Custodial
Activity due to this change in realigning flood insurance obligations. The Combined Statement of
Budgetary Resources and Consolidated Statement of Financing are presented below reflecting the
balances as presented in fiscal year 2004 and as restated in fiscal year 2005 financial statements.


 Combined Statement of Budgetary Resources (in millions)
                                                       As                 As
 Status of Budgetary Resources                      Presented           Restated       Change
 Obligations incurred:
  Direct                                              $43,628             $42,607       $(I ,021)
  Reimbursable                                           2,880              2,880
 Total obligations incurred                           $46,508             $45,487       $(I ,021)
 Unobligated Balance
  Apportioned                                                 $5,691        $6,712        $1,021
  Exempt from Apportionment                                       4.2           42
 Unobligated Balance Not Available                             1,638         1,638

 Total Status of Budgetary Resources

 Relationship sf Obligations to Outlays
  Accounts Payable




Department of Homeland Securify Fiscal Year 2005 Performance and Accounfabilify Report
                                             8
Consolidated Statement of Financing (in millions)


Resources Used to Finance Activities                          Original     Restated       Change
Budgetary Resources Obligated
 Obligations Incurred
Obligations Net of Offsetting Collections and
Recoveries
  Net Obligations
Total Resources Used to Finance Activities
Total Resources Used to Finance the Net Cost of
Operations
Components Requiring or Generating Resources in
Future Periods:
  Increase in Claims and Claims Settlement Liabilities
Total Components of Net Cost of Operations that will
Require or Generate Resources in Future Periods
Total Components of Net Cost of Operations That Will
Not Require or Generate Resources In the Current
Period


Liabilities Not Covered by Budgetary Resources (Note 13) (in millions)

                                                              Original     Restated       Change
 Claims and Claims Settlement Liabilities                          $9        $1,030        $1,021
 Total Public                                                  29,023        30,044         1,021
 Total Liabilities Not Covered by Budgetary Resources          29,273        30,294         1,021
 Liabilities Covered by Budgetary Resources or Non-
 Entity Assets

B. Correction of Error in the Accounts at ICE:

Financial statement errors, affecting the prior year, were discovered while performing reconciliations of
accounts receivable, and clearing balances carried in suspense over a long period of time. Since the
errors related to transactions that occurred in prior years, correcting adjustments were made to restate
the beginning fiscal year 2005 statement of net position by decreasing cumulative results of operations by
$127 million, and increasing unexpended appropriations by $163 million.




Department of Homeland Security Fiscal Year 2005 Perforn       :e and Accounfabiljfj
                  I I VI I I I I ~ L I U II { U I
~ I I I ~ I I ~ IIQ                                 Iauuuvu/




Required Supplementary Information (unaudited)
Deferred Maintenance

The Department components use condition assessment as the method for determining the deferred
maintenance for each class of asset. The procedure includes reviewing equipment, building and other
structure logistic reports. Component logistic personnel identify maintenance not performed as scheduled
and establish future performance dates. Logistic personnel use a condition assessment survey to
determine the status of referenced assets according to the range of conditions shown below:

Good. Facilitylequipment condition meets established maintenance standards, operates efficiently and
has a normal life expectancy. Scheduled maintenance should be sufficient to maintain the current
condition There is no deferred maintenance on buildings or equipment in good condition.

Fair. Facilitylequipment condition meets minimum standards but requires additional maintenance or
repair to prevent further deterioration, increase operating efficiency and to achieve normal life
expectancy.

Poor. Facilitylequipment does not meet most maintenance standards and requires frequent repairs to
prevent accelerated deterioration and provide a minimal level of operating function. In some cases, this
includes condemned or failed facilities. Based on periodic condition assessments, an indicator of
condition is the percent of facilities and item of equipment in each of the good, fair, or poor categories.

Deferred maintenance as of September 30, 2005 was estimated to range from $734 million to $890
million on general property, plant and equipment and heritage assets. In fiscal year 2004, the Department
reported estimated deferred maintenance of $591 million (without range). These amounts represent
maintenance on vehicles, vessels and buildings and structures owned by the Department that was not
performed when it should have been or was scheduled to be and which is delayed for a future period.

A summary of deferred maintenance at September 30, 2005 is presented below (in millions):

                                                                        Low           High
                                                                    estimate      estimate     Asset Condition
Building & Structures                                                   $497          $619          Poor to Fair
Equipment (vehicles and vessels)                                         113           127          Poor to Fair
Heritage assets                                                          124           144.         Poor to Fair
Total




                                                       See accompanying Independent Auditors' Report.
                                                             Required Supplementary Information




Department of Homeland Security Fiscal Year 2005 Performance and Accountability Report                             326
 Financial Information (Unaudited)

 lntragovernmental Transaction Disclosures

 lntragovernmental transaction amounts represent transactions between Federal entities included in the
 Financial Report of the United States Government (formerly the Consolidated Financial Statements of the
 United States Government) published by the U.S, Department of the Treasury. All amounts presented are
 net of intra-departmental eliminations.

 The amount of intragovernmental assets and liabilities classified by trading partner at September 30,
 2005 and 2004, are summarized below.

lntragovernmental Assets as of September 30,2005 (in millions)
                                                                      Investments
                                                    Fund Balance       and Related    Advances and
Partner Agency                                      with freasury          interest    Prepayments       Other


Treasury General Fund
Department of Commerce
Department of Interior
Department of Justice
Bepartment of Labor
Department of the Navy
Department of State
Department of Treasury
Environmental Protection Agency
Department of the Air Force
Department of the Army
Department of Transportation
Department of Housing and Urban Development
Office of the Secretary of Defense Agencies
The Judiciary
Other
fotals




                               See accompanying Independent Auditors' Report.
                                     Required Supplementary Information




  Department of Homeland Security Fiscal Year 2005 Performance and Accountability Report           327
lntragovernmental Assets as of September 30,2004 (in millions)
                                                                     Investments
                                                Fund Balance          and Related    Advances and
Partner Agency                                  with Treasury             Interest    Prepayments   Other


Treasury General Fund
Department of Commerce
Department of Interior
Department of Justice
Department of Labor
Department of the Navy
Department of State
Department of Treasury
Social Security Administration
Department of the Army
National Science Foundation
Department of Transportation
Office of the Secretary of Defense Agencies
Other
Totals




                                 See accompanying Independent Auditors' Report.
                                       Required Supplementary Information




  Department of Homeland Security Fiscal Year 2005 Performance and Accountability Report
lntragovernmental Liabilities as of September 30, 2005 (in millions)
Partner Agency                                     Due to Treasury         Accounts Payable      Other


Treasury General Fund
Department of Agriculture
Bepartme~tof Commerce
Bepartment of Interior
Bepartment of Justice
Department of Labor
Department of the Navy
Department of State
Department of Treasury
Department of Veterans Affairs
Department of the Army
Bepartment of the Air force
Office of Personnel Management
Social Security Administration
General Services Administration
Environmental Protection Agency
Department of Transportation
Agency for International Development
Department of Health & Human Services
Department of Energy
National Science Foundation
U.S. Army Corps of Engineers
Office of the Secretary of Defense Agencies
Other                                                                                       1           1
Totals                                                       $1,434                     $870         $854




                                 See accompanying Independent Auditors' Report.
                                       Required Supplementary Information




  Department of Homeland Securify Fiscal Year 2005 Perform           :e and Accc   tability Report      329

                                                             - . .. - ..
 Financial Information (Unaudited)-+        -.
                                           ..-

lntragovernmental Liabilities as of September 30, 2004 (in millions)
Partner Agency                                   Due to Treasury   Accounts Payable        Other


Treasury General Fund                                                              $   -     $8
Department of Agriculture                                                          16          2
Department of Commerce
Department of Interior                                                             12
Department of Justice                                                             123         30
Department of Labor                                                                          242
Department of the Navy                                                             38          7
Department of State                                                                    7      13
Department of Treasury                                                             (4)        26
Department of Veterans Affairs                                                     10          4
Department of the Army                                                             24         41
Office of Personnel Management                                                         4      52
Social Security Administration                                                                 9
General Services Administration                                                    18         63
Environmental Protection Agency                                                    10          1
Department of the Air Force                                                        18          2
Department of Transportation                                                       12         34
Department of Health & Human Services                                              40          6
Department of Energy                                                              127          3
U.S. Army Corps of Engineers                                                      136
Office of the Secretary of Defense                                                 316        12
Agencies
Other                                                                                  4       8
Totals                                                    $1,257                  $911      $563




                                 See accompanying Independent Auditors' Report.
                                       Required Supplementary information




                 Homeland Security Fiscal Year 2005 Performance and Accountability Report          330mq:
 nrrc~rrbrar   rrrarrvr   I   (Unaudifed)


FY 2005 lntragovernmentalExchange Revenue from Trade Transactions (in millions)
Partner Agency                                  ExchangeRevenue

Library of Congress
The Judiciary
Department of Agriculture
Department of Commerce
Department of Interior
Department of Justice
Department of Labor
Department of the Navy
United States Postal Service
Department of State
Department of Treasury
Department of the Army
Social Security Administration
Department of Veterans Affairs
General Services Administration
National Science Foundation
Department of the Air Force
Environmental Protection Agency
Department of Transportation
Agency for International Development
Department of Health & Human Services
Department of Housing & Urban Development
Department of Energy
Department of Education
U.S. Equal Employment Opportunity Commission
U.S. Army Corps of Engineers
Office of the Sec'y of Defense Agencies
Other                                                                          21
Totals                                                                       $940



                                     See accompanying Independent Auditors' Report.
                                           Required Supplementary Information




  Department of Homeland Securi             :iscal Year 2005 Performance and Accour   ilify Report   33 1
 Financial lnformafion (Unaudited)


FY 2004 lntragovernmental Exchange Revenue from Trade Transactions (in millions)
Partner Agency                                   ExchangeRevenue

Executive Office of the President
Department of Agriculture
Department of Commerce
Department of Interior
Department of Justice
Department of the Navy
Department of State
Department of Treasury
Department of the Army
Social Security Administration
General Services Administration
National Science Foundation
Environmental Protection Agency
Department of Transportation
Department of Health & Human Services
Department of Education
National Transportation Safety Board
Other                                                                  5
Totals                                                              $766




                             See accompanying Independent Auditors' Report.
                                   Required Supplementary Information




  Departmgnf of Homeland Secufiy Fiscal Year 2485 Performance and Accountabilify Report   332
Financial Information (Unaudited)



FY 2005 Cost to Generate lntragovernmental Exchange Revenue, by Budget Subfunction
(in millions)
Budget Subfunction                              Cost

National Defense
Transportation
Community and Regional Development
Administration of Justice
General Government                                   618
Total                                               $988



FY 2004 Cost to Generate lntragovernmental Exchange Revenue, by Budget Subfunction
(in millions)
Budget Subfunction                              Cost

Transportation                                      $123
Community and Regional Development                     87
Administration of Justice                             147
General Government                                    840
Total                                              $1,197




                             See accompanying independent Auditors' Report.
                                    Required Supplementary Information




Department of Homeland SecurifyFiscal Year 201       'erformance and AccountabilityReport   3 33
 Financial lntormatlon (Unauurteu)


FY 2005 lntragovernmental Non-Exchange Revenue (in millions)
Partner Agency                              Transfers-In     Transfers-Out


Treasury General Fund
Department of Agriculture
Department of Commerce
Department of Interior
Department of Treasury
Environmental Protection Agency                                          16
Department of Transportation                                             15
U.S. Army of Corps of Engineers                        3
Office of the Sec'y of Defense Agencies               14                 15
Other                                                  2                   6
f otals                                             $346                $7 1




FY 2004 lntragovernmental Non-Exchange Revenue (in millions)
Partner Agency                              Transfers-ln      Transfers-Out


Department of Interior
Department of Treasury
General Services Administration
Environmental Protection Agency
Department of Transportation
Other
Totals                                              $343               $202




                               See accompanying Independent Auditors' Report.
                                     Required Supplementary Information
Financial Information (Unaudited)
                                     --


Combined Schedule of FY 2005 Budgetary Resources by Responsibility Segments (in millions) (page 1 of 3)
                                                                                      Information                 U.S.                          U.S.          Depart-
                                                       'Orderand
                                                       Transport-       Emergency     Analysis &    Science &                    "."        Citizenship 8      mental      Total
                                                         ation                       Infrastructure Technology    Coast
                                                                                                                  Guard         Secret
                                                                                                                                Service      Immigration      Offices 8
                                                        Security        &              ~rotection                                             Services         Other
BUDGETARY RESOURCES
Budget Authority:
 Appropriations Received
 Borrowing Authority
 Net Transfers
Unobligated Balance:
 Beginning of Period
  Net Transfers
Spending Authority from Offsetting Collections:
 Earned:
   Collected
   Receivable from Federal Sources
   Change in Unfilled Customer Orders:
   Advances Received                                             (17)          534                          (4)           (7)       (12)                (7)          84            571
   Without Advances From Federal Sources                         251           188             5            (1)           30         (5)                 7           94            569
   Transfers from Trust Funds - Collected                           3                                                     47                                                       50

Total Spending Authority from Offsetting Collections            4,482        3,425             6            19           426           11              (13)         409        8.764
                                                                                                                                                                          (continued)




uepanmenr or nornerano security Fiscal Year 2005 Performance and Ac~,,,ttability Report                             33 5 s
                                                                                                                           w-      I
Financial Information (Unaudited)


Combined Schedule of FY 2005 Budgetary Resources by Responsibility Segments (in millions), (page 2 of 3)

                                                                                     Information                                                U.S.        Depart-
                                                   'Order and          Emergency      Analysis &      Science &     U.S
                                                                                                                                           Citizenship &     mental
                                                   Transport-         Preparedness                                                                                        Total
                                                      ation                          Infrastructure   Technology    Coast
                                                                                                                    Guard        Secret    Immigration      Offices &
                                                    Security            Response       protection                                            Services        Other


Recoveries of Prior Year Obligations
Temporarily Not Available Pursuant to Public Law
Permanently Not Available                                   (1,828)           (38)              (5)                       (52)      (13)              (1)         (24)       (1,961)
TOTAL BUDGETARY RESOURCES                                   $23,481        $81,177         $1,121         $1,574     $9,375       $<,439         $2,061        $5,452      $125,680


STATUS OF BUDGETARY RESOURCES
Obligations Incurred:
 Direct
 Reimbursable
Total Obligations Incurred
Unobligated Balances Available:
 Apportioned:
   Apportioned Balance Currently Available
 Exempt from Apportionment
Unobligated Balances Not Available                            2,146          2,268               8            (1)         391        77             244            44         5,177
TOTAL STATUS OF BUDGETARY RESOURCES                         $23,481        $81,177         $1,121
                                                                                                        - $1,574     $9,375       $9,439          $2,061       $5,452      $125.680
                                                                                                                                                                         (continued)
Financial Information (Unaudited)
                                              -y& , #-q=rA'I*:rm v
                                                     . -
                                                                     -   .-. - .   7 7 . -     I

                                                 .-
                                                   4




Combined Schedule of FY 2005 Budgetary Resources by Responsibility Segments (in millions), (page 3 of 3)

                                                                                       Information                                        U.S.       Depart-
                                                                                                                    U.S.
                                                       Transport-                                                           '."      Citizenship &    mental     Total
                                                         ation
                                                        Securitv
                                                                         '            lnfastrucfure
                                                                                        protection
                                                                                                      Technology
                                                                                                                   coast    Secret
                                                                                                                                     Immigration
                                                                                                                                       Services
                                                                                                                                                     Offices &
                                                                                                                                                      Other
RELATIONSHIP OF OBLIGATIONS TO
OUTLAYS
Obligated Balance, Net, Beginning of Period
Obligated Balance Transferred, Net
Obligated Balance, Net, End of Period:
 Accounts Receivable
 Unfilled Customer Orders from Federal Sources
 Undelivered Orders
 Accounts Payable
Total Obligated Balance, Net, End of Period
Outlays:
 Disbursements
 Collections
Total Outlays
Less: Offsetting Receipts
NET OUTLAYS




Department of'hmeranar securffyt~scaryear L U U ~rerrormance am ~ccounmbilityReport                                  3 37
Financial lnformation (Unaudited)



Combined Schedule of FY 2004 Budgetary Resources by Responsibility Segments                      - Restated (in millions) ( page 1 of 3)
                                                                         Information                                           U.S.       Depart-
                                                                                                       U.S.               Citizenship &   mental
                                                       Transport-
                                                      'Order and          Analysis &     science
                                                                                               g                                                       Total
                                                        ation           Infrastructure   Technology             Secret    Immigration     Offices &
                                                                                                      Guard     Service     Services
                                                       Securitv     &     protection                                                       Other
BUDGETARY RESOURCES
Budget Authority:
 Appropriations Received
 Borrowing Authority
 Net Transfers
Unobligated Balance:
 Beginning of Period
 Net Transfers
Spending Authority from Offsetting Collections:
 Earned:
  Collected
   Receivable from Federal Sources
   Change in Unfilled Customer Orders:
   Advances Received
   Without Advances From Federal Sources
 Transfers from Trust Funds

Total Spending Authority from Okietting Collections                                                                                                        6,694
                                                                                                                                                      (continued)




Departn       t of Homeland Securrty Prscal Year zoos rerrormance ana ~ c c o u n r a ~ r ~Keporr
                                                                                            rry          338
    'inancial lnformafion (Unaudited)
    -   -- - - ---- . - -. - -   -    -




    Combined Schedule of FY 2004 Budgetary Resources by Responsibility Segments                          - Restated (in millions), (page 2 of 3)

                                                       Border and                  Information                 U.S.                     U.S.        Depart-
                                                       Transport-   Emergency       Analysis &    Science &                        Citizenship &    mental      Total
                                                          ation                   Infrastructure Technology   Guard      SeMce
                                                                                                                         Secret    Immigration     Offices &
                                                        Security    & Response      ~rotection                                       Services        Other


    Recoveries of Prior Year Obligations
    Temporarily Not Available Pursuant to Public Law
    Permanently Not Available
    TOTAL BUDGETARY RESOURCES

    STATUS OF BUDGETARY RESOURCES
    Obligations Incurred:
     Direct
     Reimbursable
    Total Obligations Incurred
    Unobligated Balances Available:
     Apportioned
     Exempt from Apportionment
    Unobligated Balances Not Available

    TOTAL STATUS OF BUDGETARY RESOURCES                   $26,622       $12,478          $867        $1,289     $8,448    $1,458          $1,923
                                                                                                                                          -            $794       $53,879

                                                                                                                                                               (continued)




I
    Department of Homeland Security Fiscal Year 2005 Performance and Accountability Report                      ,,,
Financial Information (Unaudited)




Combined Schedule of FY 2004 Budgetary Resources by Responsibility Segments                        - Restated (in millions), (page 3 of 3)
                                                 Border and                  Information                 U.S.                    U.S.        Depart-
                                                 Transport-   Emergency      Analysis &    Science &                        Citizenship &    mental     Total
                                                   ation                    Infrastructure Technology   Guad      Service
                                                                                                                  Secret     Immigration    Offices &
                                                  Security    8               protection                                      Services       Other
RELATIONSHIP OF OBLlGATIONS TO
OUTLAYS
Obligated Balance, Net, Beginning of Period
Obligated Balance Transferred, Net
Obligated Balance. Net, End of Period:
 Accounts Receivable
 Unfilled Customer Orders from Federal Sources
 Undelivered Orders
 Accounts Payable
Total Obligated Balance, Net, End of Period
Outlays:
  Disbursements
 Collections
Total Outlays
Less: Offsetting Receipts
NET OUTLAYS




                                                                  See accompanying Independent Auditors' Report.
                                                                        Required Supplementary Information




     artment ot Homelancl securny Prscar rear       dvur, rerrorrnance ana n~wurrfabilifyReport            340
 nanoal intormatton (Unauulteu)

Custodial Activity

Substantially all duty, tax and fee revenues collected by CBP are remitted to various General Fund
accounts maintained by Treasury. Treasury further distributes these revenues to other Federal agencies
in accordance with various laws and regulations. CBP transfers the remaining revenue (generally less
than two percent of revenues collected) directly to other Federal agencies, the Governments of Puerto
Rico and the U.S. Virgin Islands, or retains funds as authorized by law or regulations. Refunds of
revenues collected from importlexport activities are recorded in separate accounts established for this
purpose and are funded through permanent indefinite appropriations. These activities reflect the non-
entity, or custodial, responsibilities that CBP, as an agency of the Federal government, has been
authorized by law to enforce.

CBP reviews selected documents to ensure all duties, taxes and fees owed to the Federal government
are paid and to ensure regulations are followed. If CBP believes duties, taxes, fees, fines, or penalties are
due in addition to estimated amounts previously paid by the importer/violator, the importer/violator is
notified of the additional amount due. CBP regulations allow the importer/violator to file a protest on the
additional amount due for review by the Port Director. A protest allows the importer/violator the
opportunity to submit additional documentation supporting their claim of a lower amount due or to cancel
the additional amount due in its entirety. Work in progress will continue until all protest options have
expired or an agreement is reached. During this protest period, CBP does not have a legal right to the
importer/violator's assets, and consequently CBP recognizes accounts receivable only when the protest
period has expired or an agreement is reached. For fiscal years 2005 and 2004, CBP had legal right to
collect $1.4 billion and $1.3 billion of receivables respectively. In addition, there was an additional $1.86
billion and $1.58 billion representing records still in the protest phase for fiscal years 2005 and 2004
respectively. CBP recognized as write-offs $134 million and $136 million respectively, of assessments
that the Department has statutory authority to collect at September 30, 2005 and 2004, but has no future
collection potential. Most of this amount represents fines, penalties and interest..

USCG collects various fines, penalties and miscellaneous user fees from the public that are deposited to
the General Fund miscellaneous receipls of the U.S. Treasury. USCG does not collect taxes or duties. As
of September 30, 2005 and 2004, USCG had outstanding general fund receipt receivables due to the
Treasury General Fund of $15 million and $14 million, respectively.




                             See accompanying Independent Auditors' Report.
                                   Required Supplementary Information




Department of Homeland Securi, . :iscal Year 2005 Performance and Accountability Report             341
  Financial Information (Unaudited)

  Segment lnformation (in millions):

                                                          September 30,2005                       September 30,2004
                                                 --   -

                                                Working      ~ e v o l v i n ~ Revolving   Working    Revolving Revolving
                                                 Capital          Fund:           Fund:     Capital      Fund:     Fund:
                                                  Fund          Supply             Yard      Fund       SUDP~Y      Yard


     Fund Balance with Treasury

     Accounts Receivable

     Property, Plant and equipment

     Other Assets

     Total Assets


     Accounts Payable

     Other Liabilities

     Total Liabilities


     Net Position, Beginning

     Revenue

     Less: Cost

     Net Position, Ending


     Total Liabilities and Net Position




  The Department's Working Capital Fund (WCF) is a fee-for-service fund that is fully reimbursable. The
  WCF provides a variety of support services primarily to the Department's components, and to other
  Federal entities. The WCF operates on a revolving fund basis, whereby current-operating expenses
  charged to the customer finance the cost of goods and services. The overall financial goal of the fund is
  to fully cover the operating expenses while building a minimal capital improvement reserve.

  The USCG Yard revolving fund (Yard Fund) finances the industrial operations at the USCG Yard in Curtis
  Bay, Maryland and other USCG industrial sites. The USGG Supply revolving fund (Supply Fund) finances
  the procurement of uniform clothing, commissary provisions at USCG dining facilities, general stores,
  technical material and fuel for vessels over 180 feet in length.


                                          See accompanying Independent Auditors' Report.
                                                Required Supplementary lnformation




-- Departn        'of Hom<a&Security           Fiscal Year 2005 Performance andAccqgnfabi!ity             port        342
Risk Assumed Information

The Department has performed an analysis of the contingencies associated with the unearned premium
reserve for the National Flood Insurance Program (NFIP). That analysis shows unearned premium
reserve is greater than the combined values of (i) the estimated present value of unpaid expected losses
and (ii) other operating expenses associated with existing policy contracts. Therefore, the Department
can state the unearned premium reserve will be adequate to pay future losses and other operating
expenses associated with existing policy contracts. However, there is a remote chance that the volume of
flood losses in the next year could exceed the unearned premium reserve.

Our estimate of the present value of unpaid expected losses is based on a loss ratio (losses to premium),
which is then multiplied by the current unearned premium reserve. This loss ratio is derived from the NFlP
actual historical premium, historical losses and historical mix of business, each adjusted to today's level.
More specifically, historical premiums have been adjusted to reflect the premium levels of the present by
making adjustments for historical rate changes and historical changes in coverage amounts. Historical
losses have been adjusted for inflation, using inflation indexes such as the Consumer Price Index as well
as chain price indexes, to reflect the values that historical losses would settle as if they were settled
today. In addition, the historical mix of business is adjusted to reflect today's mix of business. Examples
of how the historical mix of business includes proportionately fewer pre-firm policies versus post-firm
policies are in force today. Also, there are proportionately more preferred risk policies in force than in past
years.




                              See accompanying Independent Auditors' Report.
                                    Required Supplementary Information
Required Supplementary Stewardship Information
(unaudited)
Heritage Assets
USCG and CBP maintain heritage assets, located in the United States, including the commonwealth of
Puerto Rico. Heritage assets are property, plant and equipment that have historical or national
significance; cultural, educational, or artistic importance; or significant architectural characteristics.
Heritage assets are generally expected to be preserved indefinitely. Multi-use heritage assets have more
than one purpose such as an operational purpose and historical purpose.

The following table summarizes activity related to Heritage Assets for the fiscal years ended September
30, 2005 and 2004 (in number of units).

                                  2005 (unaudited)                          2004 (unaudited)
                            USCG         CBP           Total           USCG           CBP           Total


Beginning Balance
Additions
Withdrawals
Ending Balance

USCG possesses artifacts that can be divided into four general areas: ship's equipment, lighthouse and
other aids-to-navigation items, military uniforms and display models. The addition of artifacts is the result
of gifts to USCG.

    s   Ship's equipment is generally acquired when the ship is decommissioned and includes small
        items such as sextants, ship's clocks, wall plaques, steering wheels, bells, binnacles, engine
        order telegraphs and ship's name boards. Conditions will vary based upon use and age.
    e   Aids-to-navigation items include fog and buoy bells, lanterns, lamp changing apparatus and
        lightl?ouse lenses. Buoy equipment is usually acquired when new technology renders the
        equipment obsolete. Classical lighthouse lenses can vary in condition. The condition is normally
        dependent on how long the item has been out of service. The lenses go to local museums or
        USCG bases as display items.
    s   Military uniforms are generally donated by retired USCG members and include clothing as well as
        insignia and accessories. Most clothing is in fair to good condition, particularly full dress items.
    0   Display models are mostly of USCG vessels and aircraft. These are often builders' models.
        Display models are generally in very good condition. Builders' models are acquired by USCG as
        part of the contracts with the ship or aircraft builders. The withdrawal of display models normally
        results from excessive wear.


                              See accompanying Independent Auditors' Report.
                              Required Supplementary Stewardship Information




~ ~ ~ m eof iHomeland
              7 t     S e d y Fiscal Year 2005 Petjb~marceand Accountabiljty Report                   344-
Financial Information (Unaudited)

The USCG also has non-collection type heritage assets, such as sunken vessels and aircraft under the
property clause of the U.S. Constitution, Articles 95 and 96 of the International Law of the Sea
Convention and the sovereign immunity provisions of Admiralty law. Despite the passage of time or the
physical condition of these assets, they remain Government-owned until the Congress of the United
States formally declares them abandoned. The USCG desires to retain custody of these assets to
safeguard the remains of crew members who were lost at sea, to prevent the unauthorized handling of
explosives or ordnance which may be aboard and to preserve culturally valuable relics of the USCG's
long and rich tradition of service to our Nation in harm's way.
Buildings and Structures - USCG does not acquire or retain heritage buildings and structures without an
operational use. Most real property, even if designated as historical, is acquired for operational use and is
transferred to other government agencies or public entities when no longer required for operations. Of the
USCG buildings and structures designated as heritage, including memorials, recreational areas and other
historical areas, over two-thirds are multi-use heritage. The remaining are historical lighthouses, which
are no longer in use and awaiting disposal, their related assets; and a gravesite. CBP also has four multi-
use heritage assets located in Puerto Rico. All multi-use heritage assets are reflected on the
Consolidated Balance Sheet. Financial information for multi-use heritage assets is presented in the
principal statements and notes. Deferred maintenance information for heritage assets and general PP&E
is presented in the required supplementary information.


Stewardship Investments
Due to the transformational nature of BHS Programs, stewardship investments information is presented
only for fiscal year 2005. Stewardship investments are substantial investments made by the Federal
government for the benefit of the nation. When incurred, they are treated as expenses in calculating net
cost, but they are separately reported as Required Supplementary Stewardship lnformation (RSSI) to
highlight the extent of investments that are made for long-term benefit. Fiscal year 2005, investment
amounts reported below are an allocation of gross cost based on program outlays.      ,




                           Summary of Stewardship investments (in millions)
                                                           Non-Federal                          Research and
Programs                                                      Property     Human Capital        Development
SLGCP   - First Responders Programs                                  $-                   $29                $320
S&T - Research and Development Programs
Total




                             See accompanying Independent Auditors' Report.
                             Required Supplementary Stewardship lnformation




Department o f Homeland Security Fiscal Year 2005 Performance and Accountability Report              -   -
Investments in Human Capital

These investments include expenses incurred for programs for education and training of the public that
are intended to increase or maintain national productive capacity and that produce outputs and outcomes
that provide evidence of maintaining or increasing national productive capacity. Based on a review of the
Department's programs, SLGCP has made significant investments in Human Capital.

      SLGCP

      First Responders Training Programs: In fiscal year 2005, SLGCP provided various training
      initiatives to improve the knowledge, skills, and abilities of first responders for prevention, response,
      and recovery. Highlights of performance information include:




                              See accompanying Independent Auditors' Report.
                              Required Supplementary Stewardship Information




Department of Homeland Security Fiscal Year 2005 Petformance and,             ountability Report      346
Investments in Research and Development

These investments represent expenses incurred to support the search for new or refined knowledge and
ideas and for the application or use of such knowledge and ideas for the development of new or improved
products and processes with the expectation of maintaining or increasing national productive capacity or
yielding other future benefits. Based on a review of the Department's programs, SLGCP and SAT have
made significant investments in Research and Development.

      SLGCP

      First Responder Research and Development Programs: In fiscal year 2005, SLGCP supported
      initiatives that improved processes or capabilities of the nation's first responders for prevention,
      response, and recovery. Highlights of performance information include:


           -
        Proaram           I          Performance Measure                  I   FY 2005
                                                                               Target
                                                                                        1   FY 2005 Results   1
National Exercise            Percent of jurisdictions demonstrating             23%              40%
Program                      acceptable performance on applicable
                             critical tasks in exercises using SbGCP
                          I approved scenarios.
National Exercise         1 Percentage of action items identified in      1    4I0/o    1         7%
Program                      After-Action Reports (AAR) that were
                             implemented.
State Preparedness           Percent of jurisdictions demonstrating            23 '10            40 %
Grants Program               acceptable performance on applicable
                             critical tasks in exercises using- State
                             SLGCP approved scenarios.
State Preparedness           Percent of state and local homeland          1    50%               35%
Grants Program               security agency grant recipients reporting
                             measurable progress towards identified
                             goals and objectives to prevent and
                           ( respond to terrorist attacks.
Urban Areas Security       1 Percent of iurisdictions demonstrating
initiative                    acceptab16 performance on applicable
                             critical tasks in exercises using SLGCP
                           I approved scenarios.
Urban Areas Security      I  Percent of participating urban area grant
Initiative                   recipients reporting measurable progress
                              made towards identified goals and




                              See accompanying Independent Auditors' Report.
                              Required Supplementary Stewardship Information




  kepartment ofHomeland Securiiy Fiscal Year 2005 Pe'Wmance and Acwurlfability Report                   3
      Research and Development Programs: In fiscal year 2005, S&T sponsored several research and
      development programs to advance the science and intellectual capacity needed to support the
      Department's mission. Highlights of performance information include:

       Program                     Performance Measure                                FY 2005 Target        FY 2005 Results
Radiological & Nuclear    Progression on planned capability                       Demonstrate             Demonstrated two
Countermeasures           development for Nuclear Incident                        two advanced            advanced detection


Threat and
                          Management and Recovery.

                          Improvement in the national capability
                                                                    I             detection
                                                                                  technologies.
                                                                                          7
                                                                                                          technologies.
                                                                                                                   7

Vulnerability, Testing    to assess threats and vulnerabilities to
Assessments               terrorist attacks: 10 categories to be
                          assessed.
Cyber Security            Development of research                                 Prepare                 Multiple
                          infrastructure to provide broad-based          ,        demonstration           demonstrations
                          support to                                              of operational
                          governmentluniversitylprivate sector                    use of cyber
                          research communities, through                           security test bed
                          development and support of a cyber
                          security test bed and cyber security
                          data sets collection and dissemination
                          program.
Explosives
Countermeasures
                          Number of pilot tests of standoff
                          detection technologies.                        t--
                                                                         ,
                                                                                  One rail
                                                                                  environment to
                                                                                                          One rail environment
                                                                                                                                 I




Rapid Prototyping         Percent of technologies prototyped or
                                                                         1'       detect suicide
                                                                                  bombs
                                                                                         3%                      1 1OO/
                                                                                                                           .

                          commercialized.
Standards                 Establish technical standards and                       Develop          Technical standards
                          testlevaluation protocols for weapons                   technical        and testkvaluation 1
                          of mass destruction decontamination                     standards and    protocols were
                          technologies and analysis tools. 2)                     testlevaluation  developed. A
                          Establish and accredit a network of                     protocols for    network of
                          privatelpublic labs to perform testing,                 WMD              privatelpublic labs to
                          evaluation, and certification of                        decontamination perform testing,
                          weapons of mass destruction                             technologies.    evaluation and
                          emergency response technologies to                      Develop a        certification of WMD
                          allow effective procurement and                         network of       emergency response
                          deployment of technologies that will                    privatelpublic   technologies was
                          substantially reduce risk and enhance                   labs to perform  developed
                          resiliency of the federal, state, and                   testing,
                          local response capability.                              evaluation and
                                                                                  certification of
                                                                                  WMD
                                                                                  emergency
                                                                              \
                                                                              I   response
                                                                                   technologies.
                                                                              I
Biological                 Improved capabilities to detect threats                    Increase            Coverage was
Countermeasures            in urban areas (Urban Monitoring                           coverage in top     increased in top 10
                           Program)                                                   10 threat cities.   threat cities.
Counter Man-Portable       Number of effective                                          2 (estimate)                  2
Air Defense System         technologyltechnologies for




Department o f Homeland Security R$cal Year 2005 ~erf~rrnance,ad
                                                              ~cmuntabiliyRepwt

                         . . . -. - ..   -- ..   -.   . . .. .   _ ...            _            __
tmancrar ~nrormarron( unauarreaj

(MANPADS)              commercial aircraft to defeat man-
                       portable anti-aircraft missiles
                       identified. Technologies identified,
                       and prototypes developed and tested.
University Programs    Number of scholars and fellows             20014                 30014
                       supported and number of University
                       Centers of Excellence.
Chemical               Development of protocols for the       Protocols         Development of a
Countermeasures        highest priority toxic industrial      Developed         prototype mobile
                       chemicals (TICS)and toxic industrial                     laboratory capable of
                       materials (TIMs).                                        on-site, high
                                                                                throughput analysis
                                                                                of TICSand CWAs
                                                                                was completed and
                                                                                the candidates
                                                                                characterized in field
                                                                                test. An initial
                                                                                evaluation of the
                                                                                risks, vulnerabilities,
                                                                                andconsequences
                                                                                due to attacks using
                                                                                the TIC cyanide was
                                                                                initiated.
Interoperability &     Improve emergency response            Develop criteria   Criteria not
Compatibility          interoperability and compatibility to                    developed
                       strengthen public safety preparedness
                       and response.




                           See accompanying Independent Auditors' Report.
                           Required Supplementary Stewardship Information




Department of Homeland Securify Fiscal Year 2005 Performance and Accounfability Report        349
I-mancral ~nrormarion( unauaIrea/


Other Accompanying Information (unaudited)
Tax Burdenl Tax Gap
The Compliance Measurement (CM) Program was initiated in fiscal year 1995 for the purpose of
collecting objective statistical data to determine the compliance level of commercial imports with U.S.
trade laws, regulations, and agreements, and to estimate the revenue gap. CM data is also used in risk
management decisions to identify high-risk areas and measure the effectiveness of actions taken to
improve compliance in those areas.

The preliminary overall trade compliance rate for fiscal year 2005 is 95%, a significant improvement from
89% percent in fiscal year 1998. With overall compliance at a high level, CBP has been able to
emphasize matters of significant trade risk.

In fiscal year 2002, CM methodology and contents were adapted for gathering information to address
security issues. The utility of statistical sampling for monitoring many kinds of cross-border activity
permits CM to support CBP's priority mission of keeping terrorists and terrorist weapons from getting into
the United States, while maintaining its traditional contribution to trade compliance oversight.

In fiscal year 2004, CM exam report requirements were further expanded to capture data pertaining to the
24-Hour Advance Manifest law and, in addition, to report on mismatches between bill of lading and entry
summary data.

CBP has also calculated the preliminary fiscal year 2005 revenue gap to be $409 million. The final overall
trade compliance rate and estimated revenue gap for fiscal year 2005 will be issued in January 2006. This
revenue gap is a calculated estimate that measures our potential loss of revenue due to noncompliance with
trade laws, regulations, and agreements using a statistically valid sample of the revenue losses and
overpayments detected during Compliance Measurement exams conducted throughout the year.




Department of     melanc     !curity I   :a/ Year 2005 Performance and Accountal    /   Report     350
Financial Information (Unaudited)


Improper Payments
Po comply with the requirements of the Improper Payments Information Act of 2002 (IPIA) and related
guidance from the Office of Management and Budget (OMB), the Department carried out the next phase
of a plan begun in fiscal year 2004, to reduce its susceptibility for issuing improper payments. In fiscal
year 2004, the Department completed a risk assessment of major programs. This risk assessment did
not identify any programs as at high risk for issuing improper payments. In fiscal year 2005, each
component completed statistically significant testing of fiscal year 2004 payments from their largest
program (with the exception of FEMA, see below). All major payment types within the largest program
were sampled. Estimated error rates and amounts were calculated. As in fiscal year 2004, no program
was found to exceed the OMB defined high risk standards of $10 million and 2.5%.

FEMA's lPlA testing differed from other components as this entity faced unique circumstances and
findings. FEMA's largest program in terms of fiscal year 2004 disbursements was state grants. This
program is difficult to meaningfully test as the Department is not able to force states to complete lPlA
compliant payment testing. FEMA's second largest program, the Individuals and Households Program
(IHP), was the subject of a Department Office of Inspector General report (OIG-05-20, May 2005).
Findings in this report indicated that FEMA's IHP might be at high risk for issuing improper payments. A
first round of sample testing of IHP payments was inconclusive. A second round of testing showed that
the program is not at high risk for issuing improper payments.

As a result offour Florida and two Gulf Coast hurricanes, FEMA issued a high level of payments in fiscal
year 2005. The Department plans on extensively subjecting these payments to lPlA random sample
payment testing in fiscal year 2006. If FEMA's programs are found to be at high risk, immediate actions
will be taken to quantify the amount of improper payments issued, determine causes, implement
corrective actions, and recover funds. The Department's Office of Inspector General has set up a new
office which will exclusively examine Hurricane Katrina related payments. Additionally, the General
Accounting Office is conducting an audit of purchase card payments, procedures, and controls as part of
a government-wide analysis of the Federal response to Hurricanes Katrina and Rita.

Two major changes from fiscal year 2004 occurred as BHS' lPlA compliance program matured. The first
change was in the definition of lPlA programs. In fiscal year 2004, an lPlA program was defined by the
Future Years Homeland Security Program (FYHSP). FYHSP definitions offered consistent program
reporting but proved unsuitable for lPlA sample testing as costs are allocated as a group and are not
identified at the transaction level. In fiscal year 2005, DHS changed the definition of a program to
Treasury Appropriation Fund Symbol (TAFS). This definition was supported by all component accounting
systems at the transaction level. This change was approved by OM8 and allowed for ready identification
of each component's largest IPlA program.

The second major change to the Department's IPIA compliance program in fiscal year 2005 was the
testing of major payment types for each component's largest program (as ranked by fiscal year 2004
disbursed dollars). Fiscal year 2004 program risk scores were based on internal control, human capital,
programmatic risk and materiality of operating budget risk factors but did not consider individual payment
types. Fiscal year 2005's disbursement dollar driven risk assessment reflects the use of common
financial systems and payment processes to support all TAFS within a component. If sample testing from
the largest program showed a payment type to be at high risk for the issuance of improper payments, all
TAFS within that component would be tested. As the reporting details show, no major payment type or
program produced sizable enough errors to necessitate testing across all TAFS within any component.
Major payment types tested included commercial, travel, grant, employee reimbursement, purchase card,
and state and local.

Major IPIA programs were defined by exceeding $100 million in non-payroll, non-intergovernmental
annual disbursements. Programs issuing fewer disbursements were assumed to be too small to exceed
BMB's $10 million of erroneous payments reporting floor, Payroll disbursements were excluded because
of their re~etitive.stable nature and the extensive internal controls thev are subiected to.




Departmenf of Homeland Security Fiscal Year 2005 Performance and Accountability Report             35 1

              ------   --
Intergovernmental payments were excluded as they are internal payments which do not put the Federal
Government, as a whole, at risk.

Looking to fiscal year 2006, the Department expects to enter a fully mature phase of its IPlA program.
This phase will feature comprehensive component testing of all programs issuing more than $100 million
of IPlA covered disbursements, independent payment sample testing, and strengthened internal control
audit testing. Finally, extra controls may need to be put in place for components that switch to a new
financial system or are restructured.

To further identify and recover improperly disbursed funds and to comply with Section 831 of the Defense
Authorization Act for Fiscal Year 2002, the Department hired an independent contractor who conducted
recovery audit work at two major components, ICE and CBP. This recovery audit work over all fiscal year
2004 disbursements identified more than $2.1 million of improper payments and recovered more than
$1.2 million. BHS is considering expanding recovery audit work to other components in fiscal year 2006.

Reporting Details

I. Risk Assessment Process and lPlA Risk-Susceptible Programs

Risk Assessment Process

The Department uses Treasury Appropriation Fund Symbol (TAFS) to define lPlA programs. Within a
componen.t, the same financial systems and payment processes are shared across TAFS. This sliaring
of systems and people means that sample testing of the largest TAFS provides good risk assessment
information on smaller TAFS. An exception would be a TAFS that had some unique payment process
that was not tested under the largest TAFS. Each component tested their largest TAFS and calculated
the resulting error amounts and rates. This information was used to judge the risk to smaller TAFS. All
risk assessmenfs were component self-assessed.

Independently assessed data came from two sources. In the second half of the year at CBP and ICE,
Horn & Associates Inc. carried out contract recovery audit work. This work has supported the conclusi~ns
reached in the component self-assessments. In May of 2005, the Department's Office of Inspector
General (OIG) issued report OIG-05-20, Audit of FEMA's Individuals and Households Program (IHla) in
Miami-Dade County, Florida, for Hurricane Frances. This report listed improper payment findings
including problems with training of key personnel, estimation and verification of losses, and payment
system edits. Though some of these problems were unique to the multi-hurricane ravaged conditions
which occurred in Florida, many findings applied nationally. The findings listed in the report and an
inconclusive first round of IPIA sample payment testing resulted in a second, roughly three times larger,
second round of sample testing for the FEMA program. This second round of testing found that the IHP
did not exceed OMB's $10 million and 2.5% thresholds for fiscal year 2004 disbursements.

IPlA Risk-Susceptible Proqrams

The Department has no programs which had improper payment information formerly reported under
Section 57 of OMB Circular A-I I.The Department has no programs which tested as at high risk for the
issuance of improper payments based on sample testing of fiscal year 2004 disbursements.

At year-end, recovery audit contractor testing at ICE identified more than $2.1 million dollars and at CBP
less than $5Q,OQ0of erroneous fiscal year 2004 payments across all programs. The recovery audit at
ICE is mostly complete. An examination of telephone bills is estimated to yield around $1 million dollars
in further erroneous payments. Significant recovery audit work at CBP remains. The $50,000 erroneous
payment finding should be treated as a low estimate and not a final estimate. These audit recovery
results are consistent with the self-assessed finding by ICE and CBP that their largest programs are not
at high risk for issuing improper payments.




Department of Homeland Security Fiscal Year 2005 Performance and ~ccountabilityReport                  352

       - - . . .. ... - .   . - --   .. . .. ..   . . . ._   _ _ _ _ ___   _ .__   I   __ _   _   -_
Financial Information (Unaudited)

The majority of problems described in the OIG report on FEMA's Individuals and Households Program
(IHP) pertain to fiscal year 2005 issued payments. FEMA has implemented many corrections suggested
in the report. The IHP will continue to receive close IPlA related scrutiny and undergo independent
payment review in fiscal year 2006. To date, sample payment testing has not shown the program to be at
high risk for improper payments.

!I. lPlA Statistical Sampling Process

Each component, except FEMA for reasons described earlier, identified their largest program based on
the amount of fiscal year 2004 disbursements issued, excluding payroll and intergovernmental payments.
If the largest program issued at least $100 million of non-excluded payments, the component completed a
sampling for each major payment type. Per OMB Guidance, sample sizes were at least 126 payments
supporting at a 90% confidence interval error rates up to 5.5%. Major payment types tested included:
travel, employee reimbursements, commercial payments, grants, and contracts.

The projected error rate was the actual error rate from the sample. The projected error amount was the
actual error amount multiplied by the disbursement population total divided by the sample disbursement
total rounded. Thus, for example, if 2% of all disbursement dollars were sampled, the projected error
amount for that TAFS was 50 times the actual error amount from the sample rounded. Any programs or
segments found to issue anywhere near the $10 million and 2.5% OMB defined lPlA reporting thresholds
had to either complete a larger, more precise sample or develop and implement corrective action plans
with out year estimates of progress. Errors below $10 were ignored so long as, collectively, they did not
exceed $100.

Ill. Corrective Action Plans

The lack of an identified high risk lPlA program meant that no formal corrective action plans were
requested or completed by any component.

FEMA did implement several of the recommendations from the DHS QIG report on the Individuals and
Households Program. Implemented corrections included: improving inspection guidelines, overhauling
loss calculation methodology, improving loss documentation standards, ensuring that inspectors do not
live in inspection areas, and improving pre- and post-payment financial system edits.

1V. Sample Test Results

All sample sizes were 126 except for FEMA's 2ndround of testing which had a sample size of 400. The
OIG and FLETC did not have a TAFS program which exceeded $100 million in lPlA eligible fiscal year
2004 disbursements. Consequently, these two components did not perform lPlA sample payment
testing.

                                                          Oo
                                                           /
                                                                                                   Projected
                                                        Error                  Disbursement
Component              TAFS             Payment Type                  Error                          Error
                                                         Rate                  Total for Type
                                                                     Amount                         Amount
                                                       (by $'s
CBP                 70x0503        Commercial          0.0%           $1,382    $481,500,000              $84,900
                    70x0503        TravellEmployee     0.1O/O          $347      $30,900,000              $26,100
                                   Reimbursements




Department of Homeland Security Fiscal Year 2005 Performance and Accountabilify Report                    353

       --   -- - -- - -- -   - - - ..    -     -.              - -       -
                                                                                            -. -   -. -
Financial Information (Unaudited)




Dep,.   ...7ent of Homeland Security Fisc,.   .'ear 2005 Performance and Accountability Report   354
Financial Informafion (Unaudited)

V. Recovery Audit Efforts

Recovery audit contract work is underway at ICE and CBP. The contractor is Horn & Associates, Inc. All
fiscal year 2004 payments are under review. No payment groups are excluded. Collection efforts are
carried out by component staff after the contractor has identified a set of payments as improper and
component staff have concurred. Collections efforts center on letters stating the facts behind each
improper payment and demanding repayment.

An analysis of ICE improper payments has identified the following sources of error: human error, receipt
of original invoices followed by faxed copies from program offices, multiple payment databases, and
inadequate systems validations. All of these issues are currently being addressed by ICE management.
CBP is too early in the recovery audit to meaningfully identify error patterns.




VI. Holding Management Accountable

Supporting the President's Management Agenda (PMA) is a critical financial management goal of the
Department. The Under Secretary for Management oversees implementation of the PMA and reports
regularly to the Secretary. Given quarterly grading by OMB under the Erroneous Payments PMA
Program Initiative, management is constantly under pressure to demonstrate progress in slopping and
recovering improper payments.

VII. Information Systems Support

The Department has not set formal improper payment reduction targets as no program has been
identified as at: high risk for issuing improper payments. Components, particularly FEMA, have been
successful in implementing improved improper payment edits using their existing financial systems. No
specific IPlA related financial systems requests have been made to Congress.

VIII. Regulatory Barriers Which May Limit Corrective Action Plan Implementation

This standard is not yet applicable to the Department as there are no IPIA corrective action plans to limit.

IX. Additional Comments

In fiscal year 2005, the Department succeeded in carrying out improper payment sample payment testing
on each component's largest program. The results indicate that though several million dollars of improper
payments are issued each year, no program exceeds the OMB defined IPlA reporting thresholds of $10
million dollars and 2.5%. This testing consisted primarily of component self-assessments supplemented
by independent review by the DHS Office of Inspector General and a recovery audit contractor. In fiscal
year 2006, the Department will expand the use of independent review and expects to become fully IPlA
compliant.




Department of Homeland Security Fiscal Year 2005 Petformance and Accountability Report              355
Financial Information (Unaudited)


Effects of Hurricanes Katrina and Rita
The devastating effect of the Hurricanes Katrina and Rita on the Gulf States was unparalleled in recent
history. The loss of life and property were unimagined until this time. The U.S. Government proceeded
to create two supplemental appropriations for the Federal Emergency Management Agency totaling $60
billion to meet immediate needs arising from the consequences of Hurricane Katrina for fiscal year ending
September 30, 2005, and for other purposes. The main DHS components to be affected by the hurricane
are FEMA and the USCG. Other components that had minor costs related to Katrina were CBP, TSA
and ICE.

FEMA

These appropriations included $100 million that has been transferred to the Emergency Preparedness
and Response, Public Health Programs and $15 million that has been transferred to the Departmental
Management and Operations, Office of Inspector General. In October 2005, Public Law 109-88 provided
that $750 million of these funds is to be transferred to the Disaster Loan Program. In fiscal year 2005,
FEMA obligated $15.8 billion and expended $3.5 billion of these appropriated funds.


 Disaster Relief Fund
 Statement of Budgetary Resources (in millions)

 Budgetary Resources
 Budget Authority
 Net Transfers, current year
 Unobligated balance, brought forward
 Recoveries of prior year obligations
 Total Budgetary Resources

 Status of Budgetary Resources
 Obligations Incurred, Direct
 Unobligated balance, available
 Unobligated balance, unavailable


 Obligated balance, net Oct 1
 Obligated balance, net, end of period:
  Accounts Receivable
  Undelivered Orders
  Accounts Payable
 Obligated balance, net, end of period

 Qutlays
  Disbursements




Disaster Relief Emergency Supplemental Appropriations (in millions)




Department o f Homeland Security Fiscal Year 2005 Performance and Accountabilify Report          356
 .- .     ..   -   ----     .                             ...
Financial Information (Unaudited)

Appropriated (on 9/5/2005)
Appropriated (on 911212005)
Transferred
Net appropriation

Obligated
Less: Expended
Unliquidated obligations at 9130105


                                               Obligated         Expended      Unliquidated
Katrina Florida                                     $13                $1                $12
Katrina Louisiana                                 8,536             2,405              6,132
Katrina Mississippi                               4,348               566              3,782
Katrina Alabama                                   1,401                97              1,304,
Rita Texas                                          728               229                4.99
Rita Louisiana                                      499               173                325
States with Katrina Evacuees                        320                43                277
Total                                           $15,845            $3,514.           $12,331


Coast Guard

I-iurricanes Katrina and Rita have resulted in an unprecedented number of oil spills t~ navigable waters
and adjoining shorelines OSLTF funds have not been expended thus far in response to this disaster. The
$255 million in Stafford Act funding for pollution response falls short of the total estimated costs of
continued Federal cleanup response, as well as the economic and environmental damage co~iipensation
anticipated. The USCG is working with FEMA, EPA and the Department of Ho~iielandSecurity to ensure
either continued availability of Stafford Act funding, or replacement of Stafford Act funding with something
similar that shields the OSTLF from Hurricane Katrina and Rita impacts.

Various categories of USCG PP&E assets have suffered damage from Hurricane Katrina along the Gulf
Coast. Damage assessments are continuing to be received. Some damage assessments have been
completed, and to dale have resulted in thirty-three (33) buildings, structures, and general purpose
property being destroyed with a total net book value of $886,702. The estimated cost to rebuild or replace
these damaged assets is over $14.2 million dollars. Damage assessments are on-going, and as the
USCG receives them, additional adjustments to specific assets will be required. In addition to destroyed
assets, numerous categories of USCG PP8E buildings and structures ranging froti?USCG Stations, Air
Stations, Aids to Navigation (Range Lights), Storage Buildings, Marine Safety Units, Integrated Support
Commands, Sector Commands, Recruiting Offices, other miscellaneous assets have suffered damage,
arid although operational in some capacity, will require repairs or potential replacement once
assessments are complete. The USCG is currently compiling projected resource requ~rementsfor all
assets affected by Katrina and Rita and will be requesting supplemental funding.




Department of Homeland Security Fiscal Year 2005 Performance and Accountability Report.                       3 57

                               .. - - .-   .        . .- -----         --.-.-. .... ... . . _ __   _   __ _   __
Additional Information and Copies

Po obtain additional copies of this report, call the Office of lnspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the QIG Hatline at 1-800-323-8603; write to Department of
Homeland Security, Washington, BC 20528, Attn: Office of lnspector
General, Investigations Division - Hstline. The QIG seeks to protect the
identity of each writer and caller.
